No. 19-___

IN THE

ATLANTIC TRADING USA, LLC, ET AL.,
Petitioners,
v.
BP P.L.C., ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI

David E. Kovel
Andrew M. McNeela
Thomas W. Elrod
KIRBY MCINERNEY LLP
250 Park Avenue
Suite 820
New York, NY 10177
(212) 371-6600

Eric F. Citron
Counsel of Record
Daniel Woofter
Charles H. Davis
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

QUESTIONS PRESENTED
In Morrison v. National Australia Bank, Ltd., 561
U.S. 247, 259-60 (2010), this Court severely criticized
the Second Circuit’s so-called “conduct-and-effects”
test, and instead adopted a bright-line rule to determine whether a claim seeks a permissibly territorial
application of U.S. law. As applied to the Securities
Exchange Act, this simple “transactional test” asks
“whether the purchase or sale” underlying the claim
“[wa]s made in the United States, or involve[d] a security listed on a domestic exchange.” Id. at 269-70.
The Second Circuit and Ninth Circuit now disagree about whether passing this test is merely necessary, or instead sufficient, to state a permissibly territorial claim. See Stoyas v. Toshiba Corp., 896 F.3d 933
(9th Cir. 2018). And notwithstanding this disagreement—and direct criticism from the United States
government—the Second Circuit below doubled down,
and extended its holding that a domestic transaction
is insufficient to claims brought under the Commodity
Exchange Act, including claims based on transactions
“on a domestic exchange.” It purported to do so for two
reasons: (1) first and foremost, because its doctrine
correctly regards Morrison’s test as merely necessary;
and (2) because, while this Court said in Morrison that
the Securities Exchange Act is focused on the location
of the exchange, the Commodity Exchange Act is not.
The questions presented are:
(1) Whether passing Morrison’s domestic-transaction test is sufficient or merely necessary.
(2) Whether the focus of the Commodity Exchange
Act differs from the Securities Exchange Act’s focus on
the location of the exchange or transaction at issue.

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
Petitioners, who were Plaintiffs and Appellants in
the courts below are Atlantic Trading USA, LLC, John
Devivo, Anthony Insinga, Xavier Laurens, Kevin
McDonnell, Robert Michiels, Port 22, LLC, Prime International Trading, Ltd., Aaron Schindler, Neil Taylor, and White Oaks Fund LP.
Respondents, who were Defendants and Appellees
in the courts below are BP P.L.C., Trafigura Beheer
B.V., Trafigura AG, Phibro Trading L.L.C., Vitol S.A.,
Mercuria Energy Trading S.A., Hess Energy Trading
Company, LLC, Statoil US Holdings Inc., Shell Trading US Company, BP America, Inc., Vitol, Inc., BP Corporation North America, Inc., Mercuria Energy Trading, Inc., Morgan Stanley Capital Group Inc., Phibro
Commodities Ltd., Shell International Trading and
Shipping Company Ltd., Statoil ASA, and Royal Dutch
Shell PLC.
Pursuant to this Court’s Rule 29.6, petitioners declare as follows: (i) Atlantic Trading USA, LLC, Port
22, LLC, Prime International Trading, Ltd., and White
Oaks Fund LP are corporate entities; (ii) Atlantic
Trading USA, LLC is 100% owned by Atlantic Trading
Holdings, LLC (a non-public Illinois limited liability
company); and (iii) no publicly held corporation owns
10 percent or more of any of the petitioners’ shares.

iii
RELATED PROCEEDINGS
Proceedings directly on review:
Prime International Trading, Ltd., et al. v. BP p.l.c.,
et al., No. 17-2233 (2d Cir. Aug. 29, 2019; Oct. 23,
2019)
In re North Sea Rent Crude Oil Futures Litigation,
No. 1:13-md-02475-ALC (S.D.N.Y. June 29, 2017)

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ......................................... i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT ....................................................... ii
RELATED PROCEEDINGS....................................... iii
TABLE OF AUTHORITIES ....................................... vi
INTRODUCTION ........................................................ 1
PETITION FOR A WRIT OF CERTIORARI .............. 4
OPINIONS BELOW .................................................... 4
JURISDICTION........................................................... 4
RELEVANT STATUTORY PROVISIONS ................. 4
STATEMENT............................................................... 5
I.

Legal Background ................................................. 5

II. Factual and Procedural History ........................... 9
REASONS FOR GRANTING THE WRIT ................ 18
I.

The Lower Courts Are Divided Over the
Meaning of Morrison ........................................... 21

II. Both Questions Presented Are Important.......... 27
A. A uniform and predictable approach is
essential in this area .................................... 27
B. The Second Circuit’s alternative holding
makes this case far more important ............ 28
III. The Decision Below Is Incorrect ......................... 30
CONCLUSION .......................................................... 36

v
APPENDIX A: Court of Appeals Opinion
(2d Cir. 2019) ............................................................. 1a
APPENDIX B: Court of Appeals Summary
Order (2d Cir. 2019)................................................. 25a
APPENDIX C: District Court Opinion and Order
(S.D.N.Y. 2017) ........................................................ 36a
APPENDIX D: Court of Appeals Order
(2d Cir. 2019) ........................................................... 73a
APPENDIX E: Statutory Provisions ...................... 75a
APPENDIX F: Court of Appeals Brief for Amicus
Curiae U.S. Commodity Futures Trading
Commission in Support of Neither Party
(2d Cir. Nov. 22, 2017) ............................................. 86a

vi
TABLE OF AUTHORITIES
Cases
Absolute Activist Value Master Fund Ltd. v.
Ficeto,
677 F.3d 60 (2d Cir. 2012) ....................................... 8
Bersch v. Drexel Firestone, Inc.,
519 F.2d 974 (2d Cir. 1975) ..................................... 6
Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723 (1975) .................................................. 8
CFTC v. Am. Metals Exch. Corp.,
991 F.2d 71 (3d Cir. 1993) ..................................... 26
CFTC v. Baragosh,
278 F.3d 319 (4th Cir. 2002) .................................. 26
CFTC v. Monex Credit Co.,
931 F.3d 966 (9th Cir. 2019) .................................. 26
Dennis v. JPMorgan Chase & Co.,
343 F. Supp. 3d 122 (S.D.N.Y. 2018) ..................... 27
Greenwood v. Dittmer,
776 F.2d 785 (8th Cir. 1985) .................................. 26
IIT v. Cornfeld,
619 F.2d 909 (2d Cir. 1980) ..................................... 7
In re London Silver Fixing, Ltd., Antitrust Litig.,
332 F. Supp. 3d 885 (S.D.N.Y. 2018) ..................... 27
Loginovskaya v. Batratchenko,
764 F.3d 266 (2d Cir. 2014) ........................... 8, 9, 22
Merrill Lynch, Pierce, Fenner & Smith Inc. v.
Dabit,
547 U.S. 71 (2006) .................................................. 26
Microsoft Corp. v. AT&T Corp.,
550 U.S. 437 (2007) ................................................ 35

vii
Morrison v. Nat’l Austl. Bank, Ltd.,
561 U.S. 247 (2010) ........................................ passim
Parkcentral Glob. Hub Ltd. v. Porsche Auto.
Holdings SE,
763 F.3d 198 (2d Cir. 2014) ........................... passim
Quail Cruises Ship Mgmt. Ltd. v. Agencia de
Viagens CVC Tur Limitada,
645 F.3d 1307 (11th Cir. 2011) .............................. 21
RJR Nabisco, Inc. v. European Community,
136 S. Ct. 2090 (2019) .................................... passim
Stoyas v. Toshiba Corp.,
896 F.3d 933 (9th Cir. 2018) .............................. 1, 21
United States v. Georgiou,
777 F.3d 125 (3d Cir. 2015) ..................................... 8
United States v. Sindzingre,
2019 WL 2290494 (E.D.N.Y. May 29, 2019) ......... 29
WesternGeco LLC v. ION Geophysical Corp.,
138 S. Ct. 2129 (2018) .................................... passim
Statutes
7 U.S.C. §1a(40) ......................................................... 12
7 U.S.C. §5.................................................................. 33
7 U.S.C. §5(a) ............................................................. 34
7 U.S.C. §6.................................................................. 12
7 U.S.C. §6(b) ............................................................. 12
7 U.S.C. §9(1) ....................................................... 12, 32
7 U.S.C. §13(a)(2) ....................................................... 12
7 U.S.C. §25................................................................ 12
15 U.S.C. §78j............................................................. 33

viii
Other Authorities
CFTC, Trading Organizations – Designated
Contract Markets (DCM), https://sirt.cftc.gov/
SIRT/SIRT.aspx? Topic=
TradingOrganizations (last visited Mar. 13,
2020 ........................................................................ 33
OFII, Membership, https://www.ofii.org/aboutus/membership (last visited Mar. 13, 2020) .......... 28
Rosie Perper & Bill Bostock, Oil Is Down 21%
After Its Biggest Drop in Decades Following
Saudi Price Cuts, Business Insider (Mar. 9,
2020), https://www.businessinsider.com/oilprice-crash-market-drop-global-price-warfutures-coronavirus-2020-3.................................... 10
SEC, National Securities Exchanges,
https://www.sec.gov/fast-answers/
divisionsmarketregmrexchangesshtml.html
(last visited Mar. 13, 2020) .................................... 33
Stephen M. Shapiro et al., Supreme Court
Practice (11th ed. 2019) ......................................... 26

INTRODUCTION
This case concerns a direct disagreement between
the Second and Ninth Circuits regarding the proper
application of this Court’s domestic-transaction test
from Morrison v. National Australia Bank Ltd., 561
U.S. 247 (2010). The Ninth Circuit holds that Morrison’s test is sufficient to establish a domestic application of U.S. law. See Stoyas v. Toshiba Corp., 896 F.3d
933, 949-50 (9th Cir. 2018), cert. denied sub nom.
Toshiba Corp. v. Auto. Indus. Pension Tr. Fund, 139
S. Ct. 2766 (2019). The Second Circuit disagrees and
regards Morrison’s test as merely a necessary first
step, and so continues to ask whether the conduct and
effects associated with the claim are “predominantly
foreign”—a test Morrison explicitly rejected. See
Pet.App. 20; Parkcentral Glob. Hub Ltd. v. Porsche
Auto. Holdings SE, 763 F.3d 198, 216 (2d Cir. 2014).
The primary question presented here is which court is
right. And that question is so plainly suited for review
that this Court has already expressed an interest in
reviewing it.
When the Ninth Circuit precipitated this disagreement last Term, numerous foreign governments
and business organizations encouraged this Court to
grant review, prompting this Court to seek the Solicitor General’s views. See Toshiba Corp. v. Auto. Indus.
Pension Tr. Fund, No. 18-486 (U.S.). The United
States sided with the Ninth Circuit, saying it had decided the issue “correctly” through “a straightforward
application of this Court’s decision in Morrison,” and
severely criticizing the Second Circuit for trying to “reintroduce the conduct-and-effects test.” See U.S. Br. 8,
15, Toshiba Corp., No. 18-486 (U.S. May 20, 2019)
(“U.S. Toshiba Br.”). But while it recognized the

2
circuits’ “inconsistent” views, the government nonetheless suggested denying certiorari: Because the Second Circuit had not yet applied its “Parkcentral” rule
to other cases, the government hoped that—particularly given this Court’s subsequent decisions—the Second Circuit might yet “revisit Parkcentral’s contrary
statements.” Id. at 20.
The decision below demonstrates that the time for
certiorari has come. Far from “revisit[ing] Parkcentral’s contrary statements,” the Second Circuit below
expanded Parkcentral and held that even claims about
transactions occurring on domestic exchanges can constitute extraterritorial applications of U.S. laws focused on protecting exchanges. The Second Circuit
thus held that, because the underlying manipulation
occurred abroad, petitioners here sought an impermissibly extraterritorial application of the Commodity Exchange Act’s private right of action when they claimed
injury in transactions occurring on the New York Mercantile Exchange. And it did so even though the government below urged against expanding Parkcentral
in just this way by pressing the same arguments the
Solicitor General had said might convince the Second
Circuit to reconsider.
Even before this development, there was a persuasive case to grant review. See Petition, Toshiba Corp.,
No. 18-486 (U.S. Oct. 15, 2019). Indeed, many respondents here are themselves members of organizations that urged this Court to review the Ninth Circuit’s decision in Toshiba. Now, however, the Second
Circuit has not only entrenched this circuit conflict,
but decisively raised the stakes.
That is because the Second Circuit below adopted
a putative alternative basis for expanding the conduct-

3
and-effects test to the Commodity Exchange Act (CEA)
that has enormous consequences not only for private
actions like this one, but also for enforcement by the
Department of Justice and Commodity Futures Trading Commission (CFTC). After reaffirming Parkcentral’s application to laws like Section 10(b) of the Securities Exchange Act (SEA)—and expanding it to the
CEA’s private right of action—the Second Circuit went
on to hold that the substantive CEA provisions at issue here have a different “focus” for purposes of Morrison’s test. On its view, out of these two “Exchange
Acts,” only the former is focused on the location of the
exchange (as Morrison holds). The effect of this remarkable holding is to foreclose even the government
from pursuing criminals that intentionally use their
foreign conduct to steal from Americans transacting
on American exchanges. Indeed, for just this reason,
the CFTC participated below to urge the court not to
do precisely what it did.
As this petition explains, the first question presented is plainly certworthy, and the lack of any substantial basis for the alternative holding below would
make it a bad reason to deny review even were it not
so important. All the Second Circuit is really doing is
finding ways to prop up the conduct-and-effects test
that Morrison acerbically rejected. This Court should
not delay review in such a situation, even if a lower
court purports to offer an alternative reason for what
amounts to thumbing its nose at this Court.
The more critical point, however, is that this second holding is vitally important, particularly given the
Second Circuit’s prominence in exchange-related
cases. Putting aside that the second holding below
equally devolves into a revival of the conduct-and-

4
effects test, it will also prevent the CFTC and DOJ
from pursuing international frauds they have long
prosecuted, involving matters central to our economy.
Morrison’s domestic-transaction test was designed to
keep foreign injury claims out of American courts, not
to hamstring U.S. government enforcement that protects American markets from harm. This Court should
thus grant certiorari on both questions and reverse.
PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to
review the judgment of the U.S. Court of Appeals for
the Second Circuit.
OPINIONS BELOW
The district court’s opinion (Pet.App. 36a) is published at 256 F. Supp. 3d 298. The Second Circuit’s
decision (Pet.App. 2a) is published at 937 F.3d 94.
JURISDICTION
The Second Circuit entered judgment (Pet.App.
2a) on August 29, 2019, and denied petitioners’ timely
rehearing request on October 16, 2019 (Pet.App. 74a).
Justice Ginsburg extended this petition’s deadline to
March 13, 2020. This Court has jurisdiction under 28
U.S.C. §1254(1).
RELEVANT STATUTORY PROVISIONS
Relevant provisions of the Securities Exchange
Act of 1934 and Commodity Exchange Act are reproduced at Pet.App. 75a-85a.

5
STATEMENT
I.

Legal Background

1. This Court employs a “two-step framework” to
determine whether a claim under U.S. law raises impermissible “extraterritoriality issues.” RJR Nabisco,
Inc. v. European Community, 136 S. Ct. 2090, 2101
(2019). First, this Court considers whether Congress
wrote the statute to apply extraterritorially, which requires finding that the “presumption against extraterritoriality has been rebutted.” Id. “If the statute is not
extraterritorial, then at the second step we determine
whether the case involves a domestic application of the
statute, and we do this by looking to the statute’s ‘focus.’” Id. “‘If the conduct relevant to the statute’s focus occurred in the United States, then the case involves a permissible domestic application’ of the statute, ‘even if other conduct occurred abroad.’” WesternGeco LLC v. ION Geophysical Corp., 138 S. Ct. 2129,
2137 (2018) (quoting RJR Nabisco, 136 S. Ct. at 2101).
The first step—not at issue here—is applied separately to each statutory section involved, and asks
whether each overcomes the presumption against extraterritoriality. See RJR Nabisco, 136 S. Ct. at 2106,
2108. This analysis is categorical: “If [a provision
does] apply abroad,” this Court does “not need to determine which transnational [schemes] it applie[s] to”
because “it would apply to all of them.” Morrison, 561
U.S. at 267 n.9.
In contrast, the second step—which is at issue
here—requires determining the “focus” of a “statute”
through a more holistic analysis. As this Court has
put it, if “the statutory provision at issue works in tandem with other provisions, it must be assessed in

6
concert with those other provisions …. to accurately
determine whether the application of the statute in
the case is a ‘domestic application.’” WesternGeco, 138
S. Ct. at 2137. Moreover, this test considers not only
the conduct the statute regulates, but also “the parties
and interests it ‘seeks to protec[t]’ or vindicate.” Id.
(quoting Morrison, 561 U.S. at 267). This Court thus
held in Morrison that the “focus” of Section 10(b) was
on protecting domestic exchanges and transactions because, even though that section concerns deceptive
conduct, it only prohibits such conduct “in connection
with” those transactions and exchanges. This made
the location of the manipulated transactions—and not
the manipulation itself—the touchstone of territoriality.
2. Before Morrison and its progeny crystallized
this jurisprudence, the Second Circuit had developed
its own line of cases on when transnational securities
frauds were subject to the Exchange Act. This approach was called the “conduct-and-effects test.”
Morrison exhaustively details the evolution of the
conducts-and-effects test before severely criticizing it.
See 561 U.S. at 257-58. Among other things, it explains that the test was “not easy to administer” and
became exceedingly factbound because every case
boiled down to a gestalt judgment about whether specific fact patterns were so “predominantly foreign”
that Congress would not have “wished the precious resources of United States courts and law enforcement
agencies to be devoted to them.” Id. at 257-58 (quoting
Bersch v. Drexel Firestone, Inc., 519 F.2d 974, 985 (2d
Cir. 1975)). Unsurprisingly, this Court rejected the effort to “discern” in every case what Congress “would
have wanted” had it considered a situation. See id. at

7
255, 261. But it reserved its most pointed criticism for
the unpredictable, case-by-case outcomes the conductand-effects test produced. As this Court put it, “[t]here
is no more damning indictment of the ‘conduct’ and ‘effects’ tests than the Second Circuit’s own declaration
that ‘the presence or absence of any single factor which
was considered significant in other cases … is not necessarily dispositive in future cases.’” Id. at 259-60
(quoting IIT v. Cornfeld, 619 F.2d 909, 918 (2d Cir.
1980)). In contrast, Morrison’s transactional test was
meant to be “clear” and thereby avoid “interference
with foreign securities regulation” in a way the conduct-and-effects test did not. Id. at 269.
3. After interring the conduct-and-effects test and
replacing it with the two-step inquiry above, Morrison
went on to apply those steps to the Section 10(b) claims
at issue. And finding no “clear indication” that Congress intended Section 10(b) to apply extraterritorially, this Court turned to the second step: determining
the statute’s “focus.”
To that end, this Court found that Section 10(b)
and the Exchange Act were focused on protecting U.S.
exchanges and transactions. The driving insight was
that the statute prohibits not “fraud simpliciter” but
instead only fraud “in connection with the purchase or
sale of any security registered on a national securities
exchange or any security not so registered.” Morrison,
561 U.S. at 271-72 (emphasis added). In other words,
this Court held that when the Exchange Act bars manipulative conduct only “in connection with” something else, that something else represents the statute’s
“focus” or “the object[] of the statute’s solicitude.” Id.
at 266-67. And so it is the location of those objects,

8
rather than the manipulative conduct, that determines whether a statutory application is territorial.
Beyond that, Morrison’s application of the test
was straightforward. Because “all aspects of the purchases complained of” there “occurred outside the
United States,” this Court affirmed the dismissal on
extraterritoriality grounds. Id. at 273.
4. For present purposes, three critical decisions
followed Morrison in the Second Circuit—the “Mother
Court” of securities law. See Blue Chip Stamps v.
Manor Drug Stores, 421 U.S. 723, 762 (1975)
(Blackmun, J., dissenting).
First, because Morrison’s transactional test embraces transactions that occur “in the United States,”
the courts needed a rule to determine where a transaction “occurs.” In Absolute Activist Value Master
Fund Ltd. v. Ficeto, 677 F.3d 60 (2d Cir. 2012), the
Second Circuit held that a plaintiff can establish a “domestic transaction” by showing “that irrevocable liability was incurred or that title was transferred within
the United States.” Id. at 62. This rule has been universally followed. See United States v. Georgiou, 777
F.3d 125, 135-36 (3d Cir. 2015) (collecting cases).
Second, in Loginovskaya v. Batratchenko, 764
F.3d 266 (2d Cir. 2014), the Second Circuit considered
the “focus” of the CEA for purposes of determining
whether a suit under its private right of action was a
domestic claim. Given that, “[t]raditionally, courts
have looked to the securities laws when called upon to
interpret similar provisions of the CEA,” id. at 272,
and “the parallels between the CEA and SEA,” id. at
274, the Second Circuit held that Morrison’s “transactional test” for SEA claims applied to CEA claims as

9
well. See id. at 272 (“Morrison’s domestic transaction
test in effect decides the territorial reach of CEA
§22.”). So far, so good.
In Parkcentral, however, the Second Circuit suddenly abandoned its adherence to Morrison’s approach
and held that, while a “domestic transaction” is necessary under Morrison, “such a transaction is not alone
sufficient to state a properly domestic claim.” See 763
F.3d at 215. Instead, the court considered itself free
to reject a claim arising from a domestic transaction if
it found that claim “so predominantly foreign” that
“Congress could not have intended” to permit it. Id. at
216. The Second Circuit acknowledged that this “so
predominantly foreign” standard would require a caseby-case inquiry, and did not provide “a test that will
reliably determine when a particular invocation of
[Section] 10(b) will be deemed appropriately domestic.” Id. at 216-17. Instead, it thought courts should
“carefully make their way with careful attention to the
facts of each case and to combinations of facts that
have proved determinative in prior cases.” Id. at 217.
Just as it sounds, this amounted to a direct rejection
of Morrison’s teachings and a resuscitation of the conduct-and-effects test—provided the “necessary” but
“not necessarily sufficient” element of a “domestic
transaction” was present. Id. at 216.
II. Factual and Procedural History
This case involves a claim of injury under the CEA
suffered in connection with domestic futures transactions. Much of the underlying conduct involved manipulating the cash market for a commodity that is extracted and traded abroad. But, importantly, plaintiffs alleged that defendants intended this cash-

10
market manipulation to affect domestic futures transactions so that defendants could profit from positions
they took in those very transactions. See Pet.App. 7a.
1. Petitioners are traders of “Brent Futures,”
which are futures contracts linked to a commodity
called Brent crude oil. See Pet.App. 4a-5a. Brent
crude originates in the North Sea, and although it represents a relatively small fraction of world supply, it is
extraordinarily important in crude-oil price setting.
For example, the U.S. stock market’s worst day in a
decade was partly attributed to a dramatic fall in
Brent crude prices,1 which serve as the benchmark for
two-thirds of world oil supplies. See Pet.App. 4a. The
spot price, known as the “Dated Brent Assessment” or
“DBA,” serves as a price component of Brent Futures
contracts. Pet.App. 4a-5a.
The DBA is published daily by a price-reporting
agency in London called Platts. Pet.App. 4a. Platts
calculates the DBA based on information from certain
entities concerning their Brent sales and purchases.
Pet.App. 5a. Those entities include respondents here,
who are Brent producers, refiners, and importers, as
well as traders of Brent Futures in the United States.
See Pet.App. 3a & n.1. Plaintiffs allege that respondents manipulated the DBA in order to manipulate the
price of Brent Futures traded in the United States,
benefitting their own positions and hurting petitioners’. Pet.App. 7a-8a.

1

See, e.g., Rosie Perper & Bill Bostock, Oil Is Down 21% After
Its Biggest Drop in Decades Following Saudi Price Cuts, Business
Insider (Mar. 9, 2020), https://www.businessinsider.com/oilprice-crash-market-drop-global-price-war-futures-coronavirus2020-3.

11
More specifically, plaintiffs allege that, although
respondents’ submissions to Platts were supposed to
reflect bona fide market activity, respondents frequently reported uneconomic trades to manipulate the
DBA in their favor. Pet.App. 5a, 7a. This made sense
because the Brent Futures contracts that petitioners
and respondents themselves traded settled either directly to the DBA or to a benchmark known as the ICE
Brent Index, which is itself calculated based, in part,
on the DBA. See Pet.App. 4a-6a; C.A.App. A1948,
A2003, A2042-A2043, A2072-A2073, A2095-A2105
(¶¶10, 224, 289-90, 389, 460-88). Plaintiffs supported
these allegations with specific facts showing that respondents reported uneconomic trades to Platts in the
immediate run-up to the closing dates for certain
Brent Futures contracts traded in the United States,
and demonstrated through detailed econometric analyses how such manipulation moved futures prices. See
C.A.App. A2030, A2035-A2038, A2040, A2042-A2044,
A2049, A2081 (¶¶254, 269, 270-72, 275, 278, 282, 28891, 305, 412).
Petitioners and respondents traded Brent Futures
on the New York Mercantile Exchange (NYMEX),
among other places. Those transactions are undisputedly domestic. Petitioners also argued below that they
incurred irrevocable liability in the United States on
other transactions, and the lower courts.2 See Pet.App.
16a, 52a n.5.

2

In particular, plaintiffs incurred irrevocable liability for
trades on Intercontinental Exchange Futures Europe (ICE) in
Chicago under ICE rules. See C.A.App. A1695-A1696, A1699
(Gaer Decl. ¶¶26-33, 41).

12
In sum, plaintiffs alleged that by manipulating
the DBA, respondents manipulated the price of Brent
Futures petitioners traded domestically, including on
a U.S. exchange. Plaintiffs alleged, moreover, that respondents engaged in such misconduct for the purpose
of benefitting their trading positions in the same domestic Brent Futures transactions, to petitioners’ detriment. Pet.App. 7a. In fact, although futures contracts are anonymous and plaintiffs cannot immediately determine their counterparties, it is likely that
defendants themselves were frequently on the other
side of the very transactions in which plaintiffs lost
money. See C.A.App. A2095-A2105.
Petitioners thus asserted claims under CEA Section 22 (7 U.S.C. §25)—a private-right-of-action provision for victims injured in certain transactions. Plaintiffs’ claims alleged violations of two different substantive CEA provisions: (1) Section 6(c)(1), which prohibits the use of manipulative or deceptive schemes “in
connection with any swap, or a contract of sale of any
commodity in interstate commerce, or for future delivery on or subject to the rules of any registered entity,”
see 7 U.S.C. §9(1); and (2) Section 9(a)(2), which more
broadly prohibits any manipulation of “the price of any
commodity in interstate commerce, or for future delivery on or subject to the rules of any registered entity,”
see 7 U.S.C. §13(a)(2). Notably, a “registered entity” is
the CEA’s direct analogue to the “national securities
exchange” in SEA Section 10(b) and Morrison’s domestic-transaction test. See 7 U.S.C. §1a(40) (defining
“registered entity” as various trading facilities designated or registered under CEA sections other than 7
U.S.C. §6); id. §6(b) (setting forth circumstances in

13
which foreign boards of trade must register with
CFTC).
2. Applying the Second Circuit’s Parkcentral test,
the district court dismissed plaintiffs’ CEA claims as
impermissibly extraterritorial. The court first opined
that, “[g]iven the noted similarities between the Exchange Act and the CEA,” the question was whether
the transactions giving rise to plaintiffs’ claims were
domestic under Morrison’s test. Pet.App. 51a. But the
court then held that, even “[a]ssuming that the relevant transactions are those occurring on domestic exchanges within the meaning of Morrison,” it was still
permissible to dismiss the claims under Parkcentral as
“predominantly foreign,” because the Second Circuit
had made Morrison’s domestic-transaction test only
necessary, not sufficient. Pet.App. 52a-53a.
The district court then went on to use Parkcentral
to deploy, essentially, the “conduct-and-effects” test.
On the conduct side, it emphasized that the “claims
are based on Defendants’ allegedly manipulative and
misleading reporting to Platts in London about physical Brent crude oil transactions conducted entirely
outside of the United States.” Pet.App. 53a. And on
the effects side, it emphasized that this only “indirectly affected the price of Brent futures and derivative contracts” traded on domestic exchanges, because
it viewed the connection between the DBA and the
pricing of “most of the futures and derivatives contracts” at issue as too “attenuated.” Pet.App. 53a-54a
(emphasis added). The court did not explain why
claims about the other “futures and derivatives contracts” that were priced directly to the DBA remained
too foreign. Nor did the court find it material that defendants themselves were trading Brent Futures on

14
domestic exchanges, and thus intended to profit from
their manipulation in domestic transactions. See
Pet.App. 67a (mentioning, but never returning to, this
allegation).
3. On appeal, the CFTC participated as amicus
curiae. Pet.App. 86a. The CFTC specifically urged the
Second Circuit to “reject the district court’s holding
that the CEA does not [reach] Plaintiffs’ allegation
that Defendants intentionally manipulated the price
of futures contracts traded on a U.S. exchange.”
Pet.App. 87a. It stressed that: (1) “[n]othing … suggests that a person may intentionally manipulate contracts on a trading facility in the United States with
impunity under U.S. law … simply because that person and the means of manipulation were offshore,”
Pet.App. 88a; and (2) the district court had essentially
applied the “conduct-and-effects test” Morrison rejected. Pet.App. 103a-104a.
Three aspects of this argument are particularly
noteworthy:
First, the CFTC put before the Second Circuit the
same argument the Solicitor General advanced in recommending against certiorari in Toshiba—namely,
that this Court’s post-Morrison decisions required
abandoning Parkcentral. The Commission thus explained that RJR Nabisco had “cast doubt on the holding in Parkcentral that a domestic transaction is ‘necessary but not necessarily sufficient,’” because RJR
Nabisco squarely stated that “[i]f the conduct relevant
to the statute’s focus occurred in the United States,
then the case involves a permissible domestic application even if other conduct occurred abroad.” Pet.App.
102a (quoting RJR Nabisco, 136 S. Ct. at 2101). As
the CFTC (and Solicitor General) noted, this language

15
is wholly incompatible with the suggestion in Parkcentral that passing Morrison’s test does not “suffice” to
establish an “appropriately domestic” application of
the statute. Pet.App. 103a-104a; U.S. Toshiba Br. 1415; Parkcentral, 763 F.3d at 216.
Second, the CFTC explained that refusing to apply Morrison’s transactional test to CEA claims would
have dire consequences for public enforcement. The
Commission thus warned that “manipulation from
outside the United States is a frequent target of CFTC
enforcement actions,” listing several recent prosecutions and settlements regarding manipulation abroad
that affected domestic transactions. Pet.App. 106a.
The CFTC then included the following example of the
kind of prosecution it currently brings and that Morrison—but not Parkcentral—quite clearly permits it:
To illustrate the district court’s error … imagine a scenario in which traders in Turkey establish positions in Black Sea Wheat contracts on CME, under which the foreign
wheat is deliverable only in Romania, Russia,
and Ukraine. This group can also control or
disrupt a significant portion of the physical
supply of that wheat. They do so with the intent to distort the price of the Black Sea
Wheat contract, and they are successful. This
wrongdoing causes injury to other traders on
CME, in Chicago. On that clean set of facts,
there is no question that the overseas traders
in the foreign commodity triggered all elements of manipulation, including for private
damages. The target of the wrongdoing was
in the United States, the CFTC would pursue
those wrongdoers, and the Court in Morrison

16
could not have intended to prevent that. See
561 U.S. at 266 (holding that the focus of Section 10(b) is “not upon the place where the deception originated”).
Pet.App. 106a-107a.
Finally, the CFTC repeatedly emphasized that,
while a domestic transaction suffices to address extraterritoriality concerns, it does not suffice for liability,
leaving many more safeguards against an overbroad
extension of U.S. law. Accordingly, while “the overseas location and cash-market focus of the alleged
means of manipulation and the perception that the injuries on NYMEX were too attenuated and indirect”
might “go to Defendants’ intent” or to proximate cause,
it should “not go to the geographic reach of the CEA”—
precisely because intent is an element of manipulation
and foreign manipulative conduct is often intended to
affect domestic markets. See Pet.App. 107a.
Remarkably, the Commission’s request for oral argument time was denied. C.A.Doc. 239 at 1.
4. The Second Circuit affirmed, reaching two
holdings relevant to the questions presented here.
First, the Second Circuit reaffirmed its commitment to Parkcentral and proceeded to hold that, even
if all relevant transactions were domestic, that would
not preclude finding them “predominantly foreign” under a repackaged conduct-and-effects test. Pet.App.
19a-20a. The court began this analysis by granting
that the “focus” of the CEA’s private action provision
was clearly “transactional.” Pet.App. 15a-16a. But it
nonetheless affirmed the district court’s use of Parkcentral, stressing that the underlying commodity
“physically traded in Northern Europe,” the

17
“manipulative trading activity [took] place in the
North Sea,” and the DBA is disseminated “by a foreign
price-reporting agency.” Pet.App. 20a. Accordingly, it
did not matter that Morrison’s test was satisfied because passing Morrison’s test was merely necessary,
and not sufficient, to establish a territory claim. See
Pet.App. 19a (“[W]hile a domestic transaction … is
‘necessary’ to invoke the private remedy afforded by
Section 22, it is not ‘sufficient.’”).
Next, the Second Circuit proceeded (unnecessarily) to address the substantive CEA provisions at
issue and, without mentioning the CFTC’s arguments,
reached the very holdings the Commission warned
against. It thus held that, unlike with Section 22, the
focus of the substantive provisions at issue was on respondents’ misconduct, not the manipulated transactions. Pet.App. 20a. While it acknowledged that the
SEA language at issue in Morrison was “similar,” the
Second Circuit attempted to distinguish Morrison primarily by suggesting that, unlike Exchange Act Section 10(b), the relevant CEA provisions contain “no
mention of a national securities exchange.” Pet.App.
21a. The Second Circuit thus held that these sections
reach only domestic manipulative conduct—what the
CFTC called the “means of manipulation,” Pet.App.
88a—regardless of where the transactions that give
rise to plaintiffs’ claims occurred.
Rehearing en banc was denied.
follows.

This petition

18
REASONS FOR GRANTING THE WRIT
This Court’s intervention here is required for
three reasons.
First, there is now a plain and entrenched disagreement between the preeminent courts of appeals on
the primary question presented. The reasons the Solicitor General gave for why this split might resolve
itself were squarely rejected below after being pressed
by a government agency. The Second Circuit is doggedly committed to resuscitating the conduct-and-effects test by deeming Morrison’s test merely necessary
to state a domestic application of U.S. law, while the
Ninth Circuit holds the opposite. This disagreement
is well presented here: The Second Circuit assumed
away all interfering facts, squarely holding that Morrison would not decide the issue even if (1) the focus of
the statute was on domestic transactions; and (2) all
the relevant transactions were domestic. And the
stakes of the Second Circuit’s rule are highlighted by
plaintiffs’ allegations, which involve not only transactions on a domestic exchange, but even defendants’ intent to affect those very transactions.
Meanwhile, more than just a circuit disagreement
is at stake because the Second Circuit seems markedly
unconcerned not only with other circuits’ rulings, but
this Court’s decisions as well. It seems unlikely that
this Court did not really mean to say in RJR Nabisco—
and repeat in WesternGeco—that “[i]f the conduct relevant to the statute’s focus occurred in the United
States, then the case involves a permissible domestic
application.” WesternGeco, 138 S. Ct. at 2137 (emphasis added); RJR Nabisco, 136 S. Ct. at 2101. But even
assuming otherwise, this Court should not permit

19
lower courts to make that decision for themselves. The
Second Circuit did not even venture an explanation for
how Parkcentral can be squared with this Court’s language, and it cannot. That is untenable: This Court
may decide to change its test, but it cannot allow lower
courts to flout it.
Second, both questions presented are vitally important. When the first question last arose, foreign
governments and U.S. business groups (including
groups that represent defendants) urged this Court to
grant certiorari based on the issue’s importance, and
rightly so. Because questions of extraterritoriality implicate national relations, the uncertainty associated
with a disagreement among prominent circuits in this
area is particularly unacceptable—not to mention the
uncertainty associated with the Second Circuit’s caseby-case approach. Indeed, the uncertainty the Second
Circuit’s current approach invites was one of the root
evils motivating Morrison itself.
Meanwhile, the sole objection that could be lodged
to this case as a vehicle for the first question—namely,
the presence of the second question—makes this case
much more important, not less so. As an initial matter, although the Second Circuit purported to independently analyze the substantive CEA provisions underlying plaintiffs’ claims, the end result is indistinguishable from its treatment of the private-right-of-action provision under the first question: The court’s
holding simply allows it to revive the conduct-and-effects test. The Second Circuit’s dogged commitment to
that test in the face of Morrison’s direct criticism thus
remains a good reason to grant review, without regard
to how the Second Circuit defends that result.

20
Moreover, the Second Circuit’s alternative holding that the CEA’s substantive provisions are focused
on “manipulation” rather than “transactions” unambiguously cabins the government’s ability to pursue
overseas acts of manipulation aimed at disrupting
U.S. commodities markets. Without even considering
this consequence, the Second Circuit essentially
barred the CFTC and DOJ from bringing major cases
they have long brought, along with state enforcement
as parens patriae. That is, at minimum, an issue of
great national importance.
Third, and finally, the Second Circuit’s holdings
are obviously incorrect. As to whether Morrison’s test
is sufficient or necessary, this Court’s cases plainly describe it as sufficient, and the whole purpose of Morrison was to simplify away the conduct-and-effects test.
Applying that test on top of Morrison’s—as the Second
Circuit now does—only adds complication, vitiating
both the text and purpose of this Court’s decisions.
Nor should this Court sanction the Second Circuit’s effort to misread the focus of the Commodity Exchange Act as somehow different from the Securities
Exchange Act when it comes to protecting transactions
on domestic exchanges. To reach that result, the Second Circuit both wholly ignored the U.S. government’s
objections and omitted critical statutory text. It
thereby caused serious harm to public and private enforcement, to no end other than reviving the conductand-effects test this Court had attempted to inter.
This Court should thus grant certiorari and reverse.

21
I.

The Lower Courts Are Divided Over the
Meaning of Morrison.

1. There is no need to dwell over the lower courts’
disagreement on the primary question presented. The
Ninth Circuit has rejected Parkcentral by name, saying the “principal reason that we should not follow
the Parkcentral decision is because it is contrary to
Section 10(b) and Morrison itself.” Stoyas v. Toshiba
Corp., 896 F.3d 933, 950 (9th Cir. 2018). It has pointed
out that Parkcentral is grounded in “speculation about
Congressional intent, an inquiry Morrison rebukes.”
Id. It has described Parkcentral as “an open-ended,
under-defined multi-factor test, akin to the vague and
unpredictable tests that Morrison criticized and endeavored to replace with a ‘clear,’ administrable rule.”
Id. There is thus no doubt that the Ninth Circuit has
squarely rejected both Parkcentral and the theory that
“a domestic transaction is necessary but not sufficient
under Morrison.” Id. at 949. And although other circuits have not squarely considered Parkcentral itself,
some certainly have treated Morrison’s test as sufficient rather than merely necessary. See, e.g., Quail
Cruises Ship Mgmt. Ltd. v. Agencia de Viagens CVC
Tur Limitada, 645 F.3d 1307, 1310-11 (11th Cir. 2011)
(vacating dismissal because “the Supreme Court in
Morrison deliberately established a bright-line test
based exclusively on the location of the purchase or
sale”).
To be sure, when Toshiba was decided, it remained possible that the Second Circuit would itself
reconsider Parkcentral. As the Ninth Circuit noted,
“no Second Circuit case, nor any other Circuit, ha[d]
applied Parkcentral’s rule” at that time. 896 F.3d at
950 n.22. The United States recommended denying

22
certiorari for just this reason, even while siding with
the Ninth Circuit on the merits, sharply criticizing the
Second Circuit for trying to “reintroduce the conductand-effects test,” and acknowledging that the two
courts’ views were “inconsistent.” See supra pp.1-2,
U.S. Toshiba Br. 8, 15, 20. Toshiba also presented
unique vehicle problems, including a petitioner that
had functionally prevailed below. See U.S. Toshiba Br.
16-20. This Court thus reasonably waited to see what
the Second Circuit would do.
Now, we know. Not only has the Second Circuit
refused to “revisit Parkcentral’s contrary statements”
in light of RJR Nabisco and WesternGeco, U.S.
Toshiba Br. 20, it instead plans to “extend[] Parkcentral’s holding” to new cases and similar statutes. See
Pet.App. 18a-19a. As the Second Circuit put it:
Given that courts “have looked to the securities laws” when asked “to interpret similar
provisions of the CEA,” we do not hesitate in
applying Parkcentral’s gloss on domestic
transactions under Section 10(b) to domestic
transactions under Section 22 of the
CEA. Therefore, while a domestic transaction … is “necessary” to invoke the private
remedy afforded by Section 22, it is not “sufficient.”
Pet.App. 17a (quoting Loginovskaya, 764 F.3d at 272).
A large stretch of the opinion below is thus dedicated
to comparing this case’s facts to Parkcentral’s.
Pet.App. 19a-20a. This not only entrenches the circuit
conflict but promises to make it worse.
As the petition in Toshiba explained, the Second
and Ninth Circuits handle more securities cases than

23
all other circuits combined, and this Court has accordingly granted several recent cases to resolve a disagreement between those courts alone. See Petition 3233, Toshiba, No. 18-486 (U.S. Oct. 15, 2018) (collecting
cases). This conflict is thus ripe for this Court’s review.
2. Helpfully, the Second Circuit’s opinion also isolates this conflict by assuming away any potentially
interfering, case-specific facts. The court of appeals
began by acknowledging that CEA Section 22, like
SEA Section 10(b), is “clearly transactional,” Pet.App.
15a, and then assuming that “Plaintiffs’ trades … constituted ‘domestic transactions’ under Section 22.”
Pet.App. 16a. On those same assumptions, it is certain the Ninth Circuit would reach the opposite result.
This case’s facts also highlight the stakes of the
question presented. As noted, petitioners alleged that
respondents manipulated the DBA for the purpose of
manipulating—to their benefit and petitioners’ detriment—the price of Brent Futures traded on a U.S. exchange. See supra pp.10-11. The Second Circuit thus
reached the truly radical holding that even petitioners’
CEA claims arising from trades on a domestic exchange are somehow impermissibly extraterritorial.
As further explained below, see infra pp.27-29, the
practical effect of this holding is that the entire world
“has become the Barbary Coast for those perpetrating
frauds on [U.S. commodities and futures] markets.”
Morrison, 561 U.S. at 270. This underlines what is at
stake both in treating Morrison’s test as insufficient
and in viewing the Commodity Exchange Act as somehow different from the Securities Exchange Act with
respect to its focus on protecting U.S. exchanges.

24
3. Meanwhile, this case implicates more than just
a disagreement between the Second and Ninth Circuits; it implicates this Court’s authority over the
lower courts as well. To an unusual degree, the Second
Circuit appears unconcerned even with asking
whether its continued commitment to the conductand-effects test can be squared with this Court’s cases.
And, meanwhile, it seems equally unconcerned with
the U.S. government’s arguments that its test is inconsistent with established practice and government enforcement regimes.
Begin with the tension with this Court’s cases. In
Morrison, this Court said: “There is no more damning
indictment of the ‘conduct’ and ‘effects’ tests than the
Second Circuit’s own declaration that ‘the presence or
absence of any single factor which was considered significant in other cases … is not necessarily dispositive
in future cases.’” 561 U.S. at 258-59. And yet the Second Circuit adopted the Parkcentral rule while trumpeting, even after Morrison, that it did
not purport to proffer a test that will reliably
determine when a particular invocation of
§10(b) will be deemed appropriately domestic
or impermissibly extraterritorial. We believe
courts must carefully make their way with
careful attention to the facts of each case and
to combinations of facts that have proved determinative in prior cases.
Parkcentral, 763 F.3d at 217. The Second Circuit
might as well have said that it just disagreed with
Morrison about what makes for a wise test in this
realm.

25
Notably, the Solicitor General criticized this aspect of Parkcentral in Toshiba, U.S. Toshiba Br. 14-15,
and the CFTC below flagged this same problem in explicit terms. Pet.App. 87a-88a. Yet that urging did
not even garner a response, let alone convince the Second Circuit to reconsider.
Perhaps even more striking is that the CFTC put
before the Second Circuit the very language from RJR
Nabisco and WesternGeco that the Solicitor General
thought might lead that court to “revisit Parkcentral’s
contrary statements,” U.S. Toshiba Br. 20, and yet the
Second Circuit ignored it.
After quoting RJR
Nabisco’s “If/Then” formulation—and observing that it
was squarely contrary to statements about Morrison
in Parkcentral— the CFTC explicitly argued that, for
that reason, “Parkcentral must be recognized as at
best the high-water mark for restrictions on applying
U.S. law to transactions in the United States.”
Pet.App. 102a. And yet, shockingly, the Second Circuit acknowledged neither this argument nor the controlling language from this Court.
That approach to this Court’s precedent cannot be
condoned. If the lower courts are not going to follow
this Court’s controlling language, they should at least
say why. And if this Court did not mean what it said,
then it should grant certiorari and explain its meaning, rather than giving lower courts a green light to
reinterpret this Court’s precedents as they see fit. For
unknowable reasons, the Second Circuit has shown a
dogged commitment to its own longstanding precedents in this area in the face of decisions from this
Court rejecting them. And it has evidently accepted
the serious consequences of that approach for government enforcement without even allowing the

26
government to appear at argument or acknowledging
its contrary views. This is squarely inconsistent with
both the rule of law and the design of Article III, and
alone represents an essential reason to grant review.
See, e.g., Stephen M. Shapiro et al., Supreme Court
Practice 4-20 (11th ed. 2019) (“A direct conflict between the decision of the court of appeals … and a decision of the Supreme Court is one of the strongest
possible grounds for … certiorari.” (emphasis added)).
4. While no court has squarely rejected the Second Circuit’s holding below on the second question
presented, that is best explained by its utter lack of
textual basis and evident inconsistency with Morrison. The Ninth and Eighth Circuits have directly held
that parallel language in the CEA and SEA—including the language at issue here—should presumptively
receive the same interpretation. See CFTC v. Monex
Credit Co., 931 F.3d 966, 976 (9th Cir. 2019) (“We presume that by copying §10(b)’s language and pasting it
in the CEA, Congress adopted §10(b)’s judicial interpretations as well.” (citing Merrill Lynch, Pierce, Fenner & Smith Inc. v. Dabit, 547 U.S. 71, 85-86 (2006));
Greenwood v. Dittmer, 776 F.2d 785, 789 n.4 (8th Cir.
1985) (similar). And other courts of appeals routinely
hold that, given their similarity, the SEA and CEA
should be interpreted in parallel. See, e.g., CFTC v.
Baragosh, 278 F.3d 319, 333 n.5 (4th Cir. 2002) (cases
interpreting SEA “are persuasive authority for interpreting” parallel provisions of CEA); CFTC v. Am.
Metals Exch. Corp., 991 F.2d 71, 76 n.9 (3d Cir. 1993)
(same). Accordingly, the second holding below should
be viewed as equally inconsistent with the decisions of
this Court and other lower courts as well.

27
II. Both Questions Presented Are Important.
A. A uniform and predictable approach is
essential in this area.
1. Given the Second Circuit’s prominence in this
area, uprooting the conduct-and-effects test remains
important for all the reasons Morrison itself articulated. In particular, certainty around extraterritoriality issues is required, and yet market participants will
now need once more to “guess anew in each case.” 561
U.S. at 261. Notably, the Second Circuit’s own district
courts are now stumbling blind in both securities and
commodities cases, reaching mutually inconsistent
outcomes.3 It is thus important to correct this unpredictable approach based on its unpredictability alone.
2. More broadly, the question presented is also important given the national relations concerns implicated by extraterritoriality issues. In Toshiba—where
the Ninth Circuit correctly read Morrison as more
friendly to U.S. enforcement—countless voices from
the transnational investment community urged this
Court to grant review on importance grounds. See,
e.g., Brief of Amici Curiae Inst. of Int’l Bankers &
Swiss Bankers Ass’n 7-10, Toshiba, No. 18-486 (U.S.
Nov. 30, 2018); Brief of Amicus Curia Org. for Int’l Inv.

3

Compare, e.g., Dennis v. JPMorgan Chase & Co., 343
F. Supp. 3d 122, 182 (S.D.N.Y. 2018) (declining to apply
Parkcentral to CEA claims even though “the “[mis]conduct
alleged here largely occurred in Australia”), with In re London
Silver Fixing, Ltd., Antitrust Litig., 332 F. Supp. 3d 885, 917-18
(S.D.N.Y. 2018) (applying Parkcentral to CEA claims based on
transactions on a domestic commodities exchange, and finding
claims “predominately foreign” because they were based on
“foreign bad acts”).

28
13-16, Toshiba, No. 18-486 (U.S. Nov. 30, 2018); Brief
of Amicus Curiae Japan Bus. Fed’n 14-19, Toshiba,
No. 18-486 (U.S. Dec. 6, 2018). Defendants here are
themselves members of many of those amicus groups.
See, e.g., OFII, Membership, https://www.ofii.org/
about-us/membership (last visited Mar. 13, 2020).
Foreign governments likewise stressed the possibilities of tension with foreign enforcement regimes, and
the associated need for uniformity among U.S. courts
and predictability in the U.S. approach. Brief of Amicus Curiae Japan 1, Toshiba, No. 18-486 (U.S. Nov. 2,
2018); Brief of Amicus Curiae United Kingdom 9-14,
Toshiba, No. 18-486 (U.S. Dec. 4, 2018).
This Court no doubt viewed these as important
concerns in calling for the Solicitor General’s views.
And even in recommending denial, the United States
acknowledged that these “concerns are weighty, and
the United States takes them seriously.” U.S. Toshiba
Br. 21. The government did note that some extraterritoriality concerns are alleviated by limits on personal jurisdiction. See id. 21-22. But, notably, where
there is a circuit disagreement like this one, all that
means is that the outcome of a weighty issue of international relations could come down to the happenstance of whether personal jurisdiction is available in
California or New York.
B. The Second Circuit’s alternative holding
makes this case far more important.
Meanwhile, the Second Circuit’s second holding
only makes this case far more important than it already was. That holding significantly raises the
stakes of the decision below, and represents a good

29
reason to grant review now, rather than waiting for
multiple cases to present these questions separately.
As noted, see supra pp.17-18, the Second Circuit
purported to hold here that Morrison’s analysis of the
SEA as “focused” on protecting exchanges is inapplicable to the substantive CEA sections at issue, which (it
said) are “focused” on “rooting out manipulation.”
Pet.App. 22a. That allowed the Second Circuit to hold
that even CEA claims based on transactions on U.S.
exchanges are not necessarily territorial.
As explained below, infra pp.30-36, that decision
is indefensible and represents only the Second Circuit’s refusal to faithfully apply Morrison’s reasoning
to the CEA’s admittedly “similar language.” Pet.App.
21a. But the more important point for present purposes is that—right or wrong—this holding has enormous consequences for U.S. public enforcement that
protects U.S. commodities and futures markets, and so
only amplifies the points above.
In particular, the CFTC’s hypothetical regarding
Black Sea Wheat contracts, see supra pp.15-16, is alltoo real. The CFTC and DOJ regularly pursue overseas actors whose behavior affects U.S. markets or exchanges—particularly when that effect appears intentional. See, e.g., United States v. Sindzingre, 2019 WL
2290494, at *1-3 (E.D.N.Y. May 29, 2019) (prosecution
based on banks’ overseas manipulation of LIBOR);
Pet.App. 106a (CFTC brief listing at least four recent
examples). If the CEA’s substantive provisions do not
apply to overseas manipulation that impacts domestic
commodities markets, the viability of such enforcement actions is in grave doubt.

30
In previous cases, this Court has been particularly
attentive to the consequences of foreclosing governmental enforcement as compared to private actions.
See, e.g., RJR Nabisco, 136 S. Ct. at 2105-06 (permitting public prosecutions but not private actions). The
Second Circuit’s refusal even to acknowledge this consequence—let alone address the government’s arguments, see supra pp.16, 20, 25—is inexplicable.
Importantly, while the entire point of Morrison
and its progeny was to refocus U.S. laws around protecting domestic markets, the Second Circuit now regards manipulation aimed at investors in U.S. markets as not a U.S. crime at all under the CEA. That
ironic result cannot be left in place and represents an
independent reason to grant review.
III. The Decision Below Is Incorrect.
The foregoing suffices to grant review—the split is
square enough, and the stakes high enough, that this
Court should intervene to create a uniform national
rule without regard to who is right. That said, the extent of the Second Circuit’s error is an important consideration, especially with respect to the second question presented. In particular, the lack of any substantial basis for that outcome demonstrates both the importance of correcting it and the inappropriateness of
allowing that holding to frustrate review of the clear
circuit disagreement this case presents regarding the
continued viability of the conduct-and-effects test.
1. As to the first question—whether Morrison’s
test is sufficient for exchange-focused statutes—there
are two “straightforward” reasons to conclude that the
Ninth Circuit has it right. See U.S. Toshiba Br. 8-9.

31
a. First, RJR Nabisco and WesternGeco put the
Morrison test in terms that unambiguously convey
sufficiency. The language, which the Second Circuit
omitted, is a classic If/Then statement of the rule: “If
the conduct relevant to the statute’s focus occurred in
the United States, then the case involves a permissible
domestic application even if other conduct occurred
abroad ….” WesternGeco, 138 S. Ct. at 2137. Meanwhile, the Second Circuit’s view is that “if the conduct
relevant to the statute’s focus occurred in the United
States, then the case [might not] involve a permissible
domestic application [if] other conduct occurred
abroad.” Formal logic regards these formulations as
literal opposites—as X and not X. So unless this Court
misspoke, the Second Circuit’s view is easily rejected.
b. Moreover, as the Ninth Circuit, Solicitor General, and CFTC have emphasized, the Second Circuit’s
Morrison + conduct-and-effects-test approach recreates the same uncertain, case-by-case outcomes that
Morrison so severely criticized. See supra pp.1-2, 1415, 21-22. Layering an opaque standard on top of a
clear rule like Morrison’s just results in the same opacity one started with. It is rare to see a lower court reject both what this Court did and why it did it. This
circumstance thus recommends strongly in favor of
certiorari and reversal.
2. The Second Circuit’s second holding is equally
grounded in a refusal to follow Morrison on its own
plain terms. Morrison articulated three principal reasons for concluding that Section 10(b) of the Securities
Exchange Act was focused on regulating transactions
and exchanges rather than manipulative conduct, and
it is hardly surprising the Commodity Exchange Act
would have a similar focus. But every time Morrison’s

32
analysis suggested a direct parallel between the text
and context of the SEA and CEA, the Second Circuit
simply omitted that point.
a. Morrison’s core reason for discerning that
Section 10(b) focuses on transactions was that it “does
not punish deceptive conduct, but only deceptive conduct ‘in connection with the purchase or sale of any security registered on a national securities exchange.’”
Morrison, 561 U.S. at 266 (emphasis added). This established the “primacy of the domestic exchange” as
the “object” of the SEA’s “solicitude.” Id. at 267. The
Second Circuit acknowledged that the CEA uses “similar language,” but mistakenly tried to distinguish it
as “contain[ing] no mention of a ‘national securities exchange.’” Pet.App. 21a.
This rationale is without substance. The sole reason the CEA does not mention “national securities exchanges” is that it does not call the exchanges it regulates “national securities exchanges.” Instead, (as respondents conceded below, C.A.Doc. 154 at 35), it calls
them “registered entities.” CEA Section 6(c)(1) thus
makes it unlawful to
use or employ, … in connection with any …
contract of sale … for future delivery on or
subject to the rules of any registered entity,
any manipulative or deceptive device or contrivance, in contravention of such rules and
regulations as the Commission shall promulgate ….
7 U.S.C. §9(1) (emphasis added). Meanwhile, SEA
Section 10(b) makes it unlawful to
use or employ, in connection with the purchase or sale of any security registered on a

33
national securities exchange[,] … any manipulative or deceptive device or contrivance
in contravention of such rules and regulations
as the Commission may prescribe.
15 U.S.C. §78j (emphasis added).
These provisions are not just “similar”—they are
identical, and merely use different, defined terms for
parallel constructs. One way to know that for certain
is that some entities (like, say, the Chicago Board of
Trade) are registered with both the CFTC and SEC
under the parallel requirements of the CEA and SEA.4
b. The Second Circuit’s account of Morrison’s second major rationale respecting Section 10(b) is even
less substantial. Morrison found it telling that the
“prologue of the Exchange Act … sets forth as its object
‘[t]o provide for the regulation of securities exchanges.’” 561 U.S. at 247. The Second Circuit contrasted that with the CEA’s “statement of purpose,”
because the latter provides that “[i]t is further the purpose of this chapter to deter and prevent price manipulation or any other disruptions to market integrity …
to ensure the financial integrity of all transactions
subject to this chapter.” Pet.App. 22a (quoting 7
U.S.C. §5) (omission in original). The court said this
“suggests that the focus is on rooting out manipulation.” Id.

4

Compare CFTC, Trading Organizations – Designated
Contract Markets (DCM), https://sirt.cftc.gov/SIRT/SIRT.aspx?
Topic=TradingOrganizations (last visited Mar. 13, 2020) (listing
CBOT as a Designated Contract Market); with SEC, National
Securities Exchanges, https://www.sec.gov/fast-answers/divisionsmarketregmrexchangesshtml.html (last visited Mar. 13, 2020)
(listing CBOT as a National Securities Exchange).

34
But this suggested difference is bizarre. Even the
Second Circuit’s own quote identifies “ensuring the financial integrity of all transactions subject to this
chapter” as the statute’s ultimate object. Indeed, that
quote literally identifies “transactions” as the “subjects” of the CEA. Meanwhile, the Second Circuit
failed to note that the very first sentence of this section
is a congressional finding that “[t]he transactions subject to this chapter are entered into regularly in interstate and international commerce and are affected
with a national public interest.” See 7 U.S.C. §5(a)
(emphasis added). No fair reading of this section suggests a focus on anything other than the “transactions” that are the “subject” of “this chapter.” The Second Circuit’s contrary conclusion demonstrates only
its commitment to keeping the conduct-and-effects
test alive by any means necessary.
c. Finally, Morrison noted that purporting to regulate foreign transactions based on domestic conduct
was likely to precipitate conflict with foreign laws.
That is obviously correct; the fact that behavior occurred here is a poor reason to interfere with foreign
regulation of actions aimed at and affecting solely foreign futures exchanges. That would, for example, allow the United States to criminalize the conduct of two
Japanese nationals, engaged in the manipulation of a
Japanese commodity that is legal under Japanese law,
solely because they were in New York at the time.
That is the very inconsistency Morrison tried to avoid.
Meanwhile, Morrison explained that a “transactional test” does not entail “interference with foreign
securities regulation.” 561 U.S. at 269. That is undoubtedly right, because countries are entitled to protect their own markets, and to regulate conduct—

35
wherever it occurs—at least to the extent it intentionally targets those markets. And yet the Second Circuit identified just such a transactional test as causing the CEA to “rule the world.” Pet.App. 23a-24a
(quoting Microsoft Corp. v. AT&T Corp., 550 U.S. 437,
454 (2007)). Once again, this reflects nothing more
than a refusal to follow the teachings of this Court.
And the government’s long history of taking enforcement action against foreign manipulations that affect
or are aimed at U.S. commodities prices and futures
contracts certainly suggests that Morrison had it
right, and the Second Circuit has it backwards.
What is no doubt going on here is that the Second
Circuit views the chain of causation between the relevant foreign conduct and the domestic transactions at
issue as too remote. Pet.App. 20a. Indeed, that is precisely the kind of question a reanimated conduct-andeffects test allows it to consider. But as the Solicitor
General and CFTC have both now stressed, that is an
issue of proximate cause or intent, not extraterritoriality. Pet.App. 88a (CFTC brief); U.S. Toshiba Br. 17.
Suppose Congress chose to criminalize missile strikes
on registered entities. That might not reach strikes
that hit such exchanges only by accident or because of
remote causes. But it certainly does prohibit—permissibly and territorially—firing a missile at a U.S.
exchange on purpose, even if it was launched from
abroad. The Second Circuit is simply confusing what
the statute prohibits with where the statute applies.
In that case, the domestic hook is the location of the
registered entity. And so too here.
All this goes to show that—although the Second
Circuit asserted that the CEA’s substantive sections
justified its search for “predominantly foreign”

36
conduct—there is no real substance here beyond the
refusal to apply Morrison and its transactional test as
sufficient to establish a domestic application of statutes unambiguously focused on domestic exchanges.
The Ninth Circuit and U.S. government have correctly
recognized that this refusal is in error, and contrary
to Morrison itself. That circuit conflict needs addressing, as does the massive and unconsidered effect the
Second Circuit’s holding will have on U.S. public enforcement under the CEA. If any doubts persist in
that regard, this Court should (as in Toshiba) ask the
United States whether it believes this question now
merits review.
CONCLUSION
This petition for a writ of certiorari should be
granted.
Respectfully submitted,
David E. Kovel
Andrew M. McNeela
Thomas W. Elrod
KIRBY MCINERNEY LLP
250 Park Avenue
Suite 820
New York, NY 10177
(212) 371-6600

March 13, 2020

Eric F. Citron
Counsel of Record
Daniel Woofter
Charles H. Davis
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
No. 17‐2233
PRIME INTERNATIONAL TRADING, LTD.,
WHITE OAKS FUND LP, KEVIN MCDONNELL,
ANTHONY INSINGA, ROBERT MICHIELS, JOHN
DEVIVO, NEIL TAYLOR, AARON SCHINDLER,
PORT 22, LLC, ATLANTIC TRADING USA, LLC,
AND XAVIER LAURENS,
Plaintiffs‐Appellants,
v.
BP P.L.C., TRAFIGURA BEHEER B.V., RAFIGURA
AG, PHIBRO TRADING L.L.C., VITOL S.A.,
MERCURIA ENERGY TRADING S.A., HESS
ENERGY TRADING COMPANY, LLC, STATOIL US
HOLDINGS INC., SHELL TRADING US
COMPANY, BP AMERICA, INC., VITOL, INC., BP
CORPORATION NORTH AMERICA, INC.,
MERCURIA ENERGY TRADING, INC., MORGAN
STANLEY CAPITAL GROUP INC., PHIBRO
COMMODITIES LTD., SHELL INTERNATIONAL
TRADING AND SHIPPING COMPANY LIMITED,
STATOIL ASA, AND ROYAL DUTCH SHELL PLC,
Defendants‐Appellees.+

+

The Clerk of Court is respectfully directed to amend the official caption as listed above.

2a
________________________________
ARGUED: DECEMBER 10, 2018
DECIDED: AUGUST 29, 2019
________________________________
Before:

JACOBS, SULLIVAN, Circuit Judges, and
KORMAN, District Judge*

Appeal from a judgment of the United States District
Court for the Southern District of New York (Carter,
J.,) dismissing Plaintiffs‐Appellants’ claims for lack of
personal jurisdiction as to Defendant‐Appellee Shell
International Trading and Shipping Company Limited, for lack of jurisdiction under the Foreign Sovereign Immunities Act as to Defendant‐Appellee Statoil
ASA, and for failure to state a claim as to all claims.
Plaintiffs‐Appellants argue that the district court
erred in concluding that their claims under the Commodity Exchange Act were impermissibly extraterritorial. Plaintiffs‐Appellants also contend that the district court erred in dismissing their Sherman Act
claims, in concluding that the court lacked personal
jurisdiction over Defendant‐Appellee Shell International Trading and Shipping Company Limited, and in
dismissing claims against Defendant‐ Appellee Statoil
ASA under the Foreign Sovereign Immunities Act. We
disagree. Accordingly, we AFFIRM the district court’s
dismissal of Plaintiffs‐Appellants’ Commodity Exchange Act claims in this opinion, and AFFIRM the
dismissal as to all other Defendants‐Appellees and all
other claims in a separately filed summary order.

*

Judge Edward R. Korman, of the United States District
Court for the Eastern District of New York, sitting by designation.

3a
*

*

*

RICHARD J. SULLIVAN, Circuit Judge:
This appeal requires us to decide whether alleged
misconduct tied to the trading of crude oil extracted
from Europe’s North Sea constitutes an impermissibly
extraterritorial application of the Commodity Exchange Act. For the reasons set forth below, we find
that it does, and therefore affirm the dismissal of
Plaintiffs‐Appellants’ claims.
I. BACKGROUND
Plaintiffs‐Appellants (“Plaintiffs”)1 are individuals and entities who traded futures and derivatives
contracts pegged to North Sea oil – also known as
Brent crude – on the Intercontinental Exchange Futures Europe (“ICE Futures Europe”) and the New
York Mercantile Exchange (“NYMEX”) between 2002
and 2015 (the “Class Period”).
Defendants‐Appellees (“Defendants”)2 are a diverse group of entities involved in various aspects of
the production of Brent crude. In addition to

1

Plaintiffs‐Appellants are: Prime International Trading,
Ltd., White Oaks Fund LP, Kevin McDonnell, Anthony Insinga,
Robert Michiels, John Devivo, Neil Taylor, Aaron Schindler, Port
22, LLC, Atlantic Trading USA, LLC, and Xavier Laurens.
2

Defendants‐Appellees are: BP p.l.c., Trafigura Beheer B.V.,
Trafigura AG, Phibro Trading L.L.C., Vitol S.A., Mercuria Energy Trading S.A., Hess Energy Trading Company, LLC, Statoil
US Holdings Inc., Shell Trading US Company, BP America, Inc.,
Vitol, Inc., BP Corporation North America, Inc., Mercuria Energy
Trading, Inc., Morgan Stanley Capital Group Inc., Phibro Commodities Ltd., Shell International Trading and Shipping Company Limited (“STASCO”), Statoil ASA (“Statoil”), and Royal
Dutch Shell Plc.

4a
producing, refining, and distributing Brent crude, Defendants also purchase and sell Brent crude on the
physical market and trade Brent‐crude‐based futures
contracts on global derivatives markets.
A. Brent Crude Physical Market
Brent crude is extracted from the North Sea of Europe, and refers to oil pulled from four fields in the region: Brent, Forties, Oseberg, and Ekofisk (collectively, “BFOE”). The price of Brent crude serves as the
benchmark for two-thirds of the world’s internationally‐traded crude.
Following extraction, Brent crude is delivered via
pipeline to ports in Europe where it is loaded onto
ships for delivery. These physical cargoes are bought
and sold through private, over‐the‐counter (“OTC”)
transactions between producers, refiners, and traders.
Because these physical transactions are private and
do not occur on an open exchange, the price of Brent
crude is not immediately available to the public. Instead, price‐reporting agencies collect information
about transactions from market participants and report it to the consuming public.
B. Platts and the Dated Brent Assessment
Platts is a prominent London‐based price‐reporting agency that collects information from market participants regarding their physical Brent crude transactions, analyzes that data to compute benchmark
prices, and publishes those prices in real‐time price reports as well as various end‐of‐day price assessments.
The price reports track several different submarkets
in the Brent crude market, but the “primary pricing
benchmark”—widely regarded as the “spot” price for
Brent crude – is the “Dated Brent Assessment.”

5a
The Dated Brent Assessment tracks physical cargoes of North Sea crude oil that have been assigned
specific delivery dates. Rather than averaging the
prices of the four grades of Brent crude, the Dated
Brent Assessment is based on the lowest price among
the four grades, and is calculated each day during the
assessment period. Platts uses a Market‐on‐Close
(“MOC”) methodology, under which Platts tracks all
Brent crude trading activity during the day, but
weighs most heavily the bids, offers, and transactions
that occur at the end of each trading day, from 4:00 to
4:30 P.M. GMT.
Although Platts relies on market participants to
voluntarily self‐report their private transactions in order to create and publish the Dated Brent Assessment,
they do not just mechanically recite the reported trade
activity. Instead, Platts exercises its own discretion to
accept or reject transactional data, and makes this assessment based on the reliability, accuracy, and consistency of such data. At the end of the day, Platts’ goal
in publishing the Dated Brent Assessment is to accurately reflect market prices and to avoid distortion or
artificiality.3
C. Brent Futures Market
Plaintiffs focus their claims on Brent‐related futures and derivatives contracts (“Brent Futures”),
which are primarily traded on two exchanges: NYMEX
and ICE Futures Europe. NYMEX is a U.S.‐based
commodity futures exchange, while ICE Futures Europe is a London‐based exchange. Plaintiffs and other
3

Indeed, according to its website, Platts “makes every effort
to detect anomalous market behaviors and act swiftly to ensure
these do not undermine the integrity of its assessments.” JA 735.

6a
market participants trade on both exchanges. The
most heavily traded Brent Futures contract is the
“ICE Brent Futures Contract,” which has a corollary
contract on the NYMEX. These contracts stop trading,
or “expire,” approximately two weeks before the delivery month. If a futures contract is not offset before it
expires, the contract is cash‐settled. In other words,
the in‐the‐money counterparty receives the cash value
of the contract rather than the underlying asset itself.
Brent Futures traded on ICE Futures Europe
(“ICE Brent Futures”) are cash-settled based on an established benchmark known as the ICE Brent Index.
Brent Futures traded on the NYMEX, in turn, settle
at expiration to the price of ICE Brent Futures. Unlike
the Dated Brent Assessment – which Platts calculates
based on prices for the least expensive BFOE grade of
Brent cargoes – the ICE Brent Index is calculated
based on the entire BFOE market of physical Brent
cargoes. In addition, the ICE Brent Index incorporates
an average of certain designated price-reporting assessments, one of which, Plaintiffs allege, is the Dated
Brent Assessment.
Beyond this incorporation, Plaintiffs provide several other points of support for their claim of a “direct[]
link” between Brent Futures settlement prices and the
Dated Brent Assessment. Specifically, they contend
that the “ICE Brent Futures Contracts prices rarely
deviate from the Dated Brent Assessment by more
than 1% at expiration,” and that “changes in the Dated
Brent Assessment directly impact[] Brent Futures
prices.”

7a
D. The Alleged Manipulation
Plaintiffs allege that Defendants conspired to manipulate, and did in fact manipulate, the market for
physical Brent crude and Brent Futures by executing
fraudulent bids, offers, and transactions in the underlying physical Brent crude market over the course of
the Class Period. Defendants allegedly conducted
these trades during the MOC window and then systematically reported the artificial transactions to
Platts with the intention of manipulating the Dated
Brent Assessment. According the Plaintiffs, Defendants’ aim in doing so was “to benefit their physical
Brent and Brent Futures positions,” while the consequent manipulation of Brent Futures prices caused
Plaintiffs to suffer economic loss because they transacted in Brent Futures during this time.
Plaintiffs’ claim involves a causal chain that can
be summarized as follows: Defendants engaged in artificial trades of physical Brent crude in foreign markets; Defendants systematically reported the artificial
trade data to Platts; Platts reviewed and incorporated
the fraudulent data into its calculation of the Dated
Brent Assessment; ICE Futures Europe in turn incorporated the manipulated Dated Brent Assessment
into the ICE Brent Index; the manipulated ICE Brent
Index was used to settle Brent Futures that were
traded on both the London‐based ICE Futures Europe
and the U.S.‐based NYMEX; as a result, Brent Futures traded and settled at artificial prices, causing
economic loss to traders such as Plaintiffs.
Plaintiffs – as they acknowledge – “do not allege a
single overarching conspiracy among all Defendants
for the full Class Period,” nor do they allege that the
physical Brent crude market was monopolized by all

8a
Defendants simultaneously. Moreover, Plaintiffs do
not assert that Defendants engaged in any manipulative trading on NYMEX or ICE Futures Europe. Rather, Plaintiffs limit the focus of their claim to Defendants’ foreign physical market transactions, arguing
that these transactions initiated a chain of events that
caused ripple effects across global commodities markets.
B. Procedural History
In 2013, Plaintiffs filed various independent cases
against Defendants. Those cases were consolidated
and transferred to the Southern District of New York
(Carter, J.) in October 2013. Defendants filed an
Amended Complaint on July 3, 2014, and filed a Second Amended Complaint (“SAC”) on February 27,
2015. In the SAC, Plaintiffs asserted claims under (1)
Sections 6(c)(1) and 9(a)(2) of the Commodity Exchange Act (“CEA”), 7 U.S.C. §§ 9(1)(a), 13(a)(2), including derivative claims for respondeat superior and
for aiding and abetting, see 7 U.S.C. §§ 2(a)(1)(B),
25(a)(1)4; (2) Sections 1 and 2 of the Sherman Act, 15
U.S.C. §§ 1, 2; and (3) the common law for unjust enrichment. On July 28, 2014, Defendants Statoil and
STASCO individually filed motions to dismiss based,
respectively, on lack of subject matter jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1) and
lack of personal jurisdiction pursuant to Federal Rule
of Civil Procedure 12(b)(2). That same day, all Defendants moved to dismiss all claims made in the SAC pursuant to Federal Rule of Civil Procedure 12(b)(6).

4

Section 22 of the CEA, 7 U.S.C. § 25, gives Plaintiffs a private right of action to sue for these violations.

9a
The district court granted Statoil’s motion to dismiss for lack of subject matter jurisdiction under the
Foreign Sovereign Immunities Act, and granted
STATSCO’s motion to dismiss for lack of personal jurisdiction. Additionally, the district court granted the
remaining Defendants’ joint motion to dismiss all the
claims in the SAC on the grounds that (1) Plaintiffs
did not allege antitrust standing on their Sherman Act
claims, and (2) their claims under the CEA were impermissibly extraterritorial. Plaintiffs filed a timely
notice of appeal.5
II. STANDARD OF REVIEW AND JURISDICTION
“We review de novo the grant of a motion to dismiss for failure to state a claim upon which relief can
be granted under Federal Rule of Civil Procedure
12(b)(6).” Harris v. Mills, 572 F.3d 66, 71 (2d Cir.
2009). We have jurisdiction under 28 U.S.C. § 1291.
III. DISCUSSION
The CEA is a “remedial statute that serves the
crucial purpose of protecting the innocent individual
investor—who may know little about the intricacies
and complexities of the commodities market—from being misled or deceived.” Commodity Futures Trading
Comm’n v. R.J. Fitzgerald & Co., 310 F.3d 1321, 1329
(11th Cir. 2002). This case implicates two antifraud
provisions of the CEA. Section 6(c)(1) of the CEA
makes it “unlawful for any person ... to use or employ,
5

In this opinion, we only address Plaintiffs’ appeal of the dismissal of their CEA claims. We separately address the dismissal
of Plaintiffs’ Sherman Act claims, as well as the dismissal of
Statoil and STASCO on other grounds, in a summary order issued simultaneously with this opinion. Plaintiffs do not appeal
the dismissal of their unjust enrichment claim.

10a
... in connection with any swap, or a contract of sale of
any commodity, ... any manipulative or deceptive device.” 7 U.S.C. § 9(a)(1). Additionally, Section 9(a)(2)
proscribes “manipulat[ing] or attempt[ing] to manipulate the price of any commodity in interstate commerce.” 7 U.S.C. § 13(a)(2). Plaintiffs seek to enforce
these substantive provisions of the CEA through the
Act’s private right of action, which permits a party to
bring suit against a person whose violation of the CEA
“result[s] from one or more of the transactions” listed
in the statute. See 7 U.S.C. § 25(a)(1). At bottom, this
case centers on our interpretation of the CEA – specifically, whether it permits suit against Defendants for
alleged manipulative conduct that transpired in Europe.
We interpret the CEA in light of the presumption
against extraterritoriality, a canon of statutory interpretation that is a “basic premise of our legal system.”
RJR Nabisco, Inc. v. European Cmty., 136 S. Ct. 2090,
2100 (2016); see also United States v. Palmer, 3 Wheat.
610, 631 (1818) (Marshall, C.J.) (“[G]eneral words
must ... be limited to cases within the jurisdiction of
the state”); Antonin Scalia & Bryan Garner, Reading
Law: The Interpretation of Legal Texts 268 (2012). “Absent clearly expressed congressional intent to the contrary,” federal laws must be “construed to have only
domestic application.” RJR Nabisco, 136 S. Ct. at
2100. This reflects the “commonsense notion that Congress generally legislates with domestic concerns in
mind,” Smith v. United States, 507 U.S. 197, 204 n.5
(1993), and acts to “protect against unintended clashes
between our laws and those of other nations which
could result in international discord,” EEOC v. Arabian Am. Oil Co., 499 U.S. 244, 248 (1991).

11a
Generally, courts engage in a “two‐step framework for analyzing extraterritoriality issues.” RJR
Nabisco, 136 S. Ct. at 2101. First, because there must
be an “affirmative intention of the Congress clearly expressed” to give a statute extraterritorial effect, Morrison v. Nat’l Australia Bank Ltd., 561 U.S. 247, 255
(2010) (quoting Arabian Am. Oil, 499 U.S. at 248),
courts look to the text of the statute to discern whether
there is a “clear indication of extraterritoriality,” id. at
265; see also WesternGeco LLC v. ION Geophysical
Corp., 138 S. Ct. 2129, 2136 (2018). If the statute lacks
such a “clear statement” of extraterritorial effect, the
statute does not apply abroad. Morrison, 561 U.S. at
265.
However, a claim may still survive if it properly
states a “domestic application” of the statute. See id.
at 266. As it is “a rare case ... that lacks all contact
with the territory of the United States,” id. (emphasis
in original), many cases present a mixed bag of both
domestic and foreign components. Accordingly, at the
second step, courts must evaluate whether the domestic activity pleaded is the “focus of congressional concern.” Id. In other words, because the presumption
against extraterritoriality would be a “craven watchdog indeed” if it “retreated to its kennel whenever
some domestic activity is involved,” id. (emphasis in
original), courts must evaluate whether the domestic
activity involved implicates the “focus” of the statute.
Therefore, we first assess the text of each of the
three provisions implicated by this suit – the two substantive regulations, Sections 6(c)(1) and 9(a)(2), and
the private right of action, Section 22 – to determine if
any of them contains a “clear indication of extraterritoriality.” Morrison, 561 U.S.A at 265; see RJR

12a
Nabisco, 136 S. Ct. at 2106–2111 (evaluating extraterritorial application of RICO’s private right of action
provision separately from substantive RICO provisions).
A. Affirmative Intention to Apply Extraterritorially
As to whether Congress intended Section 22 to apply to conduct abroad, circuit precedent provides the
answer. In Loginovskaya v. Batratchenko, we held
that since Section 22 of the CEA “is silent as to extraterritorial reach,” suits funneled through this private
right of action “must be based on transactions occurring in the territory of the United States.” 764 F.3d
266, 271, 272 (2d Cir. 2014).6
The same is also true of Sections 6(c)(1) and
9(a)(2). Specifically, Section 6(c)(1) proscribes “us[ing]
or employ[ing], ... in connection with any swap, or a
contract of sale of any commodity, ... any manipulative
or deceptive device.” 7 U.S.C. § 9. Thus, on its face,
Section 6(c)(1) – like Section 22 – “lacks ... a clear
statement of extraterritorial effect.” Morrison, 561
U.S. at 265. Section 9(a)(2), which prohibits “manipulat[ing] or attempt[ing] to manipulate the price of any
commodity in interstate commerce,” 7 U.S.C. § 13,
likewise contains no affirmative, textual indication
that it applies to conduct abroad. By contrast, as the
Supreme Court noted in Morrison, other provisions in
the securities laws, such as 15 U.S.C. § 78dd(a), “contain[] what [Sections 6(c)(1) and 9(a)(2)] lack[ ]: a clear
6

While the Dodd‐Frank Wall Street Reform and Consumer
Protection Act amended the CEA to apply extraterritorially to
certain swap‐related activities, see 7 U.S.C.A. § 2(i), that amendment does not affect our analysis here for reasons separately explained below.

13a
statement of extraterritorial effect.” Morrison, 561
U.S. at 265.
Plaintiffs make a last‐ditch effort to establish that
extraterritorial application of the CEA is proper by resorting to a separate provision – Section 2(i). Enacted
pursuant to the Dodd‐Frank Wall Street Reform and
Consumer Protection Act, Pub. L. No. 111‐203, 124
Stat. 1376 (2010), Section 2(i) of the CEA states:
The provisions of this Act relating to swaps ...
shall not apply to activities outside the United
States unless those activities – (1) have a direct and significant connection with activities
in, or effect on, commerce of the United States;
or (2) contravene such rules or regulations as
the Commission may prescribe ... to prevent
the evasion of any provision of this Act.
7 U.S.C.A. § 2(i). Unlike Sections 6(c)(1) and 9(a)(2),
Section 2(i) contains, on its face, a “clear statement,”
Morrison, 561 U.S. at 265, of extraterritorial application. If there were any lingering doubts about whether
Sections 6(c)(1) and 9(a)(2) independently apply extraterritorially, Section 2(i) forecloses those doubts, because it shows that Congress “knows how to give a
statute explicit extraterritorial effect ... and how to
limit that effect to particular applications” within the
CEA. Morrison, 561 U.S. at 265 n.8. Therefore, the existence of an enumerated extraterritorial command in
Section 2(i) reinforces our conclusion that the lack of
any analogous directive in either Section 6(c)(1) or Section 9(a)(2) bars their extraterritorial application here.
As for Plaintiffs’ contention that Section 2(i) applies extraterritorially here because there is a “direct
and significant connection” to the United States, even

14a
a charitable reading of the docket reveals that Plaintiffs neglected to raise this argument until after the
district court rendered its final judgment. Indeed,
Plaintiffs did not even mention this argument in their
opposition to Defendants’ motion to dismiss. See Doc.
No. 148 (“CFTC Amicus Br.”) at 4 (“The Commission
takes no position on whether or how Section 2(i) may
apply here. That was not litigated below ....”). We have
found an argument to be waived for purposes of appellate review where a litigant “failed to make any such
argument in opposition to the defendants’ motion.”
Askins v. Doe No. 1, 727 F.3d 248, 252 (2d Cir. 2013).
Hence, Plaintiffs have waived the argument that Section 2(i) sustains claims encompassing “swap‐related”
Brent transactions. See Morrison, 561 U.S. at 254 (reiterating that a question regarding the extraterritorial
reach of a federal statute presents a “merits question,”
not a question of subject‐matter jurisdiction).7
B. Domestic Application of Sections 22, 6(c)(1),
and 9(a)(2)
Plaintiffs urge that even if the relevant provisions
of the CEA do not apply extraterritorially, the district
court erred because the SAC alleges a proper “domestic application of the statute.” RJR Nabisco, 136 S. Ct.
at 2101 (“If the statute is not extraterritorial, then at

7

Even if we considered the applicability of Section 2(i), our
conclusion would not change. The most recent acts of the alleged
manipulation described by Plaintiffs occurred in September 2012,
before Section 2(i) became effective, and the provision is silent as
to retroactive application. Bowen v. Georgetown Univ. Hosp., 488
U.S. 204, 208 (1988) (“[C]ongressional enactments and administrative rules will not be construed to have retroactive effect unless their language requires this result.”).

15a
the second step we determine whether the case involves a domestic application of the statute.”).
Whether Plaintiffs’ claims constitute a satisfactory domestic application of the CEA requires us to
discern the “focus of congressional concern” in enacting the statute. Morrison, 561 U.S. at 266. To divine
the CEA’s “focus,” we consider the “conduct” that the
statute “seeks to regulate,” as well as “the parties and
interests it seeks to protect or vindicate.” WesternGeco,
138 S. Ct. at 2137 (quoting Morrison, 561 U.S. at 267).
Our inquiry is guided by the statute’s text, see Morrison, 561 U.S. at 266–69, as well as how the “statutory
provision at issue works in tandem with other provisions,” WesternGeco, 138 S. Ct. at 2137.
Importantly, we must discern the “focus” of each
provision individually, for even if Plaintiffs satisfactorily pleaded a domestic application for one of the conduct‐regulating provisions – i.e., Sections 6(c)(1) and
9(a)(2) – they must also do the same for the CEA’s private right of action provision, Section 22. See Loginovskaya, 764 F.3d at 272; see also RJR Nabisco, 136
S. Ct. at 2106 (“[W]e separately apply the presumption
against extraterritoriality to RICO’s [private] cause of
action.”). Because Plaintiffs’ suit “must satisfy the
threshold requirement of CEA § 22 before reaching the
merits of [their] § [6(c)(1) and 9(a)(2)] fraud claim[s],”
Loginovskaya, 764 F.3d at 272, we start by assessing
whether Plaintiffs have pleaded a proper domestic application of Section 22.
1. Section 22
In Loginovskaya, we held that the focus of congressional concern in Section 22 is “clearly transactional,” given its emphasis on “domestic conduct [and]

16a
domestic transactions.” Id. Thus, in order for Plaintiffs
to state a proper domestic application of Section 22,
the suit “must be based on transactions occurring in
the territory of the United States.” The “domestic
transaction test” essentially “decides the territorial
reach of [Section] 22.”8 Id.
To assess whether Plaintiffs pleaded permissibly
domestic transactions under Section 22, typically we
would apply a test first announced in Absolute Activist
Value Master Fund Ltd. v. Ficeto, 677 F.3d 60 (2d Cir.
2012). However, following the course we have taken in
securities cases, see Parkcentral Global Hub Ltd. v.
Porsche Automobile Holdings SE, 763 F.3d 198, 216
(2d Cir. 2014), we need not decide definitively whether
Plaintiffs’ transactions satisfy Absolute Activist, for (as
discussed below) their claims are impermissibly extraterritorial even if the transactions are domestic. Thus,
we assume without deciding that Plaintiffs’ trades on
NYMEX and ICE Futures Europe constituted “domestic transactions” under Section 22.
In Parkcentral, investors in equity swaps pegged
to the price of Volkswagen stock sued under Section
10(b), alleging that defendants made misleading statements that sought to hide their intentions to take over
Volkswagen. 763 F.3d at 201–02. All of defendants’
misconduct occurred in Germany, and Volkswagen
8

In evaluating whether Plaintiffs’ claims fit within the “focus” of Section 22, we must assess the “conduct relevant to the
statute’s focus.” WesternGeco, 138 S. Ct. at 2137 (emphasis
added) (quoting RJR Nabisco, 136 S. Ct. at 2101). Defendants do
not dispute that the “relevant conduct” under Section 22 is the
purchase and sale of Brent Futures. As such, for the purposes of
our Section 22 analysis, we take those commodities transactions
to be the relevant conduct.

17a
stock only traded on European stock exchanges. Id. We
assumed without deciding that the equity swaps at issue there were “domestic transactions” under Section
10(b), but nonetheless dismissed the claims because
the facts in that case rendered the suit “predominately
foreign.” Id. at 216. The predicate to our conclusion in
Parkcentral was the maxim that “a domestic transaction or listing is necessary” but “not alone sufficient” to
state a claim under Section 10(b). Id. at 215–16 (emphasis in original). The question this case presents is
whether Parkcentral’s rule carries over to the CEA.
We hold that it does.
For starters, Section 22 creates no freestanding,
substantive legal obligations; instead, it requires the
“commission of a violation of this chapter.” 7 U.S.C.
§ 25(a)(1); see Doc. No. 242 (“Chamber of Commerce et
al. Amicus Br.”) at 20. And as already discussed above,
the conduct‐regulating provisions of the CEA – particularly those at issue here – apply only to domestic conduct, and not to foreign conduct. See supra Section
III.A. Put differently, while a domestic transaction is
necessary to invoke Section 22, it is not sufficient, for
a plaintiff must also allege a domestic violation of one
of the CEA’s substantive provisions. So Parkcentral’s
insight – that a domestic securities transaction is necessary but not sufficient to state a claim under Section
10(b), see Parkcentral, 763 F.3d at 214 – is required by
the text and structure of Section 22. To hold otherwise
would be to divorce the private right afforded in Section 22 from the requirement of a domestic violation of
a substantive provision of the CEA. See WesternGeco,
138 S. Ct. at 2137 (“If the statutory provision at issue
works in tandem with other provisions, it must be assessed in concert with those other provisions.

18a
Otherwise, it would be impossible to accurately determine whether the application of the statute in the case
is a ‘domestic application.’” (quoting RJR Nabisco, 136
S. Ct. at 2017)); see also Chamber of Commerce et al.
Amicus Br. at 20–21. To state a proper claim under
Section 22 in this case, Plaintiffs must allege not only
a domestic transaction, but also domestic – not extraterritorial – conduct by Defendants that is violative of
a substantive provision of the CEA, such as Section
6(c)(1) or Section 9(a)(2). See WesternGeco, 138 S. Ct.
at 2137–38 (looking to “the type of infringement that
occurred” in analyzing whether litigant stated a domestic application of the damages remedy provision of
the Patent Act, and concluding that it did because
“[t]he conduct in this case that is relevant to th[e]
[statute’s] focus clearly occurred in the United
States”).
Besides the structure of the CEA and the language of Section 22, the presumption against extraterritoriality also counsels in favor of extending Parkcentral’s holding to the instant case. Permitting a suit to
go forward any time a domestic transaction is pleaded
would turn the presumption against extraterritoriality into a “craven watchdog,” Morrison, 561 U.S. at
266, and would fly in the face of the Supreme Court’s
clear guidance that the presumption against extraterritoriality cannot evaporate any time “some domestic
activity is involved in the case,” id. (emphasis in original). As Morrison notes, the mere fact that a domestic
transaction – i.e., “some” domestic activity – is involved is insufficient to rebut the presumption against
extraterritoriality in light of the fact that “[f]oreign
conduct is generally the domain of foreign law,” Microsoft Corp. v. AT&T Corp., 550 U.S. 437, 455 (2007).

19a
Parkcentral recognized this very concern, reasoning
that “a rule making [Section 10(b)] applicable whenever the plaintiff’s suit is predicated on a domestic
transaction,” regardless of the “foreignness of the
facts,” would trample on Morrison by requiring us to
apply the statute to “wholly foreign activity,” Parkcentral, 763 F.3d at 215. In addition, potential “unintended clashes between our laws and those of other
nations ... could result in international discord,” Arabian Am. Oil, 499 U.S. at 248, if we “adopt an interpretation of U.S. law that carries foreign policy consequences not clearly intended by the political
branches,” Kiobel v. Royal Dutch Petroleum Co., 569
U.S. 108, 116 (2013) (quoting Benz v. Compania Naviera Hidalgo, S.A., 353 U.S. 138, 147 (1957)). Given
that courts “have looked to the securities laws” when
asked “to interpret similar provisions of the CEA,”
Loginovskaya, 764 F.3d at 272, we do not hesitate in
applying Parkcentral’s gloss on domestic transactions
under Section 10(b) to domestic transactions under
Section 22 of the CEA. Therefore, while a domestic
transaction as defined by Absolute Activist is “necessary” to invoke the private remedy afforded by Section
22, it is not “sufficient.”
In order to close the gap between “necessary” and
“sufficient,” Plaintiffs’ claims must not be “so predominately foreign as to be impermissibly extraterritorial.” Parkcentral, 763 F.3d at 216. Here, the facts are
remarkably similar to those in Parkcentral, and therefore leave little doubt that Plaintiffs’ claims are “predominately foreign.”
In both cases, plaintiffs traded derivatives – in
Parkcentral, equity swaps, and here, futures contracts
– which, by their nature, are pegged to the value of

20a
another asset. Both underlying assets were foreign:
Parkcentral involved the price of Volkswagen stock
traded on European stock exchanges, and here Plaintiffs’ transactions were based on the Dated Brent Assessment, which itself reflects, in part, the value of
Brent crude physically traded in Northern Europe.
The alleged misconduct in both instances was also entirely foreign. Indeed, Parkcentral’s facts are perhaps
less predominantly foreign than those alleged here,
since the misleading statements at issue in Parkcentral were “accessible in the United States and were repeated here by the defendants,” Parkcentral, 763 F.3d
at 201, whereas Plaintiffs in this case make no claim
that any manipulative oil trading occurred in the
United States. Moreover, in Parkcentral, the equity
swaps traded in the United States were “directly tied
to the price of Volkswagen’s shares on foreign exchanges.” Here, Plaintiffs rely on an even more attenuated “ripple effects” theory whereby (1) the alleged
manipulative trading activity taking place in the
North Sea (2) affected Brent crude prices – a foreign
commodity – which (3) affected a foreign benchmark,
the Dated Brent Assessment, which (4) was then disseminated by a foreign price‐reporting agency, which
(5) was then allegedly used (in part) to price futures
contracts traded on exchanges around the world.
Nearly every link in Plaintiffs’ chain of wrongdoing is
entirely foreign – in contrast to Parkcentral, where the
alleged wrongdoing occurred on American shores at
the second causal step, not the fifth. And yet even in
Parkcentral, we deemed the conduct to be “so predominantly foreign” as to render the claims impermissibly
extraterritorial. Parkcentral, 763 F.3d at 216. The
same conclusion is warranted here. Therefore, we

21a
conclude that Plaintiffs have failed to plead a proper
domestic application of Section 22 of the CEA.
2. Sections 6(c)(1) and 9(a)(2)
Although “[Plaintiffs’] suit must satisfy the
threshold requirement of CEA Section 22 before reaching the merits of [their] Section [6(c)(1) and 9(a)(2)]
fraud claim,” Loginovskaya, 764 F.3d at 272, Plaintiffs
have, in any event, also failed to plead a proper domestic application of either Section 6(c)(1) or 9(a)(2).
Section 6(c)(1), in relevant part, makes it “unlawful for any person, directly or indirectly, to use or employ ... in connection with any swap, or a contract of
sale of any commodity in interstate commerce, or for
future delivery on or subject to the rules of any registered entity, any manipulative or deceptive device or
contrivance.” 7 U.S.C. § 9(a)(1). Plaintiffs urge this
Court to ignore the plain text of the statute and suggest that the focus of this Section is the locus of the
transaction. Plaintiffs point to Morrison, where the
Supreme Court held that Section 10(b), which contains
similar language, focused “not upon the place where
the deception originated, but upon purchases and
sales of securities in the United States.” Morrison, 561
U.S. at 266. But the language of Section 6(c)(1) crucially differs from Section 10(b), as the latter prohibits
“us[ing] or employ[ing], in connection with the purchase or sale of any security registered on a national
securities exchange or any security not so registered[,]
... any manipulative or deceptive device,” 15 U.S.C.
§ 78j, while Section 6(c)(1) contains no mention of a
“national securities exchange.” Thus, there is no great
significance in this case to Morrison’s determination
that Section 10(b) focused specifically on “deceptive
conduct ‘in connection with the purchase or sale of any

22a
security registered on a national securities exchange
or any security not so registered.’” Morrison, 561 U.S.
at 266 (quoting 15 U.S.C. § 78j). There is nothing in
Section 6(c)(1)’s text suggesting that it is focused on
“purchases and sales of securities in the United
States,” Morrison, 561 U.S. at 266, and other available
evidence in the CEA, such as that statute’s statement
of purpose, suggests that the focus is on rooting out
manipulation and ensuring market integrity – not on
the geographical coordinates of the transaction. See 7
U.S.C. § 5 (“[I]t is further the purpose of this chapter
to deter and prevent price manipulation or any other
disruptions to market integrity ... to ensure the financial integrity of all transactions subject to this chapter.”); see also Antonin Scalia & Bryan Garner, Reading Law: The Interpretation of Legal Texts 33 (2012)
(noting that a statute’s enumerated statement of purpose is relevant when interpreting a text). Therefore,
we discern that Section 6(c)(1) centers on manipulation in commodities markets. All of the conduct relevant to that focus occurred abroad – Defendants are
alleged to have manipulated the physical Brent crude
market near Europe’s North Sea by engaging in fraud
there. And if “the relevant conduct occurred in another
country, ‘then the case involves an impermissible extraterritorial application regardless of any other conduct that occurred in U.S. territory.’” WesternGeco,
138 S. Ct. at 2137 (quoting RJR Nabisco, 136 S. Ct. at
2101). As a result, Plaintiffs have failed to plead a
proper domestic application of Section 6(c)(1).
Plaintiffs have also failed to plead a domestic application of Section 9(a)(2). That Section proscribes
“manipulat[ing] or attempt[ing] to manipulate the
price of any commodity in interstate commerce.” 7

23a
U.S.C. § 13(a)(2). The focus of Section 9(a)(2) is preventing manipulation of the price of any commodity.
And all of the relevant conduct here relating to that
focus occurred abroad – Plaintiffs contend that Defendants sought to manipulate the price of Brent
crude, and did so by fraudulently transacting in the
physical market in Europe. Plaintiffs make no allegation of manipulative conduct or statements made in
the United States. To the contrary, they expressly rely
on a “ripple effect” or chain of events that resembles a
falling row of dominoes commencing in the North Sea.
Accordingly, Plaintiffs fail to plead a proper domestic
application of Section 9(a)(2) as well.9
IV. CONCLUSION
We do not lightly dismiss Plaintiffs’ troubling allegations against Defendants, which include serious
claims premised on manipulation, fraud, and deceit.
Nonetheless, “the sole function of the courts is to enforce [the CEA] according to its terms,” not to reinvent
it. Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy,
548 U.S. 291, 296 (2006). The presumption against extraterritoriality reflects the recognition that “[a]ll legislation is prima facie territorial.” Am. Banana Co. v.
United Fruit Co., 213 U.S. 347, 357 (1909) (Holmes,
J.). That presumption has not been displaced here, and
Plaintiffs have not pleaded a domestic application of
the CEA by mere dint of the fact that – after a winding
chain of foreign, intervening events – they purchased
Brent Futures on exchanges. Were we to hold

9

Because Plaintiffs have not pleaded a domestic application
of either Section 6(c)(1) or 9(a)(2), we need not decide whether
Parkcentral applies to those sections.

24a
otherwise, the CEA would indeed “rule the world.” Microsoft, 550 U.S. at 454.
Accordingly, the judgment of the district court is
AFFIRMED.

25a
APPENDIX B
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
No. 17‐2233
PRIME INTERNATIONAL TRADING, LTD.,
WHITE OAKS FUND LP, KEVIN MCDONNELL,
ANTHONY INSINGA, ROBERT MICHIELS, JOHN
DEVIVO, NEIL TAYLOR, AARON SCHINDLER,
PORT 22, LLC, ATLANTIC TRADING USA, LLC,
AND XAVIER LAURENS,
Plaintiffs‐Appellants,
v.
BP P.L.C., TRAFIGURA BEHEER B.V.,
TRAFIGURA AG, PHIBRO TRADING L.L.C., VITOL
S.A., MERCURIA ENERGY TRADING S.A., HESS
ENERGY TRADING COMPANY, LLC, STATOIL US
HOLDINGS INC., SHELL TRADING US
COMPANY, BP AMERICA, INC., VITOL, INC., BP
CORPORATION NORTH AMERICA, INC.,
MERCURIA ENERGY TRADING, INC., MORGAN
STANLEY CAPITAL GROUP INC., PHIBRO
COMMODITIES LTD., SHELL INTERNATIONAL
TRADING AND SHIPPING COMPANY LIMITED,
STATOIL ASA, AND ROYAL DUTCH SHELL PLC,
Defendants‐Appellees.+
________________________________

+

The Clerk of Court is respectfully directed to amend the official caption as listed above.

26a
AUGUST 29, 2019
________________________________
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1,
2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1
AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING TO A
SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 29th day of August,
two thousand nineteen.
________________________________
PRESENT:
DENNIS JACOBS,
RICHARD J. SULLIVAN,
Circuit Judges

27a
EDWARD R. KORMAN,
District Judge.*
*

*

*

UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED that the judgment of the district court be and
hereby is AFFIRMED.
Plaintiffs‐Appellants (“Plaintiffs”) appeal from a
judgment of the United States District Court for the
Southern District of New York (Carter, J.,) dismissing
(1) Plaintiffs’ claims against Defendant‐Appellee Shell
International Trading and Shipping Company Limited
(“STASCO”) for lack of personal jurisdiction, (2) Plaintiffs’ claims against Defendant‐Appellee Statoil ASA
(“Statoil”) for lack of subject‐matter jurisdiction under
the Foreign Sovereign Immunities Act (“FSIA”), and
(3) Plaintiffs’ remaining claims against all Defendants‐Appellees (“Defendants”) for failure to state a
claim. In this summary order, we affirm the dismissal
of all of Plaintiffs’ Sherman Act antitrust claims, as
well as the dismissal of Statoil for lack of subject‐matter jurisdiction, and STASCO for lack of personal jurisdiction. We affirm the district court’s dismissal of
Plaintiffs’ Commodity Exchange Act claims in a separately filed opinion (“Opinion”).
For the purposes of this summary order, we rely
on the facts set forth in the Opinion, and repeat only
those facts necessary to explain our decision here.

*

Judge Edward R. Korman, of the United States District
Court for the Eastern District of New York, sitting by designation.

28a
I. SHERMAN ACT CLAIMS
Plaintiffs allege that Defendants engaged in price
fixing, monopolization, and conspiracy to monopolize
under the Sherman Act, 15 U.S.C. §§ 1, 2. The district
court dismissed Plaintiffs’ Sherman Act claims because they failed to plausibly allege antitrust standing. We review dismissal of a claim pursuant to Federal Rule of Civil Procedure 12(b)(6) de novo. See Harris v. Mills, 572 F.3d 66, 71 (2d Cir. 2009).
Section 4 of the Clayton Act provides:
[A]ny person who shall be injured in his business or property by reason of anything forbidden in the antitrust laws may sue ... in any district court of the United States in the district
in which the defendant resides or is found or
has an agent, without respect to the amount in
controversy, and shall recover threefold the
damages by him sustained, and the cost of
suit, including a reasonable attorney’s fee.
15 U.S.C. § 15(a). Section 4 has been construed to “require a showing of antitrust injury.” Gelboim v. Bank
of Am. Corp., 823 F.3d 759, 772 (2d Cir. 2016). Antitrust injury is “the type [of injury] the antitrust laws
were intended to prevent and that flows from that
which makes defendants’ acts unlawful.” Brunswick
Corp. v. Pueblo Bowl–O–Mat, Inc., 429 U.S. 477, 489
(1977). Typically, only “participants in the defendants’
market” can show antitrust injury, In re Aluminum
Warehousing Antitrust Litig., 833 F.3d 151, 158 (2d
Cir. 2016), but there is a narrow exception for “parties
whose injuries are ‘inextricably intertwined’ with the
injuries of market participants,” Am. Ad Mgmt., Inc. v.

29a
Gen. Tel. Co. of Cal., 190 F.3d 1051, 1057 n.5 (9th Cir.
1999).
As is often the case with antitrust claims, the
Court must first determine the “relevant market” for
purposes of assessing antitrust injury. See In re Aluminum Warehousing Antitrust Litig., 833 F.3d at 159.
As a general matter, the “relevant market” is the market that is “directly restrained” by Defendants’ alleged
anticompetitive activity. See id. at 162. There are two
such relevant markets here. First, Plaintiffs allege
that Defendants, as producers, refiners, and sellers of
Brent crude oil, manipulated the price of physical
Brent crude traded in the North Sea so as to increase
Defendants’ profit margins in their oil businesses. Accordingly, as the parties seem to agree, a “relevant
market” for the purposes of this case must be, at a minimum, the physical Brent crude market. See In re Aluminum Warehousing Antitrust Litig., 833 F.3d at 162
(identifying the warehouse storage market as a relevant market because “[a]ll of th[e] conduct took place
(if at all) in [that] market”). Second, Plaintiffs also
claim that Defendants manipulated the price of Brent
crude in order to affect the Dated Brent Assessment,
which would in turn boost Defendants’ profit on derivatives that were linked to, or otherwise tracked, that
assessment. As such, we agree with the district court
that a second relevant market is “the market for any
derivative instrument that directly incorporates
Dated Brent as benchmark or pricing element.”
Plaintiffs do not suggest that they participated in
the physical market for Brent crude oil. Accordingly,
the question before the Court is whether Plaintiffs
participated in the market for derivative instruments
directly pegged to the Dated Brent Assessment. See In

30a
re Aluminum Warehousing Antitrust Litig., 833 F.3d
at 162. Plaintiffs have not made this showing. As an
initial matter, Plaintiffs acknowledge that the operative pricing benchmark for Brent futures and derivative products is the ICE Brent Index, not the Dated
Brent Assessment. And Plaintiffs further concede that
the Dated Brent Assessment is not “express[ly] incorporat[ed]” into the ICE Brent Index. Instead, Plaintiffs
rest their theory of incorporation on the fact that the
Dated Brent Assessment “closely correlates” with the
ICE Brent Index. But Plaintiffs could not have suffered an antitrust injury if they dealt in products that
were not linked to the benchmark they complain of, for
they would not be a “participant in the very market
that is directly restrained.” In re Aluminum Warehousing Antitrust Litig., 833 F.3d at 161. Their efforts
to re‐write their complaint – in order to show that the
ICE Brent Index directly incorporates the Dated Brent
Assessment – does not save their claim. While Plaintiffs state in their complaint, for example, that a “critical component of the Brent Index is the Platts price,”
J. App’x 1980, there is no allegation that the “Platts
price” and “Dated Brent Assessment” are synonymous
– indeed, Platts publishes price reports across a variety of energy submarkets. As to the few products that
Plaintiffs say directly incorporate the Dated Brent Assessment, such as the NYMEX Brent CFD, Plaintiffs
make no specific allegations that they bought or sold
these particular contracts. And a pleading that offers
only “labels and conclusions” or “a formulaic recitation
of the elements of a cause of action” does not suffice.
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007).
Thus, we affirm the district court’s dismissal of Plaintiffs’ Sherman Act claims on the ground that they have

31a
not adequately pleaded an antitrust injury in the markets that Defendants allegedly directly restrained.
II. STATOIL AND THE FSIA
The district court concluded that it lacked subject‐
matter jurisdiction over Plaintiffs’ claims against
Statoil – an oil and gas company primarily owned by
the Kingdom of Norway – because Plaintiffs failed to
demonstrate that Statoil was subject to the commercial‐activity exception under the FSIA. We review dismissal for lack of subject‐matter jurisdiction under the
FSIA de novo. See Robinson v. Government of Malaysia, 269 F.3d 133, 138 (2d Cir. 2001).
“The FSIA provides the sole basis for obtaining jurisdiction over a foreign state in federal court,” Anglo‐
Iberia Underwriting Mgmt. v. P.T. Jamsostek, 600
F.3d 171, 175 (2d Cir. 2010), and, as such, a “foreign
state is immune from federal court jurisdiction unless
a specific exception to the FSIA applies,” id. The
FSIA’s commercial‐activity exception abrogates foreign sovereign immunity where:
[T]he action is based upon a commercial activity carried on in the United States by the foreign state; or upon an act performed in the
United States in connection with a commercial
activity of the foreign state elsewhere; or upon
an act outside the territory of the United
States in connection with a commercial activity of the foreign state elsewhere and that act
causes a direct effect in the United States.
28 U.S.C. § 1605. Because the Kingdom of Norway
owns two‐thirds of Statoil, Statoil is an “instrumentality of a foreign state” and thus subject to the FSIA. See
28 U.S.C. § 1603(b)(2). The district court determined

32a
that the relevant “commercial activity” for purposes of
evaluating this FSIA exception is the “allegedly manipulative transactions and reporting that allegedly
gave rise to manipulation on NYMEX and ICE.”
We agree with the district court that the manipulative trading and price reporting that occurred overseas is the applicable “commercial activity” here, because such activity is the “‘but for’ cause of the judgments that are the ground of this suit.” Kensington,
505 F.3d at 155. In other words, because the overseas
manipulation “serves as the basis for [P]laintiffs’
claims,” Garb v. Republic of Poland, 440 F.3d 579, 586
(2d Cir. 2006), that manipulation serves as the commercial activity under the FSIA.
And we further agree with the district court that
Statoil’s activities overseas do not satisfy the FSIA’s
commercial‐activity exception. To qualify as a “direct
effect in the United States,” the effect “[must] follow[]
‘as an immediate consequence of the defendant’s activity.’” Republic of Argentina v. Weltover, Inc., 504 U.S.
607, 618 (1992) (internal alterations omitted). We
have described “immediate” to mean that there was no
“intervening element” between the “foreign state’s
commercial activity and the effect.” Guirlando v. T.C.
Ziraat Bankasi A.S., 602 F.3d 69, 74 (2d Cir. 2010).
There is plainly no “direct effect” here. The “ripple
effects” that Plaintiffs complain of occurred “at the end
of a long chain of causation.” Virtual Countries, Inc. v.
Republic of S. Africa, 300 F.3d 230, 237 (2d Cir. 2002).
Statoil allegedly helped to manipulate the price of
Brent crude in Europe, which was then reported to
agencies such as Platts, whose price reports were then
folded into the Dated Brent Assessment, which assessment was then indirectly incorporated into a

33a
benchmark index – the ICE Brent Index – which was
then used to price derivative and futures contract
across the globe – contracts that Plaintiffs traded in.
Even aside from the “long chain” of causal inferences,
Statoil’s “commercial activity” in Europe’s North Sea
was “mediated by numerous actions by third parties.”
Virtual Countries, Inc., 300 F.3d at 237. Indeed, it was
both an attenuated causal link, as well as the presence
of independent intervening actors, that doomed plaintiffs’ claims in Virtual Countries, Inc., where the principal claim was that a press release issued by the Republic of South Africa discouraged third‐parties from
doing business in the United States. And like Virtual
Countries, there are several layers of actors that “intervened between” Statoil’s foreign, commercial activity and any direct effects in the United States. That is,
there were other traders in the physical Brent crude
market; there was Platts, which created and then disseminated price reports; and there were the exchanges
themselves, which contained multitudes of other traders and settled contracts differently. Accordingly,
“[t]his tangled causal web does not provide the requisite immediacy to establish jurisdiction,” id. at 238,
and we affirm the district court’s dismissal of Statoil
for lack of subject‐matter jurisdiction.
III. PERSONAL JURISDICTION AND STASCO
Finally, the district court dismissed Plaintiffs’
claims against STASCO because it lacked personal jurisdiction over that entity. In order to establish specific, personal jurisdiction, Plaintiffs must demonstrate that their claims against STASCO “arise out of
or relate to [STASCO’s] contacts” with the United

34a
States.1 Goodyear Dunlop Tires Operations, S.A. v.
Brown, 564 U.S. 915, 923–24 (2011).
STASCO is a limited company incorporated under
the laws of England and headquartered in London.
Plaintiffs allegations against STASCO are limited to
their “manipulative physical trades in Brent crude oil”
in Europe. Plaintiffs make no allegations that
STASCO manipulated markets in the United States or
conducted any physical Brent trades in the United
States – indeed, “no part of [STASCO’s] course of conduct” occurred in the United States. Walden v. Fiore,
571 U.S. 277, 288 (2014). Plaintiffs suggest that
STASCO “aimed” the effects of its European trading
activities at the United States. Calder v. Jones, 465
U.S. 783, 789 (1984). But Plaintiffs do not allege anything more than STASCO’s “mere knowledge that
United States citizens might be wronged,” which is
plainly insufficient to confer specific, personal jurisdiction. Waldman, 835 F.3d at 338. And the idea that
STASCO sought benefits in the United States from
their conduct abroad does not permit specific, personal
jurisdiction either, because it is the “suit‐related conduct” that is crucial – in other words, “the conduct that
could have subjected them to liability.” Id. at 335. All
of that conduct occurred abroad. Accordingly, we affirm the district court’s dismissal of STASCO.
1

We assume without deciding that the “minimum contacts”
inquiry here surveys STASCO’s contacts with the United States
as a whole, as opposed to contacts with a particular state. See
Waldman v. Palestine Liberation Org., 835 F.3d 317, 329 (2d Cir.
2016). In any event, since Plaintiffs fail to demonstrate a critical
mass of minimal contacts between STASCO and the United
States, dismissal would be warranted even if we were to apply
the narrower forum analysis.

35a
IV. CONCLUSION
For the foregoing reasons, and for the reasons
stated in the Opinion, we AFFIRM the judgment of
the district court.
FOR THE COURT:
s/
Catherine O’Hagan Wolfe, Clerk

36a
APPENDIX C
________________________________
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
________________________________
No. 13-md-02475 (1:13-cv-08240-ALC)
In re: NORTH SEA BRENT CRUDE OIL FUTURES
LITIGATION
This document applies to: ALL CASES
________________________________
JUNE 8, 2017
________________________________
OPINION AND ORDER
ON MOTIONS TO DISMISS
________________________________
ANDREW L. CARTER, JR., United States
District Judge:
A putative class of futures and derivatives traders
(“Trader Plaintiffs”) and a putative class of the owners
of landholding and lease-holding interests in United
States oil-producing property (“Landowner Plaintiff,”
together with Trader Plaintiffs, “Plaintiffs”) have asserted claims against a number of Brent crude oil producers, traders, and their selected affiliates. Plaintiffs
allege that Defendants conspired to intentionally manipulate Brent crude oil prices and the prices of Brent
crude oil futures and derivatives contracts traded on
the New York Mercantile Exchange (“NYMEX”) and
the Intercontinental Exchange (“ICE Futures

37a
Europe”) in violation of the Commodity Exchange Act,
the Sherman Act, and the laws of various states. Defendants have moved to dismiss both Complaints on a
number of theories. For the reasons, and to the extent
set forth below, Defendants’ motions are granted and
the Complaints are dismissed.
BACKGROUND
I.

Factual Background

The following facts are taken from the allegations
in Plaintiffs’ Second Amended Complaints, which are
presumed to be true for purposes of this motion to dismiss.
Plaintiffs allege that the Defendants, who are producers, refiners, and traders of Brent crude oil, or entities affiliated with these producers, refiners, and
traders, “monopolized the Brent Crude Oil market and
entered into unlawful combinations, agreements, and
conspiracies to fix and restrain trade in, and intentionally manipulate Brent Crude Oil prices and the prices
of Brent Crude Oil futures and derivatives contracts.”
ECF No. 308 (Traders’ Second Amended Complaint
(“Trader SAC”)), at ¶ 2; see also Landowner ECF No.
96 (Landowner’s Second Amended Complaint (“Landowner SAC”)), at ¶ 3.1
The Trader Plaintiffs are United States individuals and entities who trade Brent futures and derivatives contracts on NYMEX and ICE Futures Europe.
Trader SAC ¶¶ 24-34. The Landowner Plaintiff is a
Louisiana resident who is a “landowner and/or leaseholder” of oil producing lands, as well as the owner of
1

Unless otherwise noted, all references to “ECF” are to the
electronic docket for Case No. 13-md-2475.

38a
multiple royalty and working interests in oil leases in
the State of Louisiana. Landowner SAC ¶ 10.
A. Brent Crude Oil
Brent crude oil is a variety of light, sweet crude oil
pulled from the North Sea region of Europe. Trader
SAC ¶ 4; Landowner SAC ¶ 30. Although Brent is one
of the four fields from which crude oil is pulled in the
North Sea (the others are Forties, Oseberg, and
Ekofisk), reference to “Brent crude oil” encompasses
oil from all four fields. Trader SAC ¶¶ 55, 76; Landowner SAC ¶ 30. Brent crude oil serves as a benchmark for two-thirds of the world’s internationallytraded crude oil supplies. Trader SAC ¶ 4; Landowner
SAC ¶ 30.
The Brent crude oil benchmarking function is facilitated by a number of price reporting agencies, including Platts, a London-based division of the New
York-based McGraw Hill Financial. Trader SAC ¶ 4;
Landowner SAC ¶ 64. The Brent crude oil physical
market consists primarily of private (“over-the-counter”) trades in cargoes of crude oil in the North Sea.
Trader SAC ¶ 85; Landowner SAC ¶ 67. Because the
trades are based on over-the-counter contracts, oil
prices are not directly visible to the public; instead,
Platts and other price-reporting agencies collect information on transactions from market participants and
report them. Id.
Platts reports prices for a variety of submarkets
in the Brent crude oil market, but the “primary benchmark” for Brent crude oil is “Dated Brent,” physical
cargoes of crude oil in the North Sea that have been
assigned specific delivery dates. Trader SAC ¶¶ 88-89;
Landowner SAC ¶¶ 69-70. To assess pricing for Dated

39a
Brent, Platts uses the so-called Market-On-Close
(“MOC”) methodology. Trader SAC ¶ 92; Landowner
SAC ¶ 74. This methodology limits the analysis of
market-pricing data to transactions that occur during
a half-hour window at the end of the trading day (4:00
p.m. to 4:30 p.m. London time). Id. Platts collects information regarding trades in, and bids and offers for,
contracts for crude oil from the Brent, Forties, Oseberg, and Ekofisk (“BFOE”) fields during this period,
known as the MOC window. Trader SAC ¶¶ 95-96;
Landowner SAC ¶¶ 77-78. It then “carefully analyses
transactional data to determine its fitness for an assessment of market value ... appl[ying] judgment to
the data it gathers” before publishing it. Trader SAC
¶ 99; Landowner SAC ¶ 82. In applying its independent judgment, Platts has, on occasion, declined to consider transactions reported to it by certain Defendants
as not reflective of the market or otherwise anomalous.
See, e.g., Trader SAC ¶¶ 267,285, 325-26.
B. Brent Crude Oil Futures and Derivatives
Plaintiffs contend that Platts’ and other price-reporting agencies’ pricing assessments “are directly
linked” to Brent crude oil futures and other derivative
contract prices. Trader SAC ¶ 127; Landowner SAC
¶ 143. As a result, manipulation of Platts’ Dated Brent
assessment “has effects that ripple throughout the
Brent Crude Oil and futures market.” Trader SAC
¶ 126; Landowner SAC ¶ 142.
Plaintiffs focus specifically on futures and derivatives trading on NYMEX and ICE Futures Europe.
Trader SAC ¶ 2; Landowner SAC ¶ 3. ICE Futures Europe is an electronic derivatives exchange headquartered in London that also conducts business out of offices in the United States. Trader SAC ¶ 141;

40a
Landowner SAC ¶ 156. Trades on ICE Futures Europe
are placed through member entities and are cleared
through ICE Clear Europe, an entity wholly-owned by
the same entity that owns ICE Futures Europe.
Trader SAC ¶¶ 150-63; Landowner SAC ¶ 157. As the
name implies, ICE Futures Europe is not a CFTC-designated contract market, but, since 1999, U.S. traders
have been permitted to trade there due to a no-action
letter the exchange received from the CFTC. Trader
SAC ¶¶ 143-44; Landowner SAC ¶¶ 158-59. NYMEX
is a U.S.-based physical commodity futures exchange.
Trader SAC ¶ 133; Landowner SAC ¶ 148.
A variety of Brent crude oil futures and derivatives contracts trade on NYMEX and ICE Futures Europe. Trader SAC ¶¶ 136, 175-223; Landowner SAC
¶ 151. The Brent futures contracts on NYMEX settle
to the price of ICE Brent futures, which, in tum, have
a settlement price based on the ICE Brent Index.
Trader SAC ¶ 123, 128, 179; Landowner SAC ¶ 139,
144. ICE calculates its Brent Index as an average of
(1) the weighted average of the 25-day BFOE market
for cargoes due for delivery one month out (that is, forward contracts); (2) the weighted average of the 25-day
BFOE market for cargoes due for delivery two months
out plus a straight average of the spread between the
first and second month cargo trades; and (3) an average of certain designated published assessments.
Trader SAC ¶¶ 128 n.3, 179. While Platts may be one
of the sources for ICE Futures Europe’s published assessments, Platts’ Dated Brent assessment, a spot
price, is not one of those considered. Id. Nevertheless,
Plaintiffs allege a correlation of 85% or more between
Platts’ Dated Brent assessment and ICE Brent crude

41a
oil futures prices. Trader SAC ¶ 129; Landowner SAC
¶ 146.
While Dated Brent does not factor into the ICE
Brent Index, Platts’ Dated Brent assessment is incorporated as a pricing element for a limited number of
derivatives contracts traded on NYMEX and ICE Futures Europe. Trader SAC ¶¶ 136, 205-11. For instance, the Brent CFD (contract for difference) traded
on NYMEX is a short-term swap agreement that represents the difference between Dated Brent and a forward month BFOE cash contract. Id. ¶ 136. Similarly,
ICE Futures Europe offers a variety of dated-to-frontline contracts which capture the difference between
Dated Brent and short-term ICE futures contracts. Id.
¶¶ 205-10.
C. U.S. Crude Oil
The United States produces a variety of crude oils.
Like Brent crude oil, West Texas Intermediate (“WTI”)
and Light Louisiana Sweet (“LLS”) are light, sweet
crude oils. Trader SAC ¶ 79; Landowner SAC ¶¶ 2829, 33-39. WTI and Brent are the two major benchmarks for the world’s oil prices. Landowner SAC ¶ 29.
The crude oil produced and sold in the United States
in which the Landowner Plaintiff has an interest is
priced to WTI. Id. ¶ 62. Although WTI and LLS are
crude oil benchmarks distinct from Brent, the Landowner Plaintiff alleges that there is a close correlation
between the prices of these three light, sweet crude oil
varieties. Id. ¶¶ 40-41. With respect to WTI, specifically, the Landowner Plaintiff contends that the correlation is, in fact, causation, with Brent crude oil influencing the price of WTI crude, not vice versa. Id. ¶ 4151. The Landowner Plaintiff does not contemplate the

42a
possibility of an independent factor affecting the price
for both WTI and Brent crude oil in the same manner.
D. Alleged Manipulations
Plaintiffs allege that Defendants conspired to manipulate the Brent crude oil market, including the
market for Brent futures and derivatives contracts, by
engaging in manipulative conduct and fraudulent
physical trades and then deliberately and systematically submitting information about those trades to
Platts during the MOC window. Trader SAC ¶ 224;
Landowner SAC ¶ 90. Plaintiffs do not allege that any
of the Defendants engaged in manipulative trading on
NYMEX or ICE Futures Europe; rather, they allege
that the manipulation of Platts’ Dated Brent assessment, through manipulative physical trades and reporting, “has effects that ripple throughout the Brent
Crude Oil and futures market, impacting a wide variety of derivative and futures contracts on NYMEX and
ICE.” Trader SAC ¶ 126; Landowner SAC ¶ 142.
Plaintiffs describe in great detail a number of specific transactions and transaction chains occurring between June 2010 and September 2012 alleged to be
manipulative. Trader SAC ¶¶ 251-419; Landowner
SAC ¶¶ 96-136. For purposes of these motions to dismiss, however, it suffices to say that, generally speaking, Defendants allegedly “selectively reported bids,
offers, ‘spoof orders and transactions with aberrant
pricing” and engaged in “prohibited wash sale transactions” during the MOC window. Trader SAC ¶ 8;
Landowner SAC ¶ 92. Plaintiffs explain that much of
the conduct identified does not make economic sense
for the Defendants participating in the transactions
and can only be explained as part of a conspiracy to
drive the price of Brent crude oil in a particular

43a
direction. See, e.g., Trader SAC ¶¶ 380-81, 397; Landowner SAC ¶¶ 130, 133.
By way of example, both the Trader Plaintiffs and
the Landowner Plaintiff identify two transactions involving Phibro Commodities in September 2012.
Trader SAC ¶¶ 395-97; Landowner SAC ¶¶ 129-30.
On September 17, 2012, Phibro Commodities purchased a Forties cargo from BP at a $0.05 premium,
allegedly creating upward pressure on Forties prices.
Then, the following day, Phibro Commodities offered
for sale that same Forties cargo at a price $0.30 per
barrel lower. Id. Plaintiffs allege that Phibro Commodities intended this artificially low offer, effectively a
spoof offer,2 to signal to the market that the price was
heading lower, and that this offer was part of a scheme
with other Defendants, including Shell International
Trading and Shipping Company Limited, Trafigura,
and Vitol, to move the price of Dated Brent downward
at the end of September. Trader SAC ¶ 369; Landowner SAC ¶ 135.
II. Procedural History
After the various cases in this litigation were centralized and transferred to this Court in October 2013,
ECF No. 1, the Trader Plaintiffs filed an Amended
Complaint on July 3, 2014. ECF No. 166. The Landowner Plaintiff, proceeding in a related case, filed an
Amended Complaint on April 28, 2014. Landowner

2

“Spoofing” involves bidding on, or offering for sale, a particular cargo with the intent to cancel the bid or offer prior to executing the trade. Trader SAC ¶ 70; Landowner SAC ¶ 236.

44a
ECF No. 40.3 Thereafter, all Defendants jointly filed
three motions to dismiss: (1) a motion to dismiss the
Trader Complaint (ECF Nos. 204 (Motion), 211,
(“Defs.’ Trader Memo.”), 212 (Declaration of Daryl A.
Libow)); (2) a motion to dismiss the Landowner Complaint (ECF Nos. 218 (Motion), 219 (“Defs.’ Landowner
Memo.”)); and (3) a motion to dismiss both the Trader
Complaint and the Landowner Complaint on the
grounds that they exceeded the extraterritorial reach
of United States law (ECF Nos. 200 (Motion), 201
(“Defs.’ Extraterritoriality Memo.”), 202 (Declaration
of Douglas F. Curtis)).4 Defendants also individually
filed supplemental motions to dismiss advancing arguments specific to them, which are not addressed in this
opinion.
Plaintiffs opposed the motions, although, with respect Defendants’ extraterritoriality arguments, the
Landowner Plaintiff merely incorporated by reference
the Trader Plaintiffs’ arguments. ECF Nos. 243
(“Trader Extraterritoriality Memo”), 252 (“Landowner
Omnibus Memo.”), 253 (“Trader Memo.”). Defendants
submitted reply briefs, and the Court considers the
3

Following stipulations by all parties, the Trader Plaintiffs
filed a Second Amended Complaint on February 27, 2015, ECF
No. 308 (“Trader SAC”), and the Landowner Plaintiff filed a Second Amended Complaint on April 30, 2015, Landowner ECF No.
96 (“Landowner SAC”). The Second Amended Complaints substituted certain defendants but did not affect any of the substantive
claims.
4

Defendants BP America Inc., BP Corporation North America Inc., Mercuria Energy Trading Inc., Shell Trading US Company, Trafigura Beheer B.V., Vitol S.A., and Vitol Inc. did not join
in either of the motions to dismiss the Landowner Plaintiff’s Complaint. See Defs.’ Extraterritorial Memo. at n.2; Defs.’ Memo. at
n. l.

45a
motions fully submitted. ECF Nos. 285 (“Defs.’ Landowner Reply”), 286 (“Defs.’ Extraterritoriality Reply”),
288 (“Defs.’ Trader Reply”).
LEGAL STANDARD
To survive a motion to dismiss pursuant to Rule
12(b)(6), “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.”‘ Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)). A claim is facially plausible
“when the plaintiff pleads factual content that allows
the Court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. (citing Twombly, 550 U.S. at 556). The plaintiff must allege sufficient facts to show “more than a sheer possibility that a defendant has acted unlawfully,” and accordingly, where the plaintiff alleges facts that are
“‘merely consistent with’ a defendant’s liability, it
‘stops short of the line between possibility and plausibility of entitlement to relief.”‘ Id. (quoting Twombly,
550 U.S. at 557).
In considering a motion to dismiss, the court accepts as true all factual allegations in the complaint
and draws all reasonable inferences in the plaintiff’s
favor. See Goldstein v. Pataki, 516 F.3d 50, 56 (2d Cir.
2008). However, the court need not credit “[t]hreadbare recitals of the elements of a cause of action, supported by mere conclusory statements.” Iqbal, 556
U.S. at 678 (citing Twombly, 550 U.S. at 555). Instead,
the complaint must provide factual allegations sufficient “to give the defendant fair notice of what the
claim is and the grounds upon which it rests.” Port
Dock & Stone Corp. v. Oldcastle Northeast, Inc., 507
F.3d 117, 121 (2d Cir. 2007) (citing Twombly, 550 U.S.

46a
at 555). The court “may consider the facts as asserted
within the four comers of the complaint together with
the documents attached to the complaint as exhibits,
and any documents incorporated in the complaint by
reference.” Peter F. Gaito Architecture, LLC v. Simone
Dev. Corp., 602 F.3d 57, 64 (2d Cir. 2010) (citation and
internal quotation marks omitted).
DISCUSSION
I.

The Trader Plaintiffs’ Commodity Exchange
Act Claims

Defendants argue that the Trader Plaintiffs’ Commodity Exchange Act (“CEA”) claims should be dismissed because application of the CEA to the facts alleged exceeds the territorial limitations of the statute.
Because the Court agrees with Defendants that the
Trader Plaintiffs’ CEA claims are impermissibly extraterritorial, the Court need not reach Defendants’
other arguments regarding further deficiencies in the
Trader Plaintiffs’ CEA claims.
A. Applicable Law
In Morrison v. Nat’l Australia Bank Ltd., 561 U.S.
247 (2010), the Supreme Court articulated a new test
for determining when a U.S. statute appropriately
may be applied extraterritorially. In formulating this
test, the Court relied on the “longstanding principle of
American law that legislation of Congress, unless a
contrary intent appears, is meant to apply only within
the territorial jurisdiction of the United States.” 561
U.S. at 255 (citation and internal quotation marks
omitted). Accordingly, “[w]hen a statute gives no clear
indication of an extraterritorial application, it has
none.” Id. To determine whether there is any indication of extraterritorial application, courts apply a two-

47a
step process. First, a court must consider whether the
relevant statute contains a clear statement of Congress’ intent to overcome the presumption against extraterritoriality. Id. at 265-66. Second, recognizing
that “it is a rare case of prohibited extraterritorial application that lacks all contact with the territory of the
United States,” the Supreme Court advised lower
courts to examine whether the focus of congressional
concern in the particular statute suggests that extraterritorial application is appropriate. Id. at 266.
Applying that test to the facts at issue in Morrison-fraud based on securities traded on an Australian
exchange-the Court found that § 1 0(b) of the Securities Exchange Act did not contain any congressional
expression of extraterritorial effect. Id. at 262. The
Court then examined the focus of the Exchange Act,
which it found to be on securities purchase-and-sale
transactions. Id. at 266-67. Accordingly, the Court
held that the Exchange Act only reaches claims involving (1) “transactions in securities listed on domestic
exchanges,” or (2) “domestic transactions in other securities.” Id. at 267.
In Absolute Activist Value Master Fund Ltd. v. Ficeto, 677 F.3d 60 (2d Cir. 2012), the Court of Appeals
for the Second Circuit had occasion to analyze the second prong of the Morrison transactional test. As further clarified by this Circuit, a transaction that does
not involve a security listed on a domestic exchange
will be considered domestic in one of two circumstances: (1) “irrevocable liability” was incurred in the
United States; or (2) “title was transferred within the
United States.” 677 F.3d at 68.
Two years later, the Court of Appeals again revisited Morrison’s application to an Exchange Act claim.

48a
See Parkcentral Global Hub Ltd. v. Porsche Auto Holdings SE, 763 F.3d 198 (2d Cir. 2014). In that case, the
court was presented with the question of whether, “under Morrison, a domestic transaction in a security (or
a transaction in a domestically listed security)—in addition to being a necessary element of a domestic
§ 10(b) claim-is also sufficient to make a particular invocation of § 10(b) appropriately domestic.” 763 F.3d
at 214. The court assumed for purposes of the decision
that the transactions at issue were domestic, and held
that “a domestic transaction is necessary but not necessarily sufficient to make § 10(b) applicable.” Id. at
216. The transactions at issue were securities-based
swap agreements tied to the price of a foreign company’s shares on a foreign exchange, and the court
held that the Exchange Act could not reach defendants
who allegedly made fraudulent statements abroad
that impacted the foreign company’s share price. To
hold otherwise would subject those defendants to the
potentially incompatible securities regimes of the
United States and the countries in which the shares
actually traded. Id.
After Morrison, district courts applied its transactional framework to cases involving the CEA as well.
See, e.g., Loginovskaya v. Batratcheno, 936 F. Supp. 2d
357 (S.D.N.Y. 2013); Starshinova v. Batratchenko, 931
F. Supp. 2d 478, 485-87 (S.D.N.Y. 2013). The Court of
Appeals explicitly adopted Morrison’s framework for
cases challenging the extraterritorial reach of the CEA
in Loginovskaya v. Batratcheno, 764 F.3d 266 (2d Cir.
2014). Following Morrison, the court first determined
that the CEA lacked any express statements regarding extraterritorial application. 764 F.3d at 271-72.
Moving to the second step of the inquiry, the court

49a
explained that, like § 10(b) of the Exchange Act, the
relevant provision of the CEA has a “clearly transactional” focus. 764 F.3d at 272. In reaching its conclusion about the focus of congressional concern, the court
looked at § 22, which gives plaintiffs a private right of
action for violations of the CEA “only when a plaintiff
shows that one of the four transactions listed in § 22
occurred within the United States.” Id.
Given the transactional focus of § 22, the court
also relied on Morrison’s description of the two ways
in which a transaction might be considered to have occurred domestically. The transaction at issue in Loginovskaya did not involve a domestic commodities exchange, and so the court looked to Absolute Activist for
its clarification of the second prong of Morrison’s
transactional test. Id. at 273-74. Accordingly, now
both the framework laid out in Morrison and its test
for domestic transactions, as amplified by the Court of
Appeals in Absolute Activist, apply in private actions
brought for violations of the CEA.
B. The Trader Plaintiffs’ Commodity Exchange Act Claims Are Impermissibly Extraterritorial
Under the Morrison framework, the Court first
must determine whether the relevant provisions of the
CEA contain a clear statement of congressional intent
to overcome the presumption against extraterritoriality. The CEA does not contain any statements suggesting that Congress intended the reach of the law to extend to foreign conduct. The Trader Plaintiffs have asserted claims under sections 6(c)(1) and 9(a) of the
CEA, 7 U.S.C. §§ 9, 13(a)(2), as well as derivative
claims for respondeat superior and aiding and abetting
violations of the CEA. Trader SAC ¶¶ 531-68. Section

50a
22 of the CEA, 7 U.S.C. § 25, gives the Trader Plaintiffs a private right of action to sue for these alleged
violations. Examining § 6(c)(1) first, it prohibits the
use of manipulative or deceptive devices “in connection
with any swap, or a contract of sale of any commodity
in interstate commerce, or for future delivery on or
subject to the rules of any registered entity.” 7 U.S.C.
§ 9(1). Section 9(a) similarly provides that it is a crime
to, among other things, “manipulate or attempt to manipulate the price of any commodity in interstate commerce, or for future delivery on or subject to the rules
of any registered entity, or of any swap....” 7 U.S.C.
§ 13(a)(2). Finally, section 22 provides a private right
of action to plaintiffs who engaged in one of four commodities-based transactions. 7 U.S.C. § 25(a)(1). Each
of these provisions is silent as to any extraterritorial
application and the Trader Plaintiffs do not argue otherwise.
Having determined that the relevant portions of
the CEA apply only domestically on their face, the
Court next considers the “focus of congressional concern.” Consistent with Loginovskaya, the Court starts
with the purpose of § 22, giving a plaintiff the right to
sue, which is “clearly transactional.” 764 F.3d at 272.
It is not necessary, and perhaps not appropriate, to
evaluate the focus of the substantive provisions because, as the Court of Appeals noted, it is “not remarkable” that suits by private plaintiffs may be more limited in scope than actions by the CFTC. Id. at 273. A
commodities transaction will be considered domestic if
(1) the transaction occurred on a domestic exchange;
or (2) the transaction itself is domestic. Morrison, 561
U.S. at 267. Here, the parties have a fundamental disagreement as to which “transactions” the Court must

51a
consider under Morrison and Loginovskaya. The
Trader Plaintiffs contend that it is their commodities
transactions on NYMEX and ICE Futures Europe, see
Trader Extraterritoriality Memo. at 5-13, while Defendants assert that the relevant transactions are
those alleged to be manipulative-that is, their physical
crude oil transactions in the North Sea and European
loading ports, Defs.’ Extraterritoriality Memo. at 13.
The overarching purpose of the CEA could be read
to apply to either parties’ definition of the relevant
transaction. See 7 U.S.C. § 5 (“It is the purpose of this
chapter to serve the public interests ... through a system of effective self-regulation of trading facilities,
clearing systems, market participants and market
professionals under the oversight of the Commission.”). However, as the Court of Appeals noted in
Loginovskaya, the statute only provides a private right
of action to plaintiffs who were part of “one of the four
transactions listed in § 22,” thereby directing the focus
on the commodities transaction rather than the conduct that allegedly gives rise to a violation. 764 F .3d
at 272. Further, in Morrison, the Court found that the
Exchange Act, was focused “not upon the place where
the deception originated, but upon purchases and
sales of securities.” 561 U.S. at 266. Given the noted
similarity between the Exchange Act and the CEA, the
better argument is that the commodities transaction
giving rise to the private right of action is the relevant
transaction for purposes of Morrison’s test. Therefore,
the Court is inclined to agree with the Trader Plaintiffs on this point. However, for the reasons discussed

52a
further below, the Court need not decide this question
to resolve the present motion.5
Assuming that the relevant transactions are those
occurring on domestic exchanges within the meaning
of Morrison, the Court of Appeals’ recent decision in

5

Assuming that the relevant transactions are those occurring
on the commodities exchanges, no one disputes that NYMEX is a
“domestic exchange” within the meaning of Morrison. The parties
disagree, however, on the status of ICE Futures Europe. The
Trader Plaintiffs argue that ICE Futures Europe is a “de facto
domestic exchange.” Trader Extraterritoriality Memo. 6-9. They
also argue that activity on ICE Futures Europe constitutes domestic transactions, as further defined by Absolute Activist, on
the basis of the domestic location of ICE Futures Europe’s servers, where buy and sell orders are matched. Id. at 9-12 (citing
Trader SAC ¶¶ 159-60). With respect to the first argument, Defendants assert that ICE Futures Europe is not a registered exchange to which the CEA antimanipulation rules apply. Defs.’ Extraterritoriality Reply at 7. Defendants also contend that transactions on ICE Futures Europe are not domestic transactions because the two formulations the Court of Appeals provided in Absolute Activist apply only to “off exchange” transactions. Id. at 8.
Although the facts of Absolute Activist arose in the context of a
private investment transaction, nothing in that decision suggests
that its holding is limited to such transactions. Rather, the decision provides a framework for determining when “the purchase
or sale of a security that is not listed on a domestic exchange
should be considered ‘domestic’ within the meaning of Morrison.”
677 F.3d at 66-67. Accordingly, its guidance is applicable to any
transaction not on a domestic exchange, whether because the
transaction is a private one or because the exchange on which the
transaction occurred is not a domestic one. See, e.g., City of Pontiac Policemen’s & Firemen’s Ret. Sys. v. UBS AG, 752 F.3d 173,
181 (2d Cir. 2014) (applying Absolute Activist test to securities
traded on foreign exchange); In re Foreign Exch. Benchmark
Rates Antitrust Litig., No. 13-cv-07789 (LGS), 2016 WL 5108131,
at *26-27 (S.D.N.Y. Sept. 20, 2016) (same, in CEA claim)
(“FOREX”).

53a
Parkcentral suggests that dismissal nevertheless is
warranted on the facts presented. In Parkcentral, the
Court of Appeals held that, “while [Morrison] unmistakably made a domestic securities transaction (or
transaction in a domestically listed security) necessary
to a properly domestic invocation of § 10(b), such a
transaction is not alone sufficient to state a properly
domestic claim under the statute.” 763 F.3d at 215
(emphasis added). As a result, the court rejected plaintiffs’ claims against foreign defendants who allegedly
made misrepresentations that impacted the price of
shares listed on a foreign exchange merely because
plaintiffs may have domestically traded derivatives
pegged to the price of the foreign-listed shares. Notwithstanding the alleged domestic transactions, the
claims were “so predominantly foreign,” that to apply
§ 10(b) to the facts of the case “would seriously undermine Morrison’s insistence that § 10(b) has no extraterritorial application.” Id. at 215-16.
While Parkcentral involved § 10(b) of the Exchange Act, the logic underlying the decision in Parkcentral is equally persuasive here in light of the parallels between § 10(b) and § 22 of the CEA. See Loginovskaya, 764 F.3d at 274. Here, while the Trader
Plaintiffs may have purchased or sold Brent futures
and derivatives on domestic exchanges or otherwise
entered into domestic commodities transactions, the
crux of their complaints against Defendants does not
touch the United States. The Trader Plaintiffs’ claims
are based on Defendants’ allegedly manipulative and
misleading reporting to Platts in London about physical Brent crude oil transactions conducted entirely
outside of the United States that indirectly affected

54a
the price of Brent futures and derivatives contracts
traded on exchanges.
The Court of Appeals in Parkcentral cautioned
that its holding “depends in some part on the particular character of the unusual security at issue” there,
but the connection between Defendants’ conduct and
the Trader Plaintiffs’ alleged harm is as attenuated as
in Parkcentral, if not more so. 763 F.3d at 202. In Parkcentral, the plaintiffs traded securities-based swap
agreements directly tied to the price of Volkswagen’s
shares on foreign exchanges. See id. at 205-07. Porsche’s alleged misrepresentations regarding its intentions with respect to a potential acquisition of
Volkswagen impacted the company’s share prices,
which in tum directly affected the swap agreements.
By contrast, here, most of the futures and derivatives
contracts available on NYMEX and ICE Futures Europe are not priced by reference to the Dated Brent assessment published by Platts (which allegedly was inaccurate by virtue of Defendants’ manipulative reporting), but instead to derivations of the ICE Brent Index,
which does not incorporate the Dated Brent assessment. Trader SAC ¶¶ 123, 128 n.3, 179. The extension
of U.S. commodity rules and regulations to Defendants’ conduct raises the same concern motivating
Parkcentral and Morrison that individuals and entities will be subject to multiple, and potentially incompatible, laws in the absence of clear congressional intent to do so. Parkcentral, 763 F.3d at 215 (discussing
Morrison, 561 U.S. at 269). Accordingly, the Trader
Plaintiffs have failed to state a claim under the CEA,
and their first four causes of action are dismissed.

55a
II. Plaintiffs’ Sherman Act Claims
Defendants also argue that both the Trader Plaintiffs’ and the Landowner Plaintiffs Sherman Act
claims are impermissibly extraterritorial under the
Foreign Trade Antitrust Improvement Act. However,
before the Court reaches that question, which has
been defined as a substantive, rather than jurisdictional, element of a Sherman Act claim, see Lotes Co.
v. Hon Hai Precision Indus. Co., 753 F.3d 395,408 (2d
Cir. 2014), the Court must determine whether Plaintiffs have antitrust standing. For the reasons that follow, the Court finds that Plaintiffs have not alleged
that they suffered any antitrust injury, and accordingly, the Sherman Act claims are dismissed.
A. Applicable Law
Section 4 of the Clayton Act establishes a private
right of action for “[a]ny person ... injured in his business or property by reason of anything forbidden in the
antitrust laws.” 15 U.S.C. § 15(a). The Supreme Court
and the Second Circuit have interpreted this provision
to require antitrust plaintiffs to demonstrate antitrust
standing in addition to constitutional standing. See
Gelboim v. Bank of Am. Corp., 823 F.3d 759, 770 (2d
Cir. 2016) (citing Associated Gen. Contractors of Calif.,
Inc. v. Calif. State Council of Carpenters, 459 U.S. 519,
535 n.31 (1983) (“AGC”)). The question of antitrust
standing is a “threshold inquiry resolved at the pleading stage.” Id. When evaluating whether a plaintiff
has antitrust standing, a court considers whether the
plaintiff (1) has suffered an antitrust injury and (2) is
an “efficient enforcer” of the antitrust laws. Id. at 772.
The first prong of this inquiry requires a plaintiff
to “demonstrate that its injury is ‘of the type the

56a
antitrust laws were intended to prevent and that flows
from that which makes defendants’ acts unlawful.”‘ In
re Aluminum Warehousing Antitrust Litig., 833 F.3d
151, 157 (2d Cir. 2016) (“Aluminum JI”) (quoting
Brunswick Corp. v. Pueblo Bowl-O-Mat, Inc., 429 U.S.
477, 489 (1977)). “Generally, only those that are participants in the defendants’ market can be said to have
suffered antitrust injury.” Id. at 157. However, in Blue
Shield of Virginia v. McCready, 457 U.S. 465 (1982),
the Supreme Court “carved a narrow exception to the
market participant requirement for parties whose injuries are ‘inextricably intertwined’ with the injuries
of market participants.” Aluminum II, 833 F.3d at 159
(citation and internal quotation marks omitted).
In the years since McCready, courts have grabbed
onto the “inextricably intertwined” language, but
there is real meaning behind this pat phrase. As the
Supreme Court explained in McCready, a plaintiff who
is not a participant in the same market as the defendant may nevertheless suffer an antitrust injury where
the defendant’s anticompetitive scheme hinges on
harm to the plaintiff or the plaintiff’s market. 457 U.S.
at 479-80. In McCready, the plaintiff’s injury was considered a “necessary step” and “the very means by
which” the defendants affected their anticompetitive
scheme. Id. at 479. The Second Circuit Court of Appeals has clarified that the Supreme Court’s “inextricably intertwined” language “does not erode the antitrust standing requirement that the putative plaintiff
participate in the market that is directly manipulated
by the collusive conduct. Rather, this observation supplies the reason defendants would bother to corrupt
some market in which they do not participate.” Aluminum II, 833 F.3d at 161. Stated differently,

57a
“sometimes the defendant will corrupt a separate market in order to achieve its illegal ends, in which case
the injury suffered can be said to be ‘inextricably intertwined’ with the injury of the ultimate target.” Id.
Under the second prong of the antitrust standing
inquiry, the court considers whether a plaintiff is an
“efficient enforcer” of the antitrust laws by reference
to four factors:
(1) whether the violation was a direct or remote cause of the injury; (2) whether there is
an identifiable class of other persons whose
self-interest would normally lead them to sue
for the violation; (3) whether the injury was
speculative; and ( 4) whether there is a risk
that other plaintiffs would be entitled to recover duplicative damages or that damages
would be difficult to apportion among possible
victims of the antitrust injury.
Gelboim, 823 F.3d at 772. The factors that make up
the efficient enforcer analysis contemplate consideration of “the ‘chain of causation’ between the violation
and the injury.” Id. (quoting AGC, 549 U.S. at 540).
B. Plaintiffs Have Not Alleged that They
Suffered an Antitrust Injury
Defendants argue that neither the Trader Plaintiffs nor the Landowner Plaintiff have suffered an antitrust injury. With respect to the Landowner Plaintiff, Defendants also argue that he is not an “efficient
enforcer” of the antitrust laws. As described further
below, the Court dismisses Plaintiffs’ Sherman Act
claims for failure to allege antitrust injury and does
not reach the question of whether either the Trader

58a
Plaintiffs or the Landowner Plaintiff are efficient enforcers of the antitrust laws.
In first arguing that Plaintiffs have not suffered
an antitrust injury, Defendants largely focused on a
theory from In re LIBOR-Based Fin. Instruments Antitrust Litig., 935 F. Supp. 2d 666 (S.D.N.Y. 2013) (“LIBOR I”), that subsequently was rejected by the Court
of Appeals in Gelboim. Shortly after Gelboim, the
Court of Appeals decided another case involving the
contours of antitrust injury, Aluminum II, and the
parties submitted supplemental letters briefing the
applicability of this decision and the subsequent district court decisions relying on it. See ECF Nos. 40204, 412-15. These new arguments center on whether
Plaintiffs participated in the market directly restrained by Defendants’ alleged conduct, either as participants in the same market as Defendants or as participants in a market where the harm is inextricably
intertwined with harm to participants in Defendants’
market.
The first point of contention is defining the market Defendants restrained by their alleged anticompetitive conduct. Defendants present a narrow vision
of the relevant market—”the market for physical
Brent Crude”—in which neither the Trader Plaintiffs
nor the Landowner Plaintiff operate. ECF No. 402 (Defendants’ letter dated Aug. 17, 2016 (“Defs.’ Aug. Letter”)). Plaintiffs, citing to the definition of “relevant
market” in their Complaints, define the market
broadly. ECF No. 403 (Trader Plaintiffs’ letter dated
Aug. 24, 2016) (“Trader Aug. Letter”))(“The relevant
market in this case is the Brent Crude Oil Market,
which comprises: (1) the Brent Crude Oil physical
cargo market, including all cargoes priced as a

59a
differential to Brent Crude Oil; (2) NYMEX Brent Futures, ICE Brent Futures and other Brent Crude Oil
derivatives; and (3) the Platts market for various types
of physical cargoes and derivatives thereon.”) (citing
Trader SAC ¶ 523); see also Landowner SAC ¶ 257.6
Given this expansive definition of the relevant market,
Plaintiffs contend that they participated in the same
market as Defendants, and there is therefore no need
to engage in the “inextricably intertwined” analysis
from Mccready. Trader Aug. Letter; ECF No. 404
(Landowner Plaintiff’s letter dated Aug. 24, 2016)
(“Landowner Aug. Letter”)). While the Court is bound
by the factual allegations in the Complaints, Plaintiffs’
reliance on these particular paragraphs is misplaced;
their definition of the relevant market is a legal conclusion, not a factual one. The Court must examine the
facts alleged in the Complaints to determine what
market or markets allegedly were restrained based on
Plaintiffs’ theory of the case.
Plaintiffs allege that Defendants conspired to manipulate the price of Brent crude oil, and they did so
by engaging in a variety of misleading conduct and
sham transactions in the physical oil market and then
reporting those transactions to Platts during the MOC
window, where they would be most impactful for the
reporting agency’s Dated Brent assessment. Trader
SAC ¶¶ 224, 248-50; Landowner SAC ¶¶ 90-92. Plaintiffs posit that Defendants engaged in this anticompetitive behavior for two, potentially conflicting, reasons.
First, because certain of the Defendants are producers,

6

The Landowner Plaintiff expressly adopted the arguments
asserted by the Trader Plaintiffs in the supplemental letters.
ECF No. 414 (Landowner Plaintiff’s letter dated Oct. 19, 2016).

60a
refiners, or sellers of Brent crude oil, these Defendants
might want to drive the price of Brent upwards to increase their sales’ profits, or downward where related
entities are both producers and refiners, so as to increase the margin, making the refining business more
profitable. Trader SAC ¶¶ 234, 536-38; Landowner
SAC ¶¶ 168. And, second, because the Dated Brent assessment is incorporated into certain futures and derivatives products traded on NYMEX and ICE Futures
Europe (where certain Defendants and Trader Plaintiffs trade) and also closely correlates with the ICE
Brent Index which serves as benchmark for other
Brent futures and derivatives products traded on NYMEX and ICE. Trader SAC ¶¶ 460-88, 537; Landowner SAC ¶ 168, 197-220.7 Accordingly, the relevant
markets for purposes of the antitrust standing analysis are the physical Brent crude oil market and the
market for any derivative instrument that directly incorporates Dated Brent as benchmark or pricing element.
Courts in this Circuit consider manipulation of a
price benchmark to constitute restraint of the market
which that benchmark guides. See, e.g., Gelboim, 823
F.3d at 776-77; FOREX, 2016 WL 5108131, at *6;
Alaska Elec. Pension Fund v. Bank of Am. Corp., 175
F. Supp. 3d 44, 59 (S.D.N.Y. 2016). In benchmark manipulation cases it is not necessary to evaluate
whether harm to the plaintiffs market is “inextricably
7

The Landowner Plaintiff does not allege that Defendants
participated in or intended to restrain trade in the U.S. crude oil
market, only that Defendants’ conduct led to suppressed prices
for WTI and LLS. See, e.g., Landowner SAC ¶¶ 3-4. As a result,
the Landowner Plaintiff does not suggest any purported motivation by Defendants to influence U.S. crude oil prices.

61a
intertwined” with the defendants’ anticompetitive
scheme because the market guided by the benchmark
is the market directly restrained.8 This is true regardless whether the alleged anticompetitive conduct causing the benchmark manipulation took place in the
market guided by it so long as defendants also operate
in that market. For the vast majority of the claims in
this action, however, Plaintiffs have not alleged manipulation of the relevant benchmark.
While the Landowner Plaintiff asserts generally
that Brent crude oil prices serve as a benchmark for
much of the world’s crude oil supplies, he does not allege that Brent crude oil was a benchmark for WTI,
the U.S. crude oil benchmark that allegedly affected
the prices of his own interests, or LLS. Landowner
SAC ¶¶ 30, 33, 40-45, 62. The fact that WTI and LLS
8

In re Commodity Exchange, Inc. Gold Futures and Options
Trading Litig., No. 14-md-2548 (VEC), 2016 WL 5794776
(S.D.N.Y. Oct. 3, 2016) (“Gold”) and In re London Silver Fixing,
Ltd., Antitrust Litig., No. 14-md-2573 (VEC), 2016 WL 5794777
(S.D.N.Y. Oct. 3, 2016) (“Silver”) run somewhat counter to this
conclusion. In the Gold and Silver cases, the district court held
that harm to plaintiffs who traded gold, silver, and their derivatives was inextricably intertwined with the harm defendants intended to cause. In reaching this holding, the court expressed concern about defining the relevant market as the “Fixing,” the process by which defendants set the benchmark prices for gold and
silver, because it is “an artificially-constructed private ‘auction’
that was instituted for the sole purpose of allowing the Fixing
Banks to set a market-wide benchmark.” Gold, 2016 WL 5794776
at *10; accord Silver, 2016 WL 5794777, at *9. Defining the restrained market in this way would leave only the manipulating
entities with standing to sue, an “absurd” result. Id. However,
instead of defining the relevant market as those that incorporated the benchmark set at the Fixing, the district court turned
to the “inextricably intertwined” test.

62a
prices consistently have tracked Brent crude oil prices
over time does not mean that Brent crude oil dictated
WTI or LLS prices. Correlation is not the same as causation. Moreover, it is immaterial to this case that
crude oil other than WTI may be priced as a differential to Brent because the Landowner Plaintiff only
claims to have an interest in crude oil priced as a differential WTI. Id. ¶¶ 52, 62. Accordingly, the Landowner Plaintiff has not demonstrated that he participated in a restrained market, either by participating
in the physical Brent crude oil market with Defendants or by virtue of Defendants manipulating the
benchmark relevant to his crude oil interests.
The Trader Plaintiffs’ claims are somewhat more
complicated. With respect to much of the trading on
NYMEX and ICE Futures Europe, the Trader Plaintiffs have not demonstrated that Defendants manipulated the relevant benchmark. By their own allegations, all of the Brent futures traded on NYMEX settle
to ICE Brent futures, which in tum, are pegged to the
ICE Brent Index. Trader SAC ¶¶ 123, 128 n.3, 179.
The ICE Brent Index does not incorporate Dated Brent
into its calculation. Trader SAC ¶¶ 128 n.3, 179. Similarly, many of the products traded on ICE Futures
Europe also settle to the ICE Brent Index, not Dated
Brent. Id. at ¶¶ 181-99; see also id. at ¶ 200-04 (minute marker contract does not settle to ICE Brent Index or Dated Brent). However, the Trader Plaintiffs
identify a handful of derivative contracts traded on
both ICE Futures Europe and NYMEX that incorporate Dated Brent as a pricing element. Id. at ¶ 136
(NYMEX Brent CFD), ¶¶ 205-11 (ICE dated-to-frontline and crude outright contracts); see also Trader Extraterritoriality Memo. at 26-27 & n.22. For this

63a
limited subset of financial instruments only, Dated
Brent is a relevant benchmark. However, the Trader
SAC is devoid of any allegations that the Trader Plaintiffs or any of the Defendants, in fact, participated in
this restrained market; that is, that they bought or
sold these particular derivative products. This is fatal
to their claim. Merely participating in the Brent derivatives market, generally, does not give rise to an antitrust injury here because the Trader Plaintiffs have
not alleged facts showing anticompetitive harm to the
derivatives market as a whole.
As a result, Defendants’ reliance on Aluminum II
is misplaced because the plaintiffs there did not allege
manipulation of a relevant pricing element. The Court
of Appeals upheld dismissal of Sherman Act claims asserted by plaintiffs who alleged that the impact of defendants’ anticompetitive conduct in one marketwarehouse services for aluminum-led to a higher regional premium for aluminum, which aluminum purchasers then passed down to plaintiffs, buyers of semifabricated aluminum and final aluminum products, in
the form of increased prices. Aluminum II, F.3d at 15556. Unlike the Dated Brent assessment, the allegedly
manipulated regional premium was not incorporated
as an element of the prices plaintiffs paid for their aluminum products.
Defendants further argue that the facts at issue
in the motion to dismiss that followed the Court of Appeals’ decision in Aluminum II are even more on point.
ECF No. 412 (Defendants’ Letter dated Oct. 12, 2016)
(discussing In re Aluminum Warehousing Antitrust
Litig., No. 13-MD-2481 (KBF), 2016 WL 5818585
(S.D.N.Y. Oct. 5, 2016) (“Aluminum III”)). However,
the theory advanced by the plaintiffs in Aluminum III

64a
make it distinguishable from this case. In Aluminum
III, a group of direct aluminum purchasers alleged
that they participated in the same market as defendants because they competed in the market for physical
aluminum, which incorporated the excessively high regional premium. The district court found that plaintiffs’ new theory was nonsensical because it “undermine[ d] the alleged economic benefits of [defendants’]
alleged scheme: on a corporate-wide basis, that which
one arm is alleged to have done, the other arm would
pay for.” 2016 WL 5818585, at *7.9 Here, by contrast,
the Trader Plaintiffs allege a more complex scheme.
They contend that because certain Defendants (or
their affiliates) participated both in the physical and
derivatives markets, they could take advantage of
price swings in the Dated Brent assessment that allegedly resulted from Defendants’ manipulative conduct. They further allege that Defendants, as a group,
“must coordinate and compromise with each other on
a daily basis” given their competing interests relative
to physical oil and derivatives prices. Trader SAC
¶¶ 537-39.

9

To the extent that this issue did not form the sole basis of
the district court’s decision, the Court respectfully disagrees with
the analysis. In an alternative holding, the district court relied
on the Court of Appeals’ rejection of the downstream purchasers’
theory that defendants had conspired to manipulate the regional
premium. 2016 WL 5818585, at *8. However, even if the downstream purchasers proved that defendants intended to manipulate the regional premium, that regional premium was not directly incorporated into the price those plaintiffs paid for aluminum products. By contrast, the direct aluminum purchasers alleged that the increased regional premium was an explicit component of the price they paid. See 833 F.3d at 155.

65a
With respect to the NYMEX and ICE Futures Europe financial instruments that do not incorporate
Dated Brent into the pricing, the Trader Plaintiffs
have not demonstrated that their injuries are inextricably intertwined with the harm to Defendants’ market participants. To do so, they would need to allege
that the harm to Trader Plaintiffs in the derivatives
market was “the very means by which” Defendants affected their anticompetitive scheme in the physical
Brent crude oil market. Aluminum II, 833 F.3d at 162.
That is contrary to the Trader Plaintiffs’ theory, in
which Defendants manipulated the price of Brent
crude oil by engaging in manipulative and misleading
physical oil trades amongst themselves that, in tum,
impacted the price of certain derivatives. See id. (alleged anticompetitive acts “were within the defendants’ power to do” without reliance on injury to plaintiffs)
III. Plaintiffs’ State and Common Law Claims
Plaintiffs also assert a number of state and common law claims that Defendants seek to dismiss. The
Trader Plaintiffs include a claim for unjust enrichment, see Trader SAC ¶¶ 590-98, and the Landowner
Plaintiff claims injury under numerous states’ unfair
trade practices and antitrust statutes, see Landowner
SAC ¶¶ 285-344. Defendants have moved to dismiss
these claims for failure to state a cause of action. Defs.’
Trader Memo at 39-40; Defs.’ Landowner Memo. at 1421. For the reasons described, the Court dismisses
Plaintiffs’ state law claims.

66a
A. The Trader Plaintiffs’ Unjust Enrichment
Claim
To state a claim for unjust enrichment under New
York law, a plaintiff must allege that “(1) the other
party was enriched, (2) at that party’s expense, and (3)
that it is against equity and good conscience to permit
the other party to retain what is sought to be recovered.” Georgia Malone & Co. v. Rieder, 19 N.Y.3d 511,
516 (2012) (quoting Mandarin Trading Ltd. v. Wildenstein, 16 N.Y.3d 173, 182 (2011) (internal quotation
marks omitted)).10 While a plaintiff need not demonstrate that he is in privity with the defendant, a plaintiff still must show that there is a “sufficiently close
relationship” with the defendant that “could have
caused reliance or inducement” by the plaintiff. Id. at
516-17 (citation omitted). Where the plaintiff and defendant “simply had no dealings with each other,” the
relationship is “too attenuated” to support an unjust
enrichment claim. Id. at 517-18.
The Trader Plaintiffs have failed to allege a relationship of any kind with any of the Defendants, let
alone one that is “sufficiently close” to have caused reliance or inducement. The decisions cited by the
Trader Plaintiffs, in fact, support dismissal of their
unjust enrichment claim. See Trader Memo. at 50. To
the extent any of the decisions are factually analogous
to this action, they resulted in dismissal of the plaintiffs’ unjust enrichment claims. For example, in In re
Amaranth Natural Gas Commodities Litig., 587
10

The Trader SAC does not specify pursuant to which state’s
common law the Trader Plaintiffs bring their unjust enrichment
claim. Trader SAC ¶¶ 590-98. In briefing the motions to dismiss,
the parties each assume New York law applies.

67a
F. Supp. 2d 513,547 (S.D.N.Y. 2008), the court dismissed an unjust enrichment claim based on defendants’ alleged manipulation of the relevant market.
Even though plaintiffs participated in the same market as defendants, plaintiffs did not base their unjust
enrichment claim on their status as counterparties to
any transaction with defendants. 587 F. Supp. 2d at
547 & n.229; see also Gold, 2016 WL 5794776, at *29
(unjust enrichment claim dismissed against defendants who allegedly manipulated relevant market); In
re Term Commodities Cotton Futures Litig., No. 12-cv5126 (ALC) (KNF), 2013 WL 9815198, at *27-28
(S.D.N.Y. Dec. 20, 2013) (same); LIBOR I, 935 F. Supp.
2d at 737-38 (same).
Similarly, here, the Trader Plaintiffs allege that
Defendants manipulated the Brent crude oil futures
and derivatives market and that certain of Defendants
traded in those markets. Trader SAC ¶ 593. They have
not alleged that Defendants were their counterparties
on any trades involving Brent futures or derivatives,
however. Accordingly, the Trader Plaintiffs’ unjust enrichment claim is dismissed.
B. The Landowner Plaintiff’s State Law
Claims
Defendants move to dismiss the Landowner Plaintiff’s state law claims on a number of grounds. Defs.’
Landowner Memo. at 14-21.
As a preliminary matter, Defendants argue that
the Landowner Plaintiff does not have standing to
bring claims under any state laws other than those of
Louisiana, where he lives and owns or has interest in
property relevant to the dispute. As the parties note,
courts in this Circuit are divided on the appropriate

68a
reaction to challenges made to a named plaintiff’s
standing to bring claims under the laws of states to
which his own claims have no connection. Defs.’ Landowner Reply at 5-6; Landowner Memo. at 8-10.11 The
Court does not need to weigh in on the dispute, however, because Defendants concede that the Landowner
Plaintiff has standing to bring claims under Louisiana
law. Defs.’ Landowner Memo. at 15-16. And, for the
reasons described in this section, those claims are dismissed. Without any valid claims, the Landowner
Plaintiff cannot serve as the sole named plaintiff in
this action. See, e.g., Goldberger v. Bear, Stearns &
Co., No. 98-cv-8677 (JSM), 2000 WL 1886605, at *1
(S.D.N.Y. Dec. 28, 2000) (citing Simon v. Eastern Kentucky Welfare Rights Org., 426 U.S. 26, 40 n.20 (1976)
and Warth v. Seldin, 422 U.S. 490, 497-502 (1975)).
First, Defendants argue that the Landowner
Plaintiffs state antitrust claims should be dismissed
for the same reason as his federal antitrust claims.
Louisiana does not have a statute requiring courts to
interpret its antitrust laws as coterminous with
11

Some courts have addressed the issue of standing under
each state’s laws as a threshold question regardless of the plaintiff’s status as the representative of a putative class. See, e.g., In
re HSBC BANK, USA, NA., Debit Card Overdraft Fee Litig., 1
F. Supp. 3d 34, 48-50 (E.D.N.Y 2014); Simington v. Lease Fin.
Grp., LLC, No. 10-cv-6052 (KBF), 2012 WL 651130, at *9
(S.D.N.Y. Feb. 28, 2012). Other courts have held that a named
plaintiff need only have standing to bring a claim under the statute applicable to his own claim because the named plaintiff is
serving as a representative for those who may have claims under
other states’ statutes. See, e.g., Blessing v. Sirius XM Radio Inc.,
756 F. Supp. 2d 445, 450-52 (S.D.N.Y. 2010); In re Bayer Corp.
Combination Aspirin Prod. Mktg. & Sales Practices Litig., 701
F. Supp. 2d 356, 376-77 (E.D.N.Y. 2010).

69a
federal law. However, both state and federal courts interpreting Louisiana’s antitrust laws recognize that,
due to the similarity between the two regimes, “Louisiana courts routinely look to federal anti-trust jurisprudence as ‘a persuasive influence on interpretation
of our own state enactments.”‘ Free v. Abbott Labs.,
982 F. Supp. 1211, 1214 (M.D. La. 1997) (quoting La.
Power & Light v. United Gas Pipe Line, 493 So. 2d
1149, 1158 (La. 1986)). In particular, Louisiana courts
have found that the provision giving rise to a private
right of action for damages under the state antitrust
statute, La. Stat. Ann. § 51: 13 7, is “virtually identical” to § 4 of the Clayton Act and therefore look to federal jurisprudence on questions of antitrust standing.
Free v. Abbott Labs., Inc., 176 F.3d 298, 299 (5th Cir.
1999), aff’d, 529 U.S. 333 (2000); see also Lambert v.
Bd. of Comm’rs of the Orleans Levee Dist., No. CIV A
05-5931, 2009 WL 152668, at *5 (E.D. La. Jan. 22,
2009).12

12

In the SAC, the Landowner Plaintiff is unclear as to
whether he is seeking monetary damages, injunctive relief, or
both, under state law. See SAC ¶¶ 344, XI.B (Prayer for Relief).
If the Landowner Plaintiff is seeking injunctive relief for the alleged violation of Louisiana’s antitrust law, that provision also
mirrors the parallel portion of the Clayton Act. Louisiana law
provides that “[a]ny person may sue for and have injunctive relief, in any court having jurisdiction over the parties, against
threatened loss or damage by a violation of the provisions of this
Part under the rules governing such proceedings.” La. Stat. Ann.
§ 51:129. The Clayton Act similarly provides that “[a]ny person,
firm, corporation, or association shall be entitled to sue for and
have injunctive relief, in any court of the United States having
jurisdiction over the parties, against threatened loss or damage
by a violation of the antitrust laws ....” 15 U.S.C. § 26. In any

70a
In dismissing the Landowner Plaintiffs Sherman
Act claims, the Court found that the lack of antitrust
injury was dispositive. The Landowner Plaintiff has
not identified any Louisiana decisions that suggest the
federal law on antitrust injury should not guide the
Court’s analysis on his state law claim. Given the similarities between the private rights of action in Louisiana and federal antitrust law, for the same reasons the
Court found that the Landowner Plaintiff did not suffer a federal antitrust injury, the Court also dismisses
the Landowner Plaintiffs claim under the Louisiana
antitrust statute for lack of antitrust injury.
Second, for much the same reason that the Court
has dismissed the Landowner Plaintiffs state and federal antitrust claims, the Landowner Plaintiffs unfair
trade practices claim also must fail. The Louisiana Unfair Trade Practices Act, La. Stat. Ann. § 51:1401, et
seq. (“LUTPA”), allows a plaintiff to bring a private
cause of action if he “suffer[ ed] any ascertainable loss
of money or movable property … as a result of the use
or employment by another person of an unfair or deceptive method, act, or practice declared unlawful by
R.S. 51:1405.” La. Stat. Ann. § 51:1409(A) (emphasis
added); accord Carroll Insulation & Window Co. v. Biomax Spray Foam Insulation, LLC, 180 So. 3d 518,
524 (La. App. 2 Cir. 2015) (“To sustain a cause of action under LUTPA, two things must be proved: (1) an
ascertainable loss was suffered; and (2) the loss must
result from another’s use of unfair methods of
event, a plaintiff is required to demonstrate antitrust injury
whether seeking injunctive or monetary relief. Paycom Billing
Servs., Inc. v. Mastercard Int’l, Inc., 467 F.3d 283,290 (2d Cir.
2006) (citing Cargill, Inc. v. Monfort of Colo., Inc., 479 U.S. 104,
110-11 & nn.5-6 (1986)).

71a
competition and unfair or deceptive acts or practices.”)
(citing Cheramie Servs., Inc. v. Shell Deepwater Prod.,
Inc., 35 So. 3d 1053, 1057 (La. 2010)).13
The Landowner Plaintiff alleges that he suffered
losses tied to suppressed WTI crude oil prices, but his
factual allegations do not support the conclusory assertion that this alleged loss occurred as a result of Defendants’ “unfair or deceptive acts or practices.” See
Landowner SAC ¶¶ 62, 109, 115, 131. Although he refers to WTI prices during the relevant time frame as
“suppressed,” which, in tum, affected the price of his
crude oil interests priced to WTI, the Landowner
Plaintiff is quite clear that Brent crude oil does not
serve as a benchmark for WTI and that these two
crude oil benchmarks merely have moved in tandem
over time. Id. ¶¶ 40-51. Rather, the Landowner Plaintiff relies on the statistical correlation between Brent
and WTI prices as proof that Brent crude oil prices dictated the changes in WTI prices, but fails to provide
any factual support for that assertion.
CONCLUSION
For all of the foregoing reasons, the Landowner
Plaintiffs Second Amended Complaint and the Trader
Plaintiffs’ Second Amended Complaint are dismissed.
The motions filed by individual Defendants for dismissal of the Complaints as to them are denied without
prejudice as moot.

13

The Landowner Plaintiff also is unclear about the relief
sought in connection with his unfair trade practices claim. SAC
¶¶ 314, XI.B (Prayer for Relief). Under LUTP A, injunctive relief
is limited to actions brought by the Louisiana State Attorney
General. See La. Stat. Ann. § 51:1407.

72a
The Court will hold a status conference in this
matter on July 7, 2017, at 2:00 p.m. The parties
(and/or counsel) should appear in person in Courtroom
1306 at the Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY, on the date
and time specified above.
SO ORDERED.
Dated:
June 8, 2017
New York,
New York

s/

_________

ANDREW L. CARTER, JR.
United States District
Judge

73a
APPENDIX D
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
No. 17‐2233
Prime International Trading, Ltd., White Oaks
Fund LP, Kevin McDonnell, Anthony Insinga, Robert
Michiels, John Devivo, Neil Taylor, Aaron Schindler,
Port 22, LLC, Atlantic Trading USA, LLC, and
Xavier Laurens,
PlaintiffsAppellants,
v.
BP P.L.C., Trafigura Beheer B.V., Trafigura AG,
Phibro Trading L.L.C., Vitol S.A., Mercuria Energy
Trading S.A., Hess Energy Trading Company, LLC,
Statoil US Holdings Inc., Shell Trading US Company,
BP America, Inc., Vitol, Inc., BP Corporation North
America, Inc., Mercuria Energy Trading, Inc.,
Morgan Stanley Capital Group Inc., Phibro
Commodities Ltd., Shell International Trading And
Shipping Company Limited, Statoil ASA, And Royal
Dutch Shell PLC,
DefendantsAppellees.
________________________________
OCTOBER 16, 2019
________________________________

74a
ORDER
Appellants, Prime International Trading, Ltd.,
White Oaks Fund LP, Kevin McDonnell, Anthony Insinga, Robert Michiels, John Devivo, Neil Taylor, Aaron Schindler, Port 22, LLC, Atlantic Trading USA,
LLC, and Xavier Laurens, filed a petition for panel rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered
the request for panel rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
s/
Catherine O’Hagan Wolfe, Clerk

75a
APPENDIX E
7 U.S.C. § 5 provides:
§ 5. Findings and purpose
(a) Findings
The transactions subject to this chapter are entered into regularly in interstate and international
commerce and are affected with a national public interest by providing a means for managing and assuming price risks, discovering prices, or disseminating
pricing information through trading in liquid, fair and
financially secure trading facilities.
(b) Purpose
It is the purpose of this chapter to serve the public
interests described in subsection (a) through a system
of effective self-regulation of trading facilities, clearing
systems, market participants and market professionals under the oversight of the Commission. To foster
these public interests, it is further the purpose of this
chapter to deter and prevent price manipulation or
any other disruptions to market integrity; to ensure
the financial integrity of all transactions subject to
this chapter and the avoidance of systemic risk; to protect all market participants from fraudulent or other
abusive sales practices and misuses of customer assets; and to promote responsible innovation and fair
competition among boards of trade, other markets and
market participants.

76a
7 U.S.C. § 9 provides in relevant part:
§ 9. Prohibition regarding manipulation and
false information
(1) Prohibition against manipulation
It shall be unlawful for any person, directly or indirectly, to use or employ, or attempt to use or employ,
in connection with any swap, or a contract of sale of
any commodity in interstate commerce, or for future
delivery on or subject to the rules of any registered entity, any manipulative or deceptive device or contrivance, in contravention of such rules and regulations as
the Commission shall promulgate by not later than 1
year after July 21, 2010, provided no rule or regulation
promulgated by the Commission shall require any person to disclose to another person nonpublic information that may be material to the market price, rate,
or level of the commodity transaction, except as necessary to make any statement made to the other person
in or in connection with the transaction not misleading
in any material respect.
* * *
7 U.S.C. § 13 provides in relevant part:
§ 13. Violations generally; punishment; costs of
prosecution
(a) Felonies generally
It shall be a felony punishable by a fine of not
more than $1,000,000 or imprisonment for not more
than 10 years, or both, together with the costs of prosecution, for:

77a
* * *
(2) Any person to manipulate or attempt to manipulate the price of any commodity in interstate commerce, or for future delivery on or subject to the rules
of any registered entity, or of any swap, or to corner or
attempt to corner any such commodity or knowingly to
deliver or cause to be delivered for transmission
through the mails or interstate commerce by telegraph, telephone, wireless, or other means of communication false or misleading or knowingly inaccurate
reports concerning crop or market information or conditions that affect or tend to affect the price of any
commodity in interstate commerce, or knowingly to violate the provisions of section 6, section 6b, subsections (a) through (e) of subsection1 6c, section 6h, section 6o(1), or section 23 of this title.
* * *
7 U.S.C. § 25 provides:
§ 25. Private rights of action
(a) Actual damages; actionable transactions;
exclusive remedy
(1) Any person (other than a registered entity or
registered futures association) who violates this chapter or who willfully aids, abets, counsels, induces, or
procures the commission of a violation of this chapter
shall be liable for actual damages resulting from one
or more of the transactions referred to in subparagraphs (A) through (D) of this paragraph and caused
by such violation to any other person—

1

So in original. Probably should be “section”.

78a
(A) who received trading advice from such person for a fee;
(B) who made through such person any contract
of sale of any commodity for future delivery (or option on such contract or any commodity) or any
swap; or who deposited with or paid to such person
money, securities, or property (or incurred debt in
lieu thereof) in connection with any order to make
such contract or any swap;
(C) who purchased from or sold to such person
or placed through such person an order for the purchase or sale of—
(i) an option subject to section 6c of this title
(other than an option purchased or sold on a registered entity or other board of trade);
(ii) a contract subject to section 23 of this title;
or

1

(iii) an interest or participation in a commodity pool; or
(iv) a swap; or
(D) who purchased or sold a contract referred to
in subparagraph (B) hereof or swap if the violation
constitutes—
(i) the use or employment of, or an attempt to
use or employ, in connection with a swap, or a contract of sale of a commodity, in interstate commerce, or for future delivery on or subject to the
rules of any registered entity, any manipulative
device or contrivance in contravention of such
1

So in original. The word “or” probably should not appear.

79a
rules and regulations as the Commission shall
promulgate by not later than 1 year after July 21,
2010; or
(ii) a manipulation of the price of any such
contract or swap or the price of the commodity underlying such contract or swap.
(2) Except as provided in subsection (b), the rights
of action authorized by this subsection and by sections
7(d)(13), 7a-1(c)(2)(H), and 21(b)(10) of this title shall
be the exclusive remedies under this chapter available
to any person who sustains loss as a result of any alleged violation of this chapter. Nothing in this subsection shall limit or abridge the rights of the parties to
agree in advance of a dispute upon any forum for resolving claims under this section, including arbitration.
(3) In any action arising from a violation in the
execution of an order on the floor of a registered entity,
the person referred to in paragraph (1) shall be liable
for—
(A) actual damages proximately caused by such
violation. If an award of actual damages is made
against a floor broker in connection with the execution of a customer order, and the futures commission merchant which selected the floor broker for
the execution of the customer order is held to be responsible under section 2(a)(1) of this title for the
floor broker’s violation, such futures commission
merchant may be required to satisfy such award;
and
(B) where the violation is willful and intentional, punitive or exemplary damages equal to no
more than two times the amount of such actual

80a
damages. If an award of punitive or exemplary damages is made against a floor broker in connection
with the execution of a customer order, and the futures commission merchant which selected the floor
broker for the execution of the customer order is
held to be responsible under section 2(a)(1) of this
title for the floor broker’s violation, such futures
commission merchant may be required to satisfy
such award if the floor broker fails to do so, except
that such requirement shall apply to the futures
commission merchant only if it willfully and intentionally selected the floor broker with the intent to
assist or facilitate the floor broker’s violation.
(4) CONTRACT ENFORCEMENT
COUNTERPARTIES.—

BETWEEN ELIGIBLE

(A) IN GENERAL.—No hybrid instrument sold to
any investor shall be void, voidable, or unenforceable, and no party to a hybrid instrument shall be
entitled to rescind, or recover any payment made
with respect to, the hybrid instrument under this
section or any other provision of Federal or State
law, based solely on the failure of the hybrid instrument to comply with the terms or conditions of section 2(f) of this title or regulations of the Commission.
(B) SWAPS.—No agreement, contract, or transaction between eligible contract participants or persons reasonably believed to be eligible contract participants shall be void, voidable, or unenforceable,
and no party to such agreement, contract, or transaction shall be entitled to rescind, or recover any
payment made with respect to, the agreement, contract, or transaction under this section or any other
provision of Federal or State law, based solely on

81a
the failure of the agreement, contract, or transaction—
(i) to meet the definition of a swap under section 1a of this title; or
(ii) to be cleared in accordance with section
2(h)(1) of this title.
(5) LEGAL

CERTAINTY FOR LONG-TERM SWAPS

ENTERED INTO BEFORE JULY 21, 2010.—

(A) EFFECT ON SWAPS.—Unless specifically reserved in the applicable swap, neither the enactment of the Wall Street Transparency and Accountability Act of 2010, nor any requirement under that
Act or an amendment made by that Act, shall constitute a termination event, force majeure, illegality, increased costs, regulatory change, or similar
event under a swap (including any related credit
support arrangement) that would permit a party to
terminate, renegotiate, modify, amend, or supplement 1 or more transactions under the swap.
(B) POSITION LIMITS.—Any position limit established under the Wall Street Transparency and Accountability Act of 2010 shall not apply to a position
acquired in good faith prior to the effective date of
any rule, regulation, or order under the Act that establishes the position limit; provided, however, that
such positions shall be attributed to the trader if the
trader’s position is increased after the effective date
of such position limit rule, regulation, or order.
(6) CONTRACT

ENFORCEMENT FOR FOREIGN FU-

TURES CONTRACTS.—A

contract of sale of a commodity
for future delivery traded or executed on or through
the facilities of a board of trade, exchange, or market
located outside the United States for purposes of

82a
section 6(a) of this title shall not be void, voidable, or
unenforceable, and a party to such a contract shall not
be entitled to rescind or recover any payment made
with respect to the contract, based on the failure of the
foreign board of trade to comply with any provision of
this chapter.
(b) Liabilities of organizations and individuals; bad faith requirement; exclusive remedy
(1) (A) A registered entity that fails to enforce any
bylaw, rule, regulation, or resolution that it is required
to enforce by section 7, 7a-1, 7a-2, 7b-3, or 24a of this
title, (B) a licensed board of trade that fails to enforce
any bylaw, rule, regulation, or resolution that it is required to enforce by the Commission, or (C) any registered entity that in enforcing any such bylaw, rule,
regulation, or resolution violates this chapter or any
Commission rule, regulation, or order, shall be liable
for actual damages sustained by a person who engaged
in any transaction on or subject to the rules of such
registered entity to the extent of such person’s actual
losses that resulted from such transaction and were
caused by such failure to enforce or enforcement of
such bylaws, rules, regulations, or resolutions.
(2) A registered futures association that fails to
enforce any bylaw or rule that is required under section 21 of this title or in enforcing any such bylaw or
rule violates this chapter or any Commission rule, regulation, or order shall be liable for actual damages sustained by a person that engaged in any transaction
specified in subsection (a) of this section to the extent
of such person’s actual losses that resulted from such
transaction and were caused by such failure to enforce
or enforcement of such bylaw or rule.

83a
(3) Any individual who, in the capacity as an officer, director, governor, committee member, or employee of registered2 entity or a registered futures association willfully aids, abets, counsels, induces, or
procures any failure by any such entity to enforce (or
any violation of the chapter in enforcing) any bylaw,
rule, regulation, or resolution referred to in paragraph
(1) or (2) of this subsection, shall be liable for actual
damages sustained by a person who engaged in any
transaction specified in subsection (a) of this section
on, or subject to the rules of, such registered entity or,
in the case of an officer, director, governor, committee
member, or employee of a registered futures association, any transaction specified in subsection (a) of this
section, in either case to the extent of such person’s
actual losses that resulted from such transaction and
were caused by such failure or violation.
(4) A person seeking to enforce liability under this
section must establish that the registered entity3 registered futures association, officer, director, governor,
committee member, or employee acted in bad faith in
failing to take action or in taking such action as was
taken, and that such failure or action caused the loss.
(5) The rights of action authorized by this subsection shall be the exclusive remedy under this chapter
available to any person who sustains a loss as a result
of (A) the alleged failure by a registered entity or registered futures association or by any officer, director,
governor, committee member, or employee to enforce
any bylaw, rule, regulation, or resolution referred to in

2

So in original. Probably should be preceded by “a”.

3

So in original. Probably should be followed by a comma.

84a
paragraph (1) or (2) of this subsection, or (B) the taking of action in enforcing any bylaw, rule, regulation,
or resolution referred to in this subsection that is alleged to have violated this chapter, or any Commission
rule, regulation, or order.
(c) Jurisdiction;
venue; process

statute

of

limitations;

The United States district courts shall have exclusive jurisdiction of actions brought under this section. Any such action shall be brought not later than
two years after the date the cause of action arises. Any
action brought under subsection (a) of this section may
be brought in any judicial district wherein the defendant is found, resides, or transacts business, or in the
judicial district wherein any act or transaction constituting the violation occurs. Process in such action may
be served in any judicial district of which the defendant is an inhabitant or wherever the defendant may be
found.
(d) Dates of application to actions
The provisions of this section shall become effective with respect to causes of action accruing on or after the date of enactment of the Futures Trading Act
of 1982 [January 11, 1983]: Provided, That the enactment of the Futures Trading Act of 1982 shall not affect any right of any parties which may exist with respect to causes of action accruing prior to such date.

85a
15 U.S.C. § 78j provides in relevant part:
§ 78j. Manipulative and deceptive devices
It shall be unlawful for any person, directly or indirectly, by the use of any means or instrumentality of
interstate commerce or of the mails, or of any facility
of any national securities exchange—
* * *
(b) To use or employ, in connection with the purchase or sale of any security registered on a national
securities exchange or any security not so registered,
or any securities-based swap agreement1 any manipulative or deceptive device or contrivance in contravention of such rules and regulations as the Commission
may prescribe as necessary or appropriate in the public interest or for the protection of investors.
* * *

1

So in original. Probably should be followed by a comma.

86a
APPENDIX F
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
No. 17‐2233
13-md-02475 (ALC)
________________________________
PRIME INTERNATIONAL TRADING, LTD., et al.
Plaintiffs-Appellants,
v.
BP PLC, et al.
Defendants‐Appellees.
________________________________
On Appeal from the United States District Court for
the Southern District of New York
________________________________
BRIEF FOR AMICUS CURIAE
U.S. COMMODITY FUTURES TRADING
COMMISSION IN SUPPORT OF NEITHER PARTY
________________________________

*

*

*

INTRODUCTION
Plaintiffs allege that Defendants, operating overseas, intentionally manipulated the price of Brent oil
derivatives traded on the New York Mercantile Exchange (“NYMEX”), a CFTC-regulated futures market

87a
located in the United States.1 SPA-52. While these
claims may or may not have merit, there should be no
question that U.S. law applies. An express purpose of
the CEA is to protect the national interest in fair trading facilities that are free of market manipulation. 7
U.S.C. § 5. The statute contains no loophole that would
permit such intentional and wrongful acts as Plaintiffs
allege, based simply on the fact that the alleged wrongdoer was operating from a foreign country using a
means located offshore. However, the district court
held exactly that, based on a misapplication of this
Court’s decision in Parkcentral Glob. Hub Ltd. v. Porsche Auto. Holdings SE, 763 F.3d 198 (2d Cir. 2014).
The CFTC takes no position on whether Plaintiffs
have stated a claim on which relief may be granted.
However, this Court should reject the district court’s
holding that the CEA does not govern Plaintiffs’ allegations that Defendants intentionally manipulated
the price of futures contracts traded on a U.S. exchange.
SUMMARY OF ARGUMENT
The district court erred in two principal ways:
First, the court incorrectly applied Morrison v.
Nat’l Australia Bank Ltd., 561 U.S. 247 (2010), and
Parkcentral. Relying on those cases, it mischaracterized Plaintiffs’ claims as impermissibly “extraterritorial,” notwithstanding that a target of the alleged
1

Plaintiffs also assert claims concerning transactions on ICE
Futures Europe. The Commission takes no position regarding
whether, in those transactions, irrevocable liability was incurred
or title passed within the U.S., within the meaning of Absolute
Activist Value Master Fund Ltd. v. Ficeto, 677 F.3d 60 (2d. Cir.
2012).

88a
scheme is a CFTC-registered futures exchange located
in New York. Nothing in the CEA, Morrison, or Parkcentral suggests that a person may intentionally manipulate contracts on a trading facility in the United
States with impunity under U.S. law, and without incurring liability to victimized market participants,
simply because that person and the means of manipulation were offshore. To the contrary, protecting U.S.
markets and market participants from manipulation,
including manipulation using transactions in international commerce, is a core stated purpose of the CEA.
7 U.S.C. § 5.
The district court reached its erroneous conclusion by (a) stretching Parkcentral, a securities case,
well beyond its stated limitations and without regard
to important differences between commodities and securities markets, the applicable statutes, and the operative facts; and (b) in substance, erroneously resurrecting the “conduct and effects” test the Supreme
Court repudiated in Morrison.
If the district court’s concerns have relevance, at
most they may relate to whether Plaintiffs have sufficiently pled that Defendants had the requisite intent
and that their actions proximately caused Plaintiffs’
claimed damages, both of which are necessary to sustain a private manipulation claim. The court’s mistaken framing of these substantive issues under the
rubric of extraterritoriality is an error that, if uncorrected, could have negative consequences that Congress did not intend—both in private actions and those
brought by the CFTC to protect the public interest.
Second, the district court’s opinion contains incorrect statements about the text of the CEA. For example, the opinion states that “[t]he CEA does not contain

89a
any statements suggesting that Congress intended the
reach of the law to extend to foreign conduct.” SPA-63.
The court, however, overlooked a provision saying exactly that—CEA Section 2(i), which applies the CEA
provisions regarding “swaps” to overseas activities
with a “direct and significant connection” to U.S. commerce or that violate anti-evasion rules. 7 U.S.C. § 2(i)
(2012). The Commission takes no position on whether
or how Section 2(i) may apply here. That was not litigated below and would likely be fact-intensive. Cf. Interpretive Guidance & Policy Statement Regarding
Compliance with Certain Swap Regulations, 78 Fed.
Reg. 45292 (July 26, 2013) (interpretation and policy
statement concerning application of Section 2(i) to
swaps rules not at issue here). It is important, however, for this Court to correct the district court’s misstatements, so as to avoid further confusion.
BACKGROUND
I.

CEA Regulation of Futures in Domestic and
Foreign Commodities

1. The CEA regulates transactions in and markets
for commodity “derivatives.” A derivative is a financial
instrument, the value of which depends on (i.e., is derived from) the value of some underlying asset, index,
or other measure. Market participants use these instruments to hedge business risks or speculate on
price movements. The most common are “futures contracts” and “swaps.” Derivatives markets are distinct
from “cash” or “physical” markets in which the assets
themselves are bought and sold, but the prices of cash
commodities and derivatives are closely linked. At a
high level, this is because if a price disparity arises,
arbitrageurs will take advantage of the difference, and
the gap disappears. This may involve cash market or

90a
derivatives transactions anywhere in the world.2 If resulting price movements reflect legitimate market
forces, the transactions have contributed to “price discovery,” the mechanism by which supply and demand
set the price of a commodity like the oil at issue here.
2. A futures contract is a financial instrument in
the form of a standardized agreement to purchase or
sell a “commodity” in the future at a price determined
at the contract’s inception. The CEA uses the term of
art “contract[] of sale of a commodity for future delivery.” See, e.g., 7 U.S.C. § 2(a)(1)(A) (2012). In practice,
it is atypical for delivery to actually occur, because all
futures may be and usually are discharged by executing a contract that reverses the obligation to purchase
or sell.
3. Under the CEA, a futures contract must be
traded on a “Designated Contract Market,” the statutory term for a registered futures exchange. 7 U.S.C.
§ 6(a) (2012).3 Futures markets first emerged in the
U.S. at transportation hubs for agricultural products
like grain, butter, and eggs. Over time, exchanges began to offer contracts for other physical commodities
like metals, oil, and gas. Later, exchanges created futures with prices linked to less tangible measures like
interest rates and price indices. Today there are 14
2

For example, if a derivative is available at a low price relative to the related cash market product, an arbitrageur could purchase the derivative and simultaneously sell the cash product at
a higher price. The arbitrageur could then use the proceeds from
the derivative purchase to satisfy their obligations in the cash
market and lock in a risk-free profit. This behavior persists until
the disparity is eliminated.
3

The CEA generally refers to a futures exchange (regardless
of registration status) as a “board of trade.”

91a
registered futures exchanges in the United States, including NYMEX.
4. The first comprehensive federal legislation concerning the futures markets was the Futures Trading
Act of 1921, Pub. L. No. 67-66, 42 Stat. 187 (“’21 Act”),
followed shortly thereafter by the Grain Futures Act
of 1922, Pub. L. No. 67-331, 42 Stat. 998 (“’22 Act”).4
Both statutes applied to seven grain commodities and
were to be administered principally by the Secretary
of Agriculture. ’21 Act §§ 2, 5, 42 Stat. 187-88; ’22 Act
§ 2(a), 5, 42 Stat. at 998, 1000.
5. From the outset, Congress recognized that the
markets for these commodities were international.
Section 3 of the ’22 Act declared there to be a national
public interest in futures markets in part because
“prices involved in such transactions are generally
quoted and disseminated throughout the United
States and in foreign countries as a basis for determining” the price of grain. ’22 Act § 3, 42 Stat. at 999 (emphasis added). Both the ’21 and ’22 Acts empowered
the Secretary to collect “information respecting the
grain markets, together with information on supply,
demand, prices, and other conditions, in this and other
countries that affect the markets.” ’21 Act § 9, 42 Stat.
at 191; ’22 Act § 8, 42 Stat. at 1003 (emphasis added).
6. In 1936, Congress passed the CEA, which added
six more agricultural commodities to the statute’s coverage. Pub. L. No. 74-675, 49 Stat. 1491 (1936). Between 1936 and 1974, Congress amended the CEA several times to add additional items to the definition of
4

The Supreme Court struck down the ’21 Act on Constitutional grounds, Hill v. Wallace, 259 U.S. 44 (1922), but upheld the
’22 Act, Bd. of Trade of Chicago v. Olsen, 262 U.S. 1 (1923).

92a
“commodity,” thereby expanding the reach of the statute.
7. Over time, markets developed too quickly for
Congress to keep up by continuously amending the
CEA to add more commodities to the list. A bifurcated
industry developed in which some futures contracts
and markets were regulated, but some were not because the futures were based on assets not listed in the
CEA definition of “commodity.” H.R. Rep. No. 93-975,
at 41 (1974). This made little sense and, along with
other developments, led to the Commodity Futures
Trading Commission Act of 1974, Pub. L. No. 93-463,
88 Stat. 1389 (“’74 Act”).
8. The ’74 Act was a “comprehensive rewrite of futures trading regulation.” H.R. Rep. No. 93-975, at 39.
It created the CFTC, Pub. L. No. 93-463 § 101(a)(3), 88
Stat. at 1389, and included a long-term fix to the problem of proliferating varieties of commodity futures:
The definition of “commodity” was expanded to include
virtually “all” goods and articles, “services, rights, and
interests in which contracts for future delivery are
presently or in the future dealt in.” Id. § 201(b), 88
Stat. at 1395. Today, all futures contracts on all commodities traded in the United States now fall within
the scope of the CEA. 7 U.S.C. § 1a(9) (2012).
9. “All” includes foreign commodities. By 1974,
U.S. exchanges offered many futures on overseas commodities, including coffee, cocoa, copper, and foreign
currency. H.R. Rep. No. 93-975, at 41, 62. Exchanges
that offered contracts in foreign commodities lobbied
against including them within the scope of the CEA,
arguing that it was “inappropriate” for the U.S. to regulate them. Id. at 62. Congress, however, found it
“abundantly clear that all futures trading must be

93a
brought under a single regulatory umbrella,” id. at 4142, and that whether the commodity “is produced in
the United States or outside” of it matters little “to
those in this country who buy, sell, [] process,” or use
“the commodity, or to the U.S. consumers whose prices
are affected by the futures market in that commodity,”
S. Rep. 93-1131, at 19 (1974).
Today, futures exchanges offer scores of contracts
based on foreign commodities. For example, the Chicago Mercantile Exchange (“CME”) offers contracts
based on Black Sea Wheat, Malaysian Palm Oil, and
Swiss Francs. NASDAQ Futures offers contracts
based on German and Nordic electricity. And NYMEX
offers contracts based on Australian coal, Turkish
scrap metal—and numerous contracts based on the
price of Brent oil. All of these fall within the scope of
the CEA. 7 U.S.C. § 1a(9).
II. Anti-Manipulation Prohibitions
1. An original motivation for Congress to legislate
in this area was that futures markets were persistently subject to manipulation and other malfeasance.
The ’22 Act states that the transactions subject to the
statute “are susceptible to speculation, manipulation,
and control, and sudden or unreasonable fluctuations
in the prices thereof frequently occur as a result of
such speculation, manipulation, or control.” ’22 Act
§ 3, 42 Stat. at 999. Both the ’21 and ’22 Acts prohibited manipulation and other bad acts affecting “the
market price of any grain.” ’21 Act §§ 5(d), 6(b), 42
Stat. at 188-89, ’22 Act §§ 5(d), 6(b), 42 Stat. at 1000,
1002-03. Similar to its predecessors, the modern CEA
includes a statement of purpose to “deter and prevent
price manipulation or any other disruptions to market
integrity,” 7 U.S.C. § 5, as well as broad prohibitions

94a
on all forms of manipulation, 7 U.S.C. §§ 6c, 9(1),
13(a)(2) (2012).
2. The breadth of these provisions is necessary because, as the Commission executes its mission to root
out manipulation and other threats to market integrity, unscrupulous actors find new ways to distort
markets to their unfair advantage. These include not
only illegitimate activities on exchanges, but also false
reporting, dissemination of false information, and
wrongful behavior in cash markets. To account for this
dynamic and encompass all forms of manipulation, the
CEA does not define the term. “Sometimes the ‘know
it when you see it’ test may appear most useful.” Frey
v. CFTC, 931 F.2d 1171, 1175 (7th Cir. 1991).
III. Swaps Regulation Under Dodd-Frank
1. A “swap” is a contract between two parties
agreeing to make payments to each other on specified
dates over an agreed time period, where the amount
that each party has to pay is calculated on a different
basis. Similar to futures contracts, swaps shift risk between parties and can be used for hedging or speculation. Prior to the 2008 financial crisis, swaps were generally unregulated. Congress came to view this as an
underlying cause of the crisis, and, in the Dodd-Frank
Wall Street Reform and Consumer Protection Act of
2010, Pub. L. No. 111-203, 124 Stat. 1376 (“DoddFrank”), brought them within the CEA’s coverage.
2. The swaps activities that catalyzed the 2008 financial crisis included activities that occurred overseas, but which contributed to economic turmoil in the
United States. See Financial Crisis Inquiry Commission, THE FINANCIAL CRISIS INQUIRY REPORT 344-52
(January 2011). Thus, Congress established under

95a
CEA Section 2(i) that the Dodd-Frank reforms apply
to swaps activities abroad that have “a direct and significant connection with activities in, or effect on, commerce of the United States,” or that contravene CFTC
anti-evasion rules. 7 U.S.C. § 2(i).
ARGUMENT
The District Court Incorrectly Applied Morrison and Parkcentral to Plaintiffs’ CEA
Claims.

I.

In Morrison, a class action under Section 10(b) of
the Securities Exchange Act (“Exchange Act”), the Supreme Court established a framework for determining
whether a statute applies in cases involving a mix of
foreign and domestic elements. 561 U.S. at 272. This
Court has applied Morrison in, among other contexts,
securities cases like Parkcentral, and one CEA case,
Loginovskaya v. Batratchenko, 764 F.3d 266 (2d Cir.
2014), discussed infra at Part II.
As explained below, and as the district court for
all intents and purposes agreed, Plaintiffs’ private
claims in this case satisfy Morrison because the transactions relevant to the CEA’s private right of action, 7
U.S.C. § 25, occurred in the United States.5 On the
other hand, the court’s application of Parkcentral to
Plaintiffs’ CEA claims did not sufficiently consider important differences in statutory and market contexts
and the alleged facts of each case. Indeed, the analysis
violated Morrison itself, because in substance it
5

While the district court noted that it was “not necessary, and
perhaps not appropriate, to evaluate the focus of the substantive
provisions” of the CEA at issue (i.e., Sections 6(c) and 9(a)), SPA64, the court’s incorrect analysis could be read more broadly to
apply to CEA claims under these and other provisions.

96a
resurrected the “conduct and effects” test that the Supreme Court in that case struck down.
a.

Plaintiffs’ Private CEA Claims Satisfy
Morrison.

1. The plaintiffs in Morrison alleged that foreign
and domestic defendants committed fraud in violation
of the Exchange Act by making false statements, including from within the United States, about securities traded on foreign stock exchanges. 561 U.S. at
250-52. The Supreme Court held that those claims
were impermissibly extraterritorial. First, it examined
the text of Section 10(b) applying a “presumption
against extraterritoriality,” which can be rebutted
only by a “clear indication” that Congress intended the
statute to apply outside of United States. Id. at 25556. The Court found no such indication regarding Section 10(b) and, accordingly, held that it did not apply
extraterritorially. Id. at 262, 265.
2. That did not resolve the case, however, because
the allegations included some misstatements made in
the U.S. The Court therefore considered whether that
activity was sufficient to establish a domestic claim,
which, the Court explained, required it to identify the
“focus of congressional concern” underlying Section
10(b). Id. at 266-67 (alterations omitted).
3. The Court observed that Section 10(b) by its
terms does not punish all deceptive conduct, but only
such conduct “in connection with the purchase or sale
of any security registered on a national securities exchange or any security not so registered.” Id. at 266
(quoting 15 U.S.C. § 78j(b) (2012)). The Court also
cited what it called the “primacy of the domestic exchange” in “the very prologue of the Exchange Act,

97a
which sets forth as its object ‘[t]o provide for the regulation of securities exchanges.’” Id. at 267 (citation
omitted). This suggested that Congress’s focus was on
the transactions themselves, “not upon the place
where the deception originated.” Id. at 266. The Court
therefore adopted a “transactional test” for Section
10(b), which asks “whether the purchase or sale is
made in the United States, or involves a security listed
on a domestic exchange.” Id. at 269-70.
1. The CFTC Takes No Position Here on
Whether the CEA Contains a Clear Indication of Extraterritoriality.
In the district court, no party argued that the CEA
contains a “clear indication” that Congress intended
the provisions at issue to apply extraterritorially.
SPA-63-64. The Commission therefore takes no position on whether there is any such CEA language that
is relevant in this case. See also Part II, infra (discussing CEA Section 2(i)).
2. Plaintiffs’ Claims Are within the “Scope
of Congressional Concern” under Morrison.
1. The text of the CEA provisions at issue here reflect several focuses of congressional concern. These
include, but are not limited to, protecting participants
in derivatives transactions and the integrity of trading
facilities against market manipulation and other price
disruptions. Of particular relevance here, the private
right of action in Section 22(a) is available only to participants in four types of transactions, including exchange-traded derivatives. 7 U.S.C. § 25(a). Thus, in
Loginovskaya, this Court held that the focus of Section
22(a) is “clearly transactional.” 764 F.3d at 272. CEA

98a
Section 6(c)(1) prohibits the use or attempted use of a
manipulative or deceptive device or contrivance “in
connection with any swap, or a contract of sale of any
commodity in interstate commerce, or for future delivery on or subject to the rules of any registered entity,”
including through false reporting concerning “market
information or conditions that affect or tend to affect
the price of any commodity in interstate commerce.” 7
U.S.C. § 9(1). CEA Section 9(a) prohibits manipulation
of “the price” of the same products covered by Section
6(c)(1), as well as cornering of a physical commodity,
and false reporting. Id. § 13(a)(2). Underscoring the
congressional focus on, among other things, transactions and exchanges, the statute declares a “national
public interest” in aspects of commodity markets including “[t]he transactions subject to this Act” and
“trading in liquid, fair and financially secure trading
facilities.” Id. § 5.
2. Plaintiffs allege that they were parties to derivatives transactions that took place in the United
States on a CFTC-registered futures exchange. SPA32, 41, 53-55, 70-71. The claims therefore directly implicate important focuses of congressional concern in a
private action for manipulation, and they are domestic
under Morrison.6

6

Other important focuses of congressional concern that may
apply in a CFTC enforcement action include protection of the
price discovery function, ensuring market integrity, and avoiding
systemic risk. See 7 U.S.C. § 5.

99a
b.

Plaintiffs’ CEA Claims Satisfy Parkcentral.

1. This Court’s decision in Parkcentral should not
change the outcome. In that case, the plaintiffs were
parties to “securities-based swap agreements” executed in the U.S. 763 F.3d at 207. The underlying security traded only on European exchanges, and the allegedly fraudulent statements were made by a German company in Germany. Id. at 201-02. On those
facts, the Court assumed, without deciding, that the
claims would pass the Morrison transactional test. Id.
at 214. It held, however, that a U.S. transaction was
“necessary but not necessarily sufficient.” Id. at 216.
The Court expressed concern that the alleged events
at issue in Parkcentral were “so predominantly German” as to pose an unacceptable “potential for regulatory and legal overlap and conflict.” Id. The plaintiffs
therefore failed to state a domestic claim. Id.
2. The Court did not elaborate much on its holding. It stated that it had “neither the expertise nor the
evidence to allow [it] to lay down” a general rule and
that it did not “purport to proffer a test.” Id. at 217. It
cautioned that “[t]he potential for incompatibility between U.S. and foreign law is just one form of evidence
that a particular application of a statute is extraterritorial.” Id. at 216-17. That potential “is neither a safe
harbor nor the only relevant consideration.” Id. at 217.
Its decision, therefore, “in no way forecloses the application of § 10(b) … where the transactions are domestic and where the defendants are alleged to have sufficiently subjected themselves to the statute.” Id. Pointedly, the Court warned that, given the complexity and
variety of global financial markets and transactions,
the facts of the case cannot “be perfunctorily applied

100a
to other cases based on the perceived similarity of a
few facts.” Id.
3. That is, however, what the district court did
here. After agreeing that the relevant transactions for
a private claim under CEA Section 22 likely were
Plaintiffs’ domestic trades, SPA-65, the court held that
the claims were nevertheless extraterritorial based on
high-level similarities it perceived with Parkcentral:
In both cases the alleged wrongdoing occurred overseas, and the court drew an analogy between the foreign exchange-traded security in Parkcentral and the
London-generated Platts benchmark for oil that is at
issue here. The district court expressed “concern,” like
this Court in Parkcentral, “that individuals and entities will be subject to multiple, and potentially incompatible, laws.” SPA-67.
Under Parkcentral, however, that is not enough,
and the district court ignored important differences.
4. First, and fundamentally, it is a stretch to apply
Parkcentral to the CEA and commodity transactions
at all. That case was about a small number of derivatives of a German exchange-traded security. When a
company issues securities to be publicly traded, it selects an exchange, and the exchange normally has a
physical location within a country’s borders. That
country then typically regulates the issuer, exchange,
and market participants. A commodity like oil, on the
other hand, exists throughout the world in fungible
form, moving about with no meaningful situs like a
stock exchange. Wrongdoing with respect to such a
commodity may originate anywhere and impact the
U.S., causing harms Congress intended the CEA to
prevent.

101a
5. Second, the Court in Parkcentral emphasized
that it was a “case of securities not listed on domestic
exchanges.” 763 F.3d at 216. That distinction matters,
given the Morrison Court’s emphasis on the “primacy
of the domestic exchange.” 561 U.S. at 267. In Parkcentral, where the wrongdoing centered on a foreign
stock exchange, it is perhaps unsurprising that this
Court was reluctant to apply U.S. law. Here, the shoe
is on the other foot—Plaintiffs claim manipulation of
contracts on an exchange in the United States. SPA54-55. To remove such cases from the protection of
U.S. law conflicts with the primacy the CEA places on
protecting the integrity of U.S. exchanges. 7 U.S.C.
§ 5.
6. Third, the plaintiffs in Parkcentral did not allege that the defendant “was a party to any securitiesbased swap agreements referencing [the underlying]
stock, or that it participated in the market for such
swaps in any way.” 763 F.3d at 207. This was important to the Court, which expressed concern about a
rule that would allow plaintiffs to hail foreign defendants into U.S. court “solely because a plaintiff in the
United States made a domestic transaction, even if the
foreign defendants were completely unaware of it.” Id.
at 215. Here, Plaintiffs allege that Defendants were
aware of the Brent oil contracts on NYMEX—they allegedly participated in them. SPA-32, 41, 70-71. The
Court in Parkcentral emphasized the potential importance of this factor, distinguishing it from a case in
which “the defendants are alleged to have sufficiently
subjected themselves to the statute.” 763 F.3d at 217.
Here, the allegations would establish that Defendants
voluntarily and repeatedly subjected themselves to the
CEA, both by allegedly targeting NYMEX for

102a
manipulation and by their own trading of Brent contracts on that exchange. SPA-32, 41, 70-71.
7. Finally, the Supreme Court has recently cast
doubt on the holding in Parkcentral that a domestic
transaction is “necessary but not necessarily sufficient.” 763 F.3d at 216. In RJR Nabisco, Inc. v. Eur.
Cmty., 136 S. Ct. 2090 (2016), the Court reasserted the
simple binary test it established in Morrison:
If the conduct relevant to the statute’s focus
occurred in the United States, then the case
involves a permissible domestic application
even if other conduct occurred abroad; but if
the conduct relevant to the focus occurred in a
foreign country, then the case involves an impermissible extraterritorial application regardless of any other conduct that occurred in
U.S. territory.
Id. at 2101. In Parkcentral, this Court observed of
Morrison that the Supreme Court “did not say that [a
domestic] transaction was sufficient to make the statute applicable … whenever such a transaction is present.” 763 F.3d at 215. However, the Supreme Court
has said so now.
At a minimum, given that context, Parkcentral
must be recognized as at best the high-water mark for
restrictions on applying U.S. law to transactions in the
United States. It should not be extended here to preclude claims that Defendants intentionally manipulated contracts traded on a CFTC-regulated futures
exchange in New York.

103a
c.

The District Court Applied the Conductand-Effects Test the Supreme Court Repudiated in Morrison.

The Supreme Court in Morrison stated that it
wanted a “clear test.” 561 U.S. at 269. It rejected a doctrine—the “conduct and effects” test—that required
courts and market participants to “guess anew in each
case.” Id. at 261. Yet the district court here went right
down same rabbit hole. Although it did not use the label “conduct and effects test,” the court’s analysis was
indistinguishable from that discredited line of cases.
1. Under the conduct-and-effects test, a court
would first determine “what conduct comprises the
heart,” Morrison v. Nat’l Australia Bank Ltd., 547 F.3d
167, 174-75 (2d Cir. 2008), or “the crux of,” In re Vivendi Universal, S.A., No. 02 Civ. 5571 (RJH), 2004
WL 2375830, at *7 (S.D.N.Y. Oct. 22, 2004), the alleged scheme. If that conduct took place in the United
States, U.S. law applied.
2. On the other hand, if the crux of the wrongdoing
happened overseas, the court would perform a factspecific proximate cause analysis to determine if those
actions had effects sufficiently connected to injuries in
the United States. See, e.g., Itoba Ltd. v. LEP Grp.
PLC, 54 F.3d 118, 123 (2d Cir. 1995) (determining
whether damages were a “direct” result); Consol. Gold
Fields PLC v. Minorco, S.A., 871 F.2d 252, 262 (2d Cir.
1989) (“remote and indirect effects” do not suffice); Des
Brisay v. Goldfield Corp., 549 F.2d 133, 136 (9th Cir.
1977) (assessing whether misconduct “proximately”
caused damages in the United States).
3. That is what the district court did here. First, it
determined that “the crux of” Plaintiffs’ complaint was

104a
the allegedly “manipulative and misleading reporting
to Platts in London” about oil transactions abroad.
SPA-66. Because the “crux” as the court defined it resided entirely overseas, it then examined “the connection between Defendants’ conduct” and the alleged injuries in the U.S. Id. It found that the alleged manipulation only “indirectly affected” the price of the Brent
contracts because “most” did not settle to the Platts
benchmark for Brent oil, but a different index calculated based on other Brent oil market data. SPA-6667. The district court held that the alleged effects consequently were too “attenuated” from any wrongdoing.
SPA-66.
If that were the test, no party could ever reliably
predict whether U.S. law applied its business activities. That is one main reason the Supreme Court rejected this approach in Morrison. Accordingly, the district court erred in applying it here.
d.

The District Court Should Have Analyzed These Issues as They Relate to the
Elements of Plaintiffs’ Claims.

1. The elements of the substantive provisions at
issue here account for the problems the district court
perceived with respect to Plaintiffs’ claims. CEA Section 9(a), 7 U.S.C. § 13(a), contains a long-established
prohibition on price manipulation, while Section
6(c)(1) is a newer provision that prohibits use of a manipulative device, id. § 9(1). The elements of traditional manipulation are “(1) that the accused had the
ability to influence market prices; (2) that [the accused] specifically intended to do so; (3) that artificial
prices existed; and (4) that the accused caused the artificial prices.” DiPlacido v. CFTC, 364 Fed. App’x 657,

105a
661 (2d Cir. 2009) (citation omitted). A claim under
Section 6(c)(1), as implemented by CFTC regulation 17
C.F.R. § 180.1(a), requires in relevant part that the defendant “intentionally or recklessly” used or attempted “to use or employ[] any manipulative device,
scheme, or artifice to defraud.” CEA Section 22(a)(1),
the private right of action, requires that the alleged
violation have “caused” the plaintiff’s damages. 7
U.S.C. § 25(a)(1). Under these statutes, if the elements
are met, neither the means of manipulation nor the location of the wrongdoer is relevant.
2. With respect to the means, courts have observed that the “methods and techniques of manipulation are limited only by the ingenuity of man.” CFTC
v. Kraft Foods Grp., Inc., 195 F. Supp. 3d 996, 1005
(N.D. Ill. 2016). Although the particulars of any given
scheme can be unique, there is nothing novel about using cash-market transactions or disseminating false
information as alleged in this case to manipulate exchange-traded derivatives. Cargill, Inc. v. Hardin, 452
F.2d 1154, 1163 (8th Cir. 1971) (discussing “one of the
most common manipulative devices, the floating of
false rumors”); CFTC v. Parnon Energy, Inc., 875 F.
Supp. 2d 233, 246 (S.D.N.Y. 2012) (upholding claim of
manipulation where defendants “established their
long futures position to profit from” misconduct “in the
physical market”); In re Soybean Futures Litig., 892 F.
Supp. 1025, 1047 (N.D. Ill. 1995) (upholding claim of
“manipulation of the [futures] market through a combination of market power and false reports”); In re Ind.
Farm Bureau Coop. Assoc., Inc., CFTC No. 75-14, 1982
WL 30249, at *9 (CFTC Dec. 17, 1982) (describing manipulation “where there is evidence that the deliverable supply [of the cash commodity] was intentionally

106a
and significantly reduced by a market participant”);
Philip M. Johnson & Thomas L. Hazen, Derivatives
Regulation § 5.02[4] (Successor ed. 2004) (discussing
the manipulative technique known as a “corner,”
which involves “control or domination of the available
supply of a cash commodity” (emphasis omitted)).
3. It makes no difference if those actions occurred
overseas. Congress deliberately included overseas
commodities within the scope of the CEA. 7 U.S.C.
§ 1a(9); S. Rep. No. 93-1131, at 19; H.R. Rep. No. 93975, at 41, 62-63. This serves the CEA’s express purpose to protect the public interest in transactions that
are “entered into regularly in interstate and international commerce.” 7 U.S.C. § 5(a). As a result, manipulation from outside the United States is a frequent
target of CFTC enforcement actions necessary to protect that public interest. E.g., Parnon Energy, 875
F. Supp. 2d at 238 (manipulators located in the U.K.,
Switzerland and Australia); In re Statoil ASA, CFTC
No. 18-04, 2017 WL 5517034 (CFTC Nov. 14, 2017)
(far east propane) (settlement); In re Barclays PLC,
CFTC No. 12-25, 2012 WL 2500330 (CFTC June 27,
2012) (LIBOR) (settlement); In re Sumitomo Corp.,
CFTC No 98-14, 1998 WL 236520 (CFTC May 11,
1998) (copper on the London Metals Exchange) (settlement).
4. To illustrate the district court’s error in relying
on geographic considerations, imagine a scenario in
which traders in Turkey establish positions in Black
Sea Wheat contracts on CME, under which the foreign
wheat is deliverable only in Romania, Russia, and
Ukraine. This group can also control or disrupt a significant portion of the physical supply of that wheat.
They do so with the intent to distort the price of the

107a
Black Sea Wheat contract, and they are successful.
This wrongdoing causes injury to other traders on
CME, in Chicago. On that clean set of facts, there is no
question that the overseas traders in the foreign commodity triggered all elements of manipulation, including for private damages. The target of the wrongdoing
was in the United States, the CFTC would pursue
those wrongdoers, and the Court in Morrison could not
have intended to prevent that. See 561 U.S. at 266
(holding that the focus of Section 10(b) is “not upon the
place where the deception originated”).
5. The facts of this case are perhaps not as clean.
But the issues the district court identified—the overseas location and cash-market focus of the alleged
means of manipulation and the perception that the injuries on NYMEX were too attenuated and indirect—
do not go to the geographic reach of the CEA. If anything, they go to Defendants’ intent and whether their
alleged conduct proximately caused the alleged injuries.
6. With respect to intent, although the district
court noted at the start of the opinion that Plaintiffs
allege intentional manipulation of Brent contracts in
the United States, it excluded that allegation when it
described the “crux” as “entirely outside the United
States.” Indeed, the court did not discuss Defendants’
alleged intent anywhere in its analysis of whether U.S.
law applies. SPA-63-67. That was error. As alleged,
manipulating contracts on NYMEX was the scheme,
at least in part. Under the district court’s holding, that
can be done intentionally without regard to U.S. law
or injured U.S. traders, so long as the means remains
offshore. Nothing in Morrison or Parkcentral countenances that result.

108a
7. With respect to the finding that Defendants’ alleged actions were an “indirect” and too “attenuated”
cause of the alleged injuries, those relate to proximate
cause, see, e.g., Bank of America Corp. v. City of Miami,
137 S. Ct. 1296, 1306 (2017) (citation omitted) (requiring “some direct relation between the injury asserted
and the injurious conduct alleged”), which private
plaintiffs must plead and prove, 7 U.S.C. § 25(a).
Given that these limitations exist within the CEA
itself in private actions for manipulation, and that the
statute deliberately encompasses overseas commodities, it makes little sense to say that the CEA does not
apply at all simply because the alleged misconduct utilized offshore cash-market transactions to target the
U.S. exchange.
II. The District Court Overlooked CEA Section
2(i).
1. The district court’s opinion contains several incorrect statements to the effect that the CEA “lack[s]
any express statements regarding extraterritorial application” or “suggesting that Congress intended the
reach of the law to extend to foreign conduct.” SPA-6263. CEA Section 2(i) establishes the extraterritorial
reach of the statute’s swaps provisions:
The provisions of this [Act] relating to swaps
that were enacted by [Dodd-Frank] (including
any rule prescribed or regulation promulgated
under that Act), shall not apply to activities
outside the United States unless those activities—
(1) have a direct and significant connection
with activities in, or effect on, commerce of
the United States; or

109a
(2) contravene such rules or regulations as
the Commission may prescribe or promulgate as are necessary or appropriate to prevent the evasion of any provision of this [Act]
that was enacted by [Dodd-Frank].
7 U.S.C. § 2(i) (emphases added).
“The plain text of this provision clearly expresses
Congress’s affirmative intention to give extraterritorial effect” to Dodd-Frank’s swaps provisions “whenever the provision’s jurisdictional nexus is satisfied.”
Sec. Indus. & Fin. Mkts. Ass’n v. CFTC, 67 F. Supp. 3d
373, 425-26 (D.D.C. 2014).
2. The district court’s errors in this regard rest in
part on a mistaken reading of Loginovskaya. The district court stated that Loginovskaya established “that
the CEA lacked any express statements regarding extraterritorial application.” SPA-62. However, that case
involved only the pre-Dodd-Frank version of the CEA.
Loginovskaya, 764 F.3d at 270 (applying 7 U.S.C.
§ 6o(1) (2008)). The Court emphasized that its holding
was, therefore, limited to that now-superseded version
of the statute:
The Dodd-Frank [Act] amended CEA § 22 to
cover swaps, and provided that its “provisions
... relating to swaps” may, under certain circumstances, “apply to activities outside the
United States.” 7 U.S.C. § 25(a)(1) (2010); id.
§ 2(i). The Court takes no view of the effect
that the Dodd-Frank amendments may have
on the extraterritorial reach of the CEA: no
swaps or transactions involving swaps are at
issue here.
Id. at 271 n.4.

110a
3. Because of these errors, the district court’s
analysis is incorrectly worded as to the extraterritorial
reach of CEA Sections 6(c)(1), 9(a), and 22, 7 U.S.C
§§ 9(1), 13(a)(2), and 25. The decision states that
“[e]ach of these provisions is silent as to any extraterritorial application.” SPA-64. However, that fails to account for Section 2(i), which sets the extraterritorial
reach of “[t]he provisions of [the CEA] relating to
swaps that were enacted by” Dodd-Frank. 7 U.S.C.
§ 2(i). Dodd-Frank amended all three of these provisions to include references to swaps. See Dodd-Frank
§§ 741(b), 749(h), 124 Stat. at 1731, 1748. Section 2(i)
therefore establishes their extraterritorial reach with
respect to swaps activities.
4. This issue is critical to the CFTC. Section 2(i) is
a lynchpin of the Dodd-Frank swaps-market reforms,
given the cross-border swaps activities that catalyzed
the financial crisis in 2008. To curtail it would be “disruptive to the CFTC’s mission and the purposes of the
Dodd–Frank Act.” Sec. Indus. & Fin. Mkts. Ass’n, 67
F. Supp. 2d at 436. Because of the Second Circuit’s
preeminence in the field of financial regulation, the
district court’s erroneous statements, if uncorrected
here, may be cited by other courts and litigants or, at
a minimum, lead to further confusion. It is important,
therefore, that this Court correct those mistaken
statements about the statute’s text.
5. The Commission takes no position on what if
any relevance Section 2(i) has here.

111a
CONCLUSION
This Court should reject the district court’s analysis on the issue of extraterritoriality.
*

*

*

*

*

*

November 22, 2017

